<html>
<title> - OLD-GROWTH FOREST IN THE PACIFIC NORTHWEST</title>
<body><pre>[Senate Hearing 110-430]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-430
 
               OLD-GROWTH FOREST IN THE PACIFIC NORTHWEST 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   TO

   RECEIVE TESTIMONY REGARDING OLD-GROWTH FOREST SCIENCE, POLICY AND 
                  MANAGEMENT IN THE PACIFIC NORTHWEST

                               __________

                             MARCH 13, 2008


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-391 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 












































               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee



































                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................    19
Beck, Paul H., Timber Manager, Herbert Lumber Company, Riddle, OR    33
Brown, Marvin D., State Forester, Oregon Department of Forestry, 
  Salem, OR......................................................    30
Caswell, James, Director, Bureau of Land Management, Department 
  of the Interior................................................     8
Craig, Hon. Larry E., U.S. Senator From Idaho....................    15
Goodman, Linda, Regional Forester, Pacific Northwest Region, 
  Forest Service, Department of Agriculture......................     2
Perry, David A., Professor Emeritus, Department of Forest 
  Science, Oregon State University, Corvallis, OR................    20
Smith, Hon. Gordon, U.S. Senator From Oregon.....................    16
Spivak, Randi, Executive Director, American Lands Alliance.......    39
Tappeiner, John, Professor Emeritus, College of Forestry, Oregon 
  State University, Corvallis, OR................................    26
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1





















                                APPENDIX

Responses to additional questions................................    59


               OLD-GROWTH FOREST IN THE PACIFIC NORTHWEST

                              ----------                              


                        THURSDAY, MARCH 13, 2008

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order.
    The purpose of today's hearing is to receive testimony 
about old-growth forest science policy and management in the 
Pacific Northwest.
    For too many years, old-growth forests have clearly been a 
political battleground, but recently the groundwork for an 
ideological truce has started to emerge. If all sides can agree 
to bury the hatchet when it comes to protecting this country's 
natural resources, we can also find common ground for 
sustainable forest management in less sensitive areas.
    When you take the pulse of the public, the resounding 
outcome is that citizens want their old-growth protected. It's 
my hope that today's hearing will highlight the unique role of 
these forests, and help guide us to a policy that leads to the 
protection of the public.
    It's also been my sense that it is critical to stop the 
needless, excessively costly battles, particularly legal 
battles, surrounding efforts to log old-growth. It's been shown 
again and again, there's disproportionate cost, energy, and 
time spent on planning and litigating unpopular projects, such 
as logging old growth, and this eats up the limited funds that 
our agencies require to plan more urgently needed forest health 
projects. Of course, those projects are exactly the kind of 
projects needed to get ahead of the fires that now eat up more 
than half of the Forest Service budget.
    So absent compelling forest health concerns, it is time to 
end logging of our ancient forests and close this chapter of 
the debate on timber management.
    As I've indicated in prior hearings, addressing the forest 
restoration needs in the Northwest is an issue that I will be 
moving forward very quickly with, with legislation.
    It's clear that there is a need to thin out the overstock 
stands, there are hundreds of thousands of acres there of 
merchantable, you know, timber, and I think it is possible to 
thin out those stands while still protecting the old growth 
that our citizens care so much about.
    We are going to have a particularly hectic morning, with 
lots of votes on the floor, so I'm going to put all of my 
remarks into the record, and I think Senators who do come will 
do the same.
    We want to welcome Linda Goodman, in particular. I know you 
will be retiring before long, we thank you for your terrific 
service. William Peter Wyden, and Eva Rose Wyden are very 
grateful to have those wonderful t-shirts that were delivered 
yesterday, they will be wearing them, and wearing them proudly.
    Mr. Caswell, we welcome you, we welcome all of you. At 
10:15 this morning, we also will be taking a moment of silence 
here in the committee to honor the wonderful men and women who 
serve this country in uniform, with such courage and valor.
    So, it's going to be a hectic morning, and we'll start with 
Linda Goodman, Regional Director of Pacific Northwest Region, 
from my home town, the Honorable James Caswell, Mr. Caswell, 
we're glad that you're here, you have colleagues, as well.
    I would like to ask each of you to put your prepared 
remarks in the record, and just summarize your key concerns--I 
know there's always a kind of almost biological compulsion to 
read, kind of, statements, and if you can just kind of 
recognize--we'll put them in the record, and just highlight 
your principal concerns, we'll have some time for questions, 
that would be great.
    We're also very grateful to Senator Barrasso and all his 
good staff folks. We work in a bipartisan way in this 
subcommittee, that's why we've be able to work successfully on 
county payments and forest health, and the folks sitting in 
back of me, on both the Democratic and Republican side are true 
professionals, and we're anxious to follow up on your concerns.
    So, we'll go right to you, Ms. Goodman. Welcome.

    STATEMENT OF LINDA GOODMAN, REGIONAL FORESTER, PACIFIC 
  NORTHWEST REGION, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Goodman. Thank you.
    So, I will shorten my opening remarks, and tell you that 
I'm pleased to have Dr. John Lawrence here with me. He's the 
Program Manager of the Pacific Northwest Research Stations 
Ecosystem Processes Programs.
    So, I will submit my formal testimony, and I also want to 
submit the first decade results of the Northwest Forest Plan. 
This certainly gives you a lot of background information that 
will be helpful for you.
    So, I'd like to give you a little perspective on what we in 
the Forest Service have learned about the science of old 
growth. Of course, the question is really, what is old growth? 
Old-growth forests mean many things to people. They are often 
perceived as icons of stability, but they were not immune to 
disturbance by nature over the centuries.
    Today's old-growth forests result from a long journey 
through time, and scientists are learning that the journey 
forests take as they become old matters.
    So, I think you know that we've heard lots of different 
definitions about old growth. There isn't a widely accepted old 
growth definition. The term ``old growth'' did not come from 
science, but from foresters in the early days of logging. So I 
want to give you one general definition developed by Tom Spies, 
Research Forester from the Pacific Northwest Region Research 
Station, and Jerry Franklin, Professor of Ecosystem Analysis, 
College of Forest Resources at University of Washington in 
1989.
    It reads, in part, ``Old-growth forests are ecosystems, 
distinguished by old trees, and related structural attributes 
that may include tree size, accumulation of large, dead, woody 
materials, a number of canopy layers, species composition, and 
ecosystem function.''
    To many people this translates to large trees, large down 
logs, and a feeling of awe. Others think of relative islands of 
trees that have been unchanged by time and disturbance. Our 
research has taught us that this last picture, in particular, 
is not accurate.
    Others, such as Tom Bonnickson, in his book, America's 
Ancient Forests, offers an additional perspective on how 
forests have been shaped and changed over hundreds and 
thousands of years, by physical and biological forces, 
including people--we'll also enter this into the record, so I 
won't quote you page by page of information, here.
    But what old-growth forests look like, depends on where you 
are. Old forests look strikingly different across the Pacific 
Northwest, and different management is appropriate. So, I want 
to give you a couple of examples.
    The first is a wet old--if you look over here--the first is 
a wet old-growth forest, and you've seen these many times, 
Senator Wyden. It's characterized by very large Douglas Fir and 
Western Hemlock trees, multiple layers in the canopy and large 
dead logs on the forest.
    The second is on the east side, the Ponderosa Pine Stand, 
more open and park-like, with a simpler canopy and little 
undergrowth on the ground. You might notice that the bases of 
these trees are charred from a low-severity fire on the, burn 
fuels on the forest floor.
    So, let me talk a minute about threats to old-growth. 
Although old-growth forests developed in the face of natural 
adversity, they face many contemporary threats, particularly 
fire, insects and disease.
    In the dry forest of Eastern Oregon and Washington, fire 
and insects constitute the most important threat these days. 
Landscapes with too many trees and not enough open spaces are 
vulnerable to high-intensity fire, different from what occurred 
historically--they can kill large old trees.
    We see many stands with too many trees, that are vulnerable 
to insect attacks, that also kill old trees.
    In moister areas, where the fire regimes are referred to as 
mixed, meaning, historically, fires were of higher intensity 
and lower frequency than in dry forests, fire still remains the 
greatest threat to old forests, due to the accumulation of 
fuels.
    In wet forests, such as on the west side of the Cascades, 
large, infrequent fires are the greatest natural threat, but 
typically, those fires occur hundreds of years apart. For 
instance, the last major fire on the west side, Biscuit, 
occurred in July 2002 and burned approximately 500,000 acres 
across all jurisdictions.
    An emerging threat that causes us a great deal of 
uncertainty and concern, is a rapidly changing climate, and how 
it will affect natural threats to old forests. For example, 
regional droughts could affect tree vigor across entire 
watersheds. This, in turn, can invite beetle infestations 
across whole landscapes, and we're seeing that right now in 
Colorado, and British Columbia.
    For thousands of years, forests of the region developed 
without active management, in largely unpopulated areas. That's 
not the case now. Our current management, and that for the 
foreseeable future, will continue to focus on developing a 
landscape with a diversity of forest agents that will 
accumulate--accelerate the development of old growth. You know, 
it's working. Between 1994 to 2003, gains well outpaced losses 
from all causes, included limited stand replacing, harvest and 
fire.
    In dry and moist forests, that will mean fuels and density 
management. This poster shows a before and after example. The 
first picture was taken before a fuel treatment, the second, 
after B&B. Same area, after the B&B fired in Central Oregon 
burned through the treated stand, and the old trees survived as 
a result of that treatment. You can see, the same area that--
how densely populated it was, many stands, we treated it, we 
did prescribed burning, and when the fire went through, the old 
trees survived.
    Although science helps inform our management of current 
forests of all ages, it's only part of the equation. You can 
see that we get out quite a bit and spend time with our 
scientists. The public's interest in the social, economic and 
intangible values associated with old growth can not be 
overlooked or underestimated, and you mentioned that in your 
opening statement--the public really cares about old growth.
    Some members of the public espouse the precautionary 
principal--don't touch the forests at all. Other members of the 
public expect us to be more aggressive in our management, and 
want us to get the work done now. In an ideal world, we would 
have a balanced approach everyone could agree on. However, as 
we've seen through numerous appeals and litigation, the ideal 
world does not exist.
    As an agency, we continue to seek to strike a balance, 
while fulfilling our professional responsibility to manage the 
land for the public good.
    We all know that if we reduce fuels in and around forested 
ecosystems, including old-growth forests, we will protect them 
from fire. Yet, there are those who say, ``Let nature take its 
course.'' Hundreds of years ago, that approach worked, but now 
that humans have become a large part of the old-growth 
ecosystem, we must play an active role in managing these 
systems.
    Science can and does help us devise a portfolio of 
management approaches to protect and develop diverse old-growth 
forests. We believe science hold the keys, successfully 
ensuring old-growth forests are always part of our legacy. We 
also believe with the key of science, comes the responsibility 
to use it properly, and I'm proud to say, we do.
    So, let me finish by what we should be doing now. I believe 
we must use all the resources we have at hand to manage 
existing and future old-growth forests. This means we need to 
protect current old growth from fire, insects and disease that 
are threats because of conditions that we know are not right--
high fuel loads and old Ponderosa Pine on the East Side, for 
instance. This means that we need to use the best science 
available, couple d with innovative management to implement new 
approaches to accelerate the development of complex forests, 
that function as old growth, perhaps before their time.
    It is our duty to work with all of the people to ensure the 
forests of today become vibrant, living, legacies for future 
generations to use and enjoy.
    Thank you for letting me talk to you today, and I look 
forward to your questions.
    [The prepared statement of Ms. Goodman follows:]
    Prepared Statement of Linda Goodman, Regional Forester, Pacific 
      Northwest Region, Forest Service, Department of Agriculture
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on old growth management in the Pacific 
Northwest. I am Linda Goodman, Regional Forester for the Pacific 
Northwest Region for the USDA Forest Service. I would like to share 
with you our perspective on science and management of old growth 
forests in dry, wet, and mixed forest types across the Pacific 
Northwest.
                        general characteristics
    Old growth forests have high ecological, social, and economic 
values and mean many things to people. While they are often perceived 
as an icon of stability, old growth forests have not remained 
undisturbed for centuries by nature. Today's old growth forests 
developed and are continuing to develop along multiple pathways with 
many low-severity and some high-severity disturbances along the way. 
Scientists are learning that, as a result of the multiple pathways and 
different timeframes forests take towards becoming old growth, 
heterogeneity exists in old growth ecosystems.
    What is an old growth forest? This is a simple question without a 
simple answer for there is no single, widely accepted definition of old 
growth. The term ``old growth'' did not originate as a scientific term 
but came first from foresters in the early days of logging and later 
from others who sometimes replace the term with the more dramatic, but 
even less precise ``ancient forests''. There are many strong opinions 
from different scientific disciplines and policy perspectives on the 
appropriate definition(s) of old growth, including from forest ecology, 
wildlife ecology, recreation, spirituality, economics, and sociology. 
In 1989 a general definition for the Pacific Northwest was developed by 
Tom Spies (Research Forester, Pacific Northwest Research Station) and 
Jerry Franklin (Professor of Ecosystem Analysis, College of Forest 
Resources, University of Washington). The definition reads, in part: 
``Old growth forests are ecosystems distinguished by old trees and 
related structural attributes . . . that may include tree size, 
accumulation of large dead woody material, number of canopy layers, 
species composition, and ecosystem function.'' Most scientists would 
now include vertical and horizontal diversity in tree canopies as 
important attributes of old growth forests.
    The common features of many old growth forests are old trees and 
structural complexity. We have learned that old growth forests are 
diverse, varying in structure, function, and role of disturbance. In 
the wetter provinces,\1\ old growth is characterized by dense multi-
layered forests; in drier provinces, by relatively open crown canopies 
and understories. Many scientists believe that the diversity of forest 
types within the Pacific Northwest and elsewhere necessitate multiple 
definitions of old growth, and that these definitions should reflect 
the inherent patterns and dynamics of the forest landscape mosaic of an 
area. Just as there are many different types of forests for the diverse 
array of climates, soils, and topography, there are many different 
types of old-growth forests.\2\ For example, old growth forests east of 
the Cascades and in the Klamath Province of southern Oregon 
historically ranged from open, patchy stands, maintained by frequent 
low-severity fire, to a mosaic of dense and open stands maintained by 
mixed severity fire. In these areas, old growth structure and 
composition were varied and were shaped by a complex disturbance regime 
of fire, insects, and disease.
---------------------------------------------------------------------------
    \1\ The Northwest Forest Plan (NWFP) area has 12 distinct 
provinces, classified by their differences in climate, vegetation, 
geology, and landforms. One especially important difference is the fire 
regime, or characteristic combination of fire frequency, intensity, 
seasonal timing, and fire size in an ecosystem. Provinces are 
considered to be dry and fire-prone are the Washington and Oregon 
Eastern Cascades, Oregon and California Klamath, and the California 
Cascades.
    \2\ See, for example, PNW-GTR-720, January 2008, First-Decade 
Results of the Northwest Forest Plan and Supplemental Materials, as 
well as Kaufman et al. 2008. Defining Old Growth for the Fire Adapted 
Forests of the Western United States, Ecology and Society 12(2): 15.
---------------------------------------------------------------------------
    Tree (or stand) age or tree size are not by themselves adequate 
descriptors of either the structure or function of old growth forests, 
yet these two attributes are commonly used descriptors by the media and 
public. Others use the absence of clearly visible human activity as a 
necessary criterion for old growth, but there is no consensus on this 
in the scientific community nor any real basis in experience or fact.
                            current science
    Science has made great strides in refining our understanding of the 
ecological roles of older forests and the structure associated with 
those forests, which are important in the understanding of what old-
growth is in healthy, dynamic forest ecosystems. The ecological 
functions of old growth include unique wildlife habitat, high levels of 
carbon storage and cycling of nutrients, and capture, storage, and 
release of clean water into streams and rivers. The Forest Service, 
drawing on its research expertise, is exploring management strategies 
to accelerate the development of multi-storied, complex structure (old-
growth) in forests of the Pacific Northwest where it has been lost 
through previous logging or fire suppression and where, through that 
loss, forest ecosystem function and resiliency are diminished or 
impaired.
    Research has demonstrated that, historically, the amount of old 
growth forest across the Pacific Northwest region ebbed and flowed, 
with natural disturbances creating a patchwork of forest ages across 
landscapes. By 2004, ten years after the approval of the Northwest 
Forest Plan,\3\ the total area of late-successional and old growth 
forest (often referred to as ``older forest'') in the Northwest Forest 
Plan area ranged from about 3 million acres to 8 million acres, 
depending on the definition of late successional and old-growth forest. 
Monitoring during this time has shown that the rate of increase of 
acres of older forest is somewhat higher than expected. Between 1994 to 
2003, gains well outpaced losses from all causes, including limited 
stand-replacing harvest and wildfire. Overall losses from wildfire are 
in line with what was projected, but the rates of loss have been highly 
variable among different locations, with the highest rates of loss 
occurring in the dry provinces. Increased densities of fuels and 
development of ladder fuels increase the probability of high-severity 
fire and the loss of late successional forest. Increasingly widespread 
and prolonged outbreaks of insects and disease that, in turn, can lead 
to higher and more widespread mortality and the cascading effects of 
increased fire severity have the potential to further lower the overall 
amount of older forests and trees. Monitoring suggests that rates of 
fuel treatments and restoration of structure and disturbance regimes in 
fire-dependent older forest types have been considerably less than is 
needed to reduce potential for losses of these forests to severe 
disturbance.\4\ As a consequence the old growth forests and landscapes 
of the dry provinces are among the most threatened and degraded 
coniferous forest ecosystems within the Northwest Forest Plan area.
---------------------------------------------------------------------------
    \3\ In April, 1994 the Secretaries of Agriculture and Interior 
issued a Record of Decision (ROD) for the Northwest Forest Plan (NWFP). 
The ROD affects the management and administration of 22.1 million acres 
of Federal land within 19 national forests in western Oregon, western 
Washington, and northern California administered by the Forest Service 
and Bureau of Land Management. The NWFP created 10 million acres of 
reserves where development of late successional or riparian habitat is 
the primary objective.
    \4\ See PNW-GTR-720, January 2008, First-Decade Results of the 
Northwest Forest Plan and Supplemental Materials.
---------------------------------------------------------------------------
                             climate change
    Changes in climate increase the uncertainty associated with forest 
development and associated management. Climate and weather have changed 
periodically during the development of our old forests. They will 
continue to change at uncertain rates into the future (thereby 
constituting a disturbance in their own right). Climate also interacts 
with other disturbance factors that shape the development of forests. 
Within the Pacific Northwest, the natural disturbance agents 
potentially affected by climate include insects, disease, windthrow, 
and fire. These disturbances often occur sequentially or in 
combination. For example, when regional droughts affect tree vigor 
across entire watersheds and contiguous blocks of host trees are 
available, beetle populations can build and attack trees across whole 
landscapes or regions. The resulting increase in dry fuels increases 
the probability of fire. As a result of warming trends, it is possible 
that insect and disease outbreaks could become quite large, as we 
already are seeing in Colorado, British Columbia and elsewhere.
                        management implications
    The mission of the Forest Service is to sustain the health, 
diversity, and productivity of the nation's forests and grasslands to 
meet the needs of present and future generations. The National Forest 
Management Act (NFMA) establishes the goals of maintaining species 
diversity and ecological productivity on National Forest System lands. 
Ensuring a diversity in forest ages and stand structures across 
landscapes and the region supports this goal and mission. Old growth 
has an important role in that mixture, in ecosystem dynamics and in 
providing unique wildlife habitat. In many cases active management is 
needed to restore old growth or reduce the risk of loss of old growth 
to high severity fire. We believe that, on the east side of the 
Cascades, it will be necessary to treat stands to manage fire and 
insects to re-establish and maintain a diversity of forest age and 
stand structures. On the west side, thinning and other such treatments 
are necessary to accelerate and/or continue the development of desired 
future structural conditions in dense, uniform young forests.
    Current research supports the view that to achieve conservation 
outcomes it is best to avoid ``one-size-fits-all'' approaches as much 
as possible. Using different definitions of late successional and old-
growth will result in different silvicultural approaches taking into 
account the differences in the role of fire, insects and disease for 
the different forest types. In managing old growth forests, it also is 
important to consider multiple spatial scales including trees, stands, 
landscapes, and regions. This is why we develop site-specific 
integrated management prescriptions at the stand and landscape level. 
The classic conservation approach of dividing the landscape into 
reserves and production areas may not work well in dynamic landscapes--
new approaches need to be tested and applied using adaptive management 
principles.
    Because dry old-growth forests (such as ponderosa pine) likely 
developed as a result of frequent low intensity fires that created 
relatively open forests with scattered large trees and patches of 
regeneration across the landscape, re-establishing the structure of 
these forests and the natural role of fire will require a combination 
of mechanical removal of trees and the use of prescribed fire on a 
site-by-site basis. Many such projects have been implemented in the dry 
forest on the east side of the Cascade Mountains, for instance near 
Black Butte Ranch in Oregon, with demonstrable success. In more moist 
forests (such as mixed conifer), fire has also been a predominant force 
historically, but the fire regime is more variable and includes some 
infrequent, large, intense fires, but with significant patchiness, 
leading to a more complex mosaic of forest on the landscape. Management 
might make use of strategically placed area treatments (SPLAT) to 
reduce fuels and protect important older forest stands in mixed types. 
This strategy has been implemented at the Sagehen Experimental Forest 
and is part of an amendment to the Sierra Nevada Forest Plan. The 
wetter old growth forests typically developed following infrequent 
stand replacement disturbances that were sometimes caused by fire, but 
in coastal areas, could also be caused by extreme wind. Such 
disturbances killed most or all of the canopy trees and created large 
patches of diverse young forest that required centuries to become 
structurally complex old growth. In the Coast Range of Oregon, active 
management projects, such as the Five Rivers Landscape Management 
Project, are testing alternative approaches to accelerating the 
development of old-growth characteristics through thinnings, dead wood 
management, and riparian rehabilitation.
    Management treatments to accelerate the development of complex 
structure can be undertaken in any of the forest types and are most 
effective in younger, uniform stands including both natural stands and 
plantations, or dense older forests where fire suppression has allowed 
dense understories to accumulate, increasing the risk of high severity 
fire. It should be noted that many of the habitat values of old growth 
forests can occur in younger forests where some structural complexity 
(e.g. large old live and dead trees, shrubs, canopy openings etc.) 
occurs. Management might be appropriate at many ages to achieve a goal 
of re-establishing the dynamic mosaic of forest ages across the 
landscape, especially in light of changes in management of private 
forest lands. This highlights the need to evaluate older forests in the 
context of landscape-level planning and longer time frames. Our forest 
planning process provides the best vehicle for accomplishing this 
assessment. By contrast, broad `one-size-fits-all' legislative 
prescriptions are less useful.
                               conclusion
    Multiple definitions of old growth are appropriate for the 
diversity of forest types within the Pacific Northwest. Old growth 
definitions and management strategies should be refined to reflect the 
inherent patterns and dynamics of the forest landscape mosaic of an 
area.
    To re-establish a diversity of forest age and stand structures in 
some locations it will be necessary to treat stands on the east side of 
the Cascades to manage fire and insects. On the west side of the 
Cascades, treatments will be needed in some locations to accelerate 
and/or continue the development of desired future structural conditions 
in dense, uniform young forests.
    The most threatened and degraded coniferous forest ecosystems 
within the Pacific Northwest are the old growth forests and landscapes 
in dry provinces. Conserving the ecological diversity of these forests 
is a major challenge. Increasing the amount of active management 
through use of mechanical treatments and prescribed fire is critical to 
restoring and protecting these important landscapes. On the westside of 
the Cascades, thinning tree plantations and other silvicultural 
practices can help to restore ecological diversity in young forests and 
accelerate the development of old growth characteristics.
    We are committed to using all the tools at our disposal to ensure 
that landscapes include older forests that are sustainable through time 
and able to weather the multitude of changes that are predicted to 
occur in the future. We are also committed to using these tools to 
produce the myriad ecological and economic values the public demands 
from the National Forests.
    I will be happy to answer any questions the Subcommittee Members 
may have.

    Senator Wyden. Thank you for your professionalism, and I 
note that you began you career when Mary Gautreau, who is a 
terrific member of our staff, began her career at the Forest 
Service. We thank you for all of your professionalism and your 
many years of service.
    Ms. Goodman. Thank you, sir.
    Senator Wyden. We'll have some questions in a minute.
    Mr. Caswell, welcome.

     STATEMENT OF JAMES CASWELL, DIRECTOR, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Caswell. Thank you, Senator.
    Mr. Chairman, Senator Craig. It's a pleasure to be here 
today. I will also abbreviate my oral statement further from 
the testimony that's already been submitted.
    BLM manages about 3.5 million acres of forests, woodlands, 
about 2.2 million acres generally known as the O&C, contains 
some of the most productive forests in the world. They're in a 
checkerboard ownership, intermingled with private lands that 
are generally managed from an industrial timber production 
base.
    Old-growth forests have engendered passionate debate from a 
wide spectrum of interested parties, and we recognize that 
discussions on this issue are highly charged.
    Due to the differing opinions about the appropriate 
management, as well as divergence as to the actual definition 
of old growth, generally, scientists agree that on the west 
side of the Cascade Range, old-growth Douglas Fir and Western 
Hemlock forests contain certain structural characteristics. 
Large over-storied trees, multiple tree canopy levels, large, 
coarse, woody debris, a lush under story shrub layer, and 
infrequent stand replacement fires.
    Science has contributed to our understanding of the 
complexity of these older forests, and the ecological functions 
these forests provide on the landscape. This complexity 
increases the resiliency of the forest systems to disturbance, 
and provides a suite of environmental services, including clean 
water, clean air and wildlife habitat
    In addition to the ecological benefits, however, the 
forests of O&C provide substantial social and economic benefits 
to the communities. In fact, the O&C Act of 1937 requires the 
BLM to manage these lands for several purposes, including a 
permanent source of timber supply, and contributing to the 
economic stability of local communities and industries.
    The BLM also must comply with requirements of statutes 
enacted, subsequent to the O&C Act, including the Endangered 
Species Act, the Clean Water Act, and of course, the National 
Environmental Policy Act.
    Since 1994, BLM has managed these lands under the Northwest 
Forest Plan, which categorizes old growth as 200 years, or 
older. The Northwest Forest Plan had dual purpose--one was to 
maintain late successional old-growth ecosystems, and the 
second was to provide a predictable, sustainable supply of 
timber.
    The Northwest Forest Plan has met its first objective, but 
not its second. In the 14 years since the plan was implemented, 
about 3,500 acres of old growth have been harvested from BLM-
managed lands in Western Oregon, and approximately 41,000 acres 
of in-growth has occurred. Since 1998, there have been very 
little harvest of old growth or late succession forests in the 
Pacific Northwest.
    The majority of harvest during this period has come from 
thinning in stands less than 80 years of age. This cannot 
continue. I testified before the subcommittee last December, 
thinning alone does not constitute sustainable forestry.
    BLM has proposed revisions to our existing land-use plans 
that would balance the environmental, economic and social needs 
of these unique Western Oregon forests. More than half of the 
land base, BLM land base, about 51 percent would be managed for 
conservation of habitat needed for the survival and recovery of 
listed species, and for other purposes.
    About 49 percent of that land base would be managed for the 
permanent production of timber in conformity with the 
principles of sustained yield, consistent with the O&C Act and, 
of course, subject to all other laws.
    Proposed revisions acknowledge that not all acres can be 
managed to achieve all outcomes, but we believe that if these 
proposed revisions to our land-use plans take effect, BLM can 
manage the O&C Forest to both provide late successional 
habitat, and contribute to the economic and social benefits and 
communities throughout Western Oregon.
    In 1950, the standing volume on the O&C Lands was estimated 
to be greater than 50 billion board feet. Fifty years later, 
after the harvest of some 45 billion, over that 50-year period, 
the standing volume today is estimated at 70 billion board 
feet.
    Given the sensitivity and controversy over these issues, we 
are certain the dialog will continue, and Mr. Chairman, I'd be 
glad to stand for any questions.
    [The prepared statement of Mr. Caswell follows:]
     Prepared Statement of James Caswell, Director, Bureau of Land 
                 Management, Department of the Interior
    Thank you for the opportunity to discuss the status of old-growth 
forests on public lands managed by the Bureau of Land Management (BLM) 
in the Pacific Northwest region. As a lifelong forest manager, these 
issues are of particular interest and importance to me.
    Approximately 69 million acres of diverse forests and woodlands are 
managed by the BLM throughout the western United States, including more 
than 3.5 million acres in the Pacific Northwest states of Oregon and 
Washington. The BLM's largest forest management program is in western 
Oregon, and my comments will focus primarily on this program. I will 
also briefly address the BLM's management of Public Domain forest 
resources in eastern Oregon and Washington.
                      forest management by the blm
    Old Growth Forests have engendered passionate debate from a wide-
spectrum of interested parties. We recognize the importance of old 
growth forests from an ecological, social, and economic perspective. We 
also recognize that discussions on this issue are highly charged, due 
to differing opinions about appropriate management as well as 
divergences at a more fundamental level concerning the definition of 
old growth. Science has contributed to our understanding of the 
complexity of older forests and the ecological functions these forests 
provide on the landscape. The complexity found in older forests 
increases the resiliency of these forest systems to a variety of 
disturbances and helps maintain healthy and dynamic forest ecosystems 
that provide a variety of environmental services, including clean 
water, wildlife habitat, carbon sequestration, along with a variety of 
recreational opportunities.
    While there is disagreement on when a forest reaches old-growth 
condition, generally scientists agree that west of the Cascade Range, 
old-growth Douglas-fir and western Hemlock forests contain certain 
structural characteristics. These characteristics consist of old large 
overstory trees, multiple tree canopy levels, large course woody 
debris, a lush understory shrub layer and infrequent stand replacement 
fire events. In contrast, the dryer eastern and southwest Oregon old-
growth forests generally contain widely-spaced or small groups of large 
overstory trees with a more open grassy understory maintained by 
frequent low intensity fire.
    Overlying these issues are additional factors that add to the 
complexity of the BLM's management. The BLM must comply with a distinct 
statutory mandate, the O&C Act. The lands managed by the BLM are in a 
checkerboard ownership pattern, intermingled with private lands, which 
are generally managed for industrial timber production. Forest science 
informs the sustained yield management of the O&C forests. Compliance 
with environmental laws and policy guidance add another layer of 
scientific considerations. The BLM's forest management actions are 
analyzed by an interdisciplinary team of specialists, including 
wildlife biologists, soil scientists, forest ecologists and 
hydrologists. These specialists utilize the available body of science 
in their discipline to design, implement and monitor the BLM's forest 
management actions. Other environmental factors, including climate 
change, affect natural disturbances such as fire, insects, disease, 
windthrow or storm damage, which have a profound impact on the health 
of the forests under BLM's care.
                               o&c lands
    The BLM's western Oregon districts manage 2.5 million acres that 
contain some of the most productive forest lands in the world. Of 
these, about 2.4 million acres are managed under the ``O&C'' lands 
designated by Congress in the ``Revested Oregon and California Railroad 
and Reconveyed Coos Bay Wagon Road Grant Lands Act of 1937'' (O&C Act). 
The O&C Act directs the BLM to manage the western Oregon public lands 
``. . . for permanent forest production, and the timber thereon shall 
be sold, cut, and removed in conformity with the principal of sustained 
yield for the purpose of providing a permanent source of timber supply, 
protecting watersheds, regulating stream flow, and contributing to the 
economic stability of local communities and industries, and providing 
recreational facilities . . . . '' (43 U.S.C. Sec.1181a).
    Consistent with this statutory mandate, the BLM recognizes that the 
dominant use of the O&C lands is the management of timber resources, 
including cutting and removal. A 1990 opinion by the 9th Circuit Court 
of Appeals affirmed this interpretation and recognizes that the O&C Act 
places limitations on BLM's discretion on managing the O&C lands. The 
BLM also complies with the requirements of statutes enacted subsequent 
to the O&C Act such as the Endangered Species Act of 1973 and the Clean 
Water Act of 1972. The Federal Land Policy and Management Act (FLPMA), 
enacted in 1976, specifically provides that if there is a conflict 
between the O&C Act and FLPMA relating to the management of timber 
resources, the O&C Act shall prevail. Neither the O&C Act nor Federal 
Land Policy and Management Act, however, contains specific provisions 
that govern the management of old-growth.
    In addition to these statutes, the BLM's management of public land 
resources in the Pacific Northwest is guided by administrative policy. 
Until 1990, BLM's implementation of the O&C Act was conducted in such a 
way that the volume sold approached the calculated and declared 
allowable harvest from the available timber lands. From 1950 to 1990, 
the BLM averaged over one billion board feet of timber sold annually. 
In 1950, the standing volume on the O&C lands was greater than 50 
billion board feet (BBF). Fifty years later, after selling 45 BBF, the 
standing volume is now 70 BBF due to better information, in-growth and 
rapid reforestation of harvested lands.
    Since 1994, the BLM has managed the forested lands in western 
Oregon under the guidance of the Northwest Forest Plan (NWFP). The NWFP 
was adopted by the Department of the Interior and the Department of 
Agriculture for federal forests within the range of the northern 
spotted owl as an ``ecosystem management plan for managing habitat for 
late-successional and old-growth forest related species.'' The NWFP has 
a dual purpose--to maintain the late-successional old growth ecosystem 
and to provide a predictable and sustainable supply of timber. The NWFP 
has met the first objective, but not the second objective. Since 
adoption, timber outputs have been at just 49 percent of the called-for 
harvest levels. Balancing the dictates of the O&C Act, the Endangered 
Species Act, and other laws with the policy in the NWFP has been a 
constant struggle for the BLM over the past 14 years.
    BLM-managed lands comprise ten (10) percent of the NWFP's total 
area of 24 million acres in Oregon, Washington, and northern 
California. In very broad terms, the NWFP, prior withdrawals, and 
Congressional designations placed approximately 80 percent of this 
entire area in reserves, and thus excluded them from the calculation of 
the allowable sale quantity (ASQ).
    In 1995, the BLM's land use plans for western Oregon were amended 
to incorporate the policy guidance of the NWFP. The NWFP categorizes 
old-growth forests as 200 years and older. Age is not the only factor 
in management decisions regarding old-growth forests. NWFP policy 
requires the BLM to manage the reserved areas for the purpose of 
``managing habitat for late-successional and old-growth forest 
dependent species.'' Standards and guidelines, applied in association 
with timber harvest, require the retention of snags, live trees, down 
logs and woody debris, measures designed to promote diversity and 
protect late-successional and old-growth forests and associated 
species.
    The BLM's existing land use plans for western Oregon respond to 
multiple, often competing, needs for late successional--old-growth--
habitat, and for forest products. Late-successional, old-growth habitat 
is needed to promote a healthy forest ecosystem that will support 
populations of species protected under the Endangered Species Act. A 
predictable, sustainable supply of timber and other forest products is 
needed to help maintain the stability of local and regional economies 
and contribute valuable resources to the national economy. To meet 
these multiple objectives, our western Oregon land use plans provided 
that some mature and old-growth stands would be harvested and that 
younger stands would be thinned.
    As a result, BLM had anticipated that approximately 3 percent of 
late-successional and old-growth forests (approximately 11,000 acres) 
outside of the reserves would be harvested during the first decade of 
the NWFP's implementation. That level of harvest has not occurred. 
Since the inception of the NWFP in 1994, 3,500 acres of old-growth has 
been harvested from BLM-managed lands in western Oregon; approximately 
41,000 acres of in-growth have occurred. Since FY 1998, there has been 
very little harvest of old-growth or other late-successional forests in 
the Northwest. The majority of harvest during this period has come from 
thinning in stands less than 80 years of age.
    The NWFP's policy objective of ``maintain[ing] the late-
successional and old-growth forest ecosystem and provid[ing] a 
predictable and sustainable supply of timber, recreational 
opportunities and other resources at the highest level possible'' has 
been extraordinarily difficult to implement on-the-ground. For example, 
under the NWFP, approximately 500,000 acres of BLM-managed land are 
available for timber harvest. Under the NWFP, BLM's target is 203 
million board feet per year of allowable sale quantity and 100 million 
board feet of non-sustained yield LSR thinning volume pursuant to the 
settlement agreement in AFRC et al. v. Clarke. Each year the BLM comes 
closer to achieving the target. The majority of the volume offered has 
come from thinning sales.
    The BLM is striving to balance the environmental, economic, and 
social needs of these unique O&C lands. Under the proposed revisions to 
the existing Western Oregon land use plans, BLM-administered lands in 
western Oregon will be managed for a variety of outcomes including late 
successional habitat for listed species, riparian objectives to protect 
aquatic habitats and water quality, and to contribute to economic and 
social benefits. The proposed revisions acknowledge that not all acres 
can be managed to achieve all outcomes. In the preferred alternative, 
more than half of the land base (51 percent) would be managed for 
objectives other than forest products, including conservation of 
habitat needed for the survival and recovery of listed species. About 
49 percent of the land base in the BLM's western Oregon districts would 
be managed for permanent forest production in conformity with the 
principles of sustained yield, consistent with the O&C Act. BLM 
management activities on these acres will also comply with all other 
applicable laws.
                         public domain forestry
    I turn now to address the BLM's Public Domain forest program, under 
which the BLM manages approximately 67 million acres of diverse forests 
and woodlands throughout the western United States and Alaska. In 
eastern Oregon and Washington, the BLM's Public Domain forestry program 
manages about 223,000 acres of commercial forests (ponderosa pine, 
lodgepole pine, and Douglas-fir) and 815,000 acres of woodlands 
(predominantly western juniper) under the principles of multiple use 
and sustained yield as directed by the Federal Land Policy and 
Management Act (FLPMA).
    Since 1993, BLM policy direction for Public Domain forestry has 
shifted away from commercial outputs and toward a balance of natural 
resource benefits to current and future generations, to ``maintain and 
enhance the health, productivity, and biological diversity of these 
ecosystems.'' Timber harvest is used as a tool to meet a variety of 
objectives, where appropriate. Many Public Domain acres, however, are 
not suitable for commercial forest products, and therefore the BLM does 
not calculate an annual ASQ.
    Under the BLM's Public Domain forest management policy, forests and 
woodlands are managed to maintain or create desired forest conditions, 
including those that contribute to biodiversity and wildlife habitats. 
Where appropriate, forests are treated to reduce hazardous fuels 
buildups to provide for public safety.
    The Public Domain forestry program manages those areas that contain 
old-growth (native species that are at least 150 years old) stands 
where they exist in their natural range. A certain percentage of old-
growth occurs in non-commercial forest types, such as the juniper 
woodlands of eastern Oregon. The continued health and vigor of these 
older trees is considered in the treatments that are designed to 
improve forest resiliency, reduce wildfire hazards, and support a high 
level of biodiversity.
    Most older forest communities on BLM lands are choked with higher 
tree densities than in the past when periodic low-intensity fires 
maintained these systems. In many cases these are no longer natural 
self-sustaining forest communities. Active management, with thinning 
from below and the introduction of prescribed fire, is necessary to 
return these forest communities to fully functioning ecosystems.
                               conclusion
    The BLM recognizes the importance of old growth forests from an 
ecological, social, and economic standpoint. Given the sensitivity and 
controversy over these issues, the unique characteristics of old growth 
forests, the importance of old growth for the health of forest 
ecosystems and the wildlife who live there, the statutory mandate under 
the O&C Act to provide for permanent forest production on a sustainable 
yield basis, other environmental statutes including the Endangered 
Species Act, and the NWFP, we are certain the dialogue on old-growth 
will continue.
    Mr. Chairman, this concludes my prepared statement. I will be 
pleased to answer any questions that you or other members of the 
Subcommittee may have.

    Senator Wyden. Thank you very much, Mr. Caswell.
    We've been joined by Senator Craig and Senator Smith. I'm 
going to say to my colleagues, as I announced earlier, we're 
going to have a moment of silence at 10:15, we've got the votes 
at 11, so we're going to have to really speed through this, and 
I'll take 5 minutes, and Senator Craig, Senator Smith will all 
take 5 minutes, and see if we can get this accomplished. Thank 
you all for putting up with what's going to be a challenging 
morning.
    First question to you, Ms. Goodman, we had Secretary Rey 
here recently, and of course his knowledge in the forestry 
area--he has so much expertise. We finally, after a bit of 
sparring back and forth, got him to say that the budget for 
thinning this year would be less than last year's budget. This 
strikes me as a very wrong-headed approach to our challenge. 
Because, somehow we've got to break this cycle of skewed 
priorities in forestry. What happens is, you don't have enough 
work being done in the thinning area, and then we have these 
huge fires, these infernos, and all of the money then goes off 
to fire suppression.
    So, my first question to you is, isn't it correct--from a 
purely forestry standpoint--set aside all of the debate about 
what's being spent in the accounts--that if you have more 
thinning and forest health projects funded, doesn't that 
provide an opportunity to reduce the amount of money that gets 
burned up by the fire suppression budget?
    Ms. Goodman. I certainly agree with you that there's a lot 
of work that needs to be done, Senator Wyden, and I----
    Senator Wyden. But just--a yes or no on the question of, if 
you do more thinning and forest restoration, isn't that an 
opportunity to reduce some of the money that gets chewed up on 
fire suppression?
    Ms. Goodman. Long term, the answer is, yes. You saw the 
pictures where we actually did some thinning, and the fire 
burned through and the old-growth trees survived.
    So, yes, long term. Short term, we won't see that major 
reduction, and that's why we need assistance with our----
    Senator Wyden. Fair enough.
    I've been very impressed with the kind of projects going on 
in the Siuslaw and in Lakeview. They've essentially been the 
restoration thinning kind of approach, in terms of plantations, 
and they go out and they get the timber industry folks together 
and the mills and the environmental people and your folks and a 
good cross-section of people. It strikes me that this is a 
pretty good model to pursue. The Government Accountability 
Office, I guess, is releasing a report today, indicating it's a 
pretty good model.
    I gather that you all have been interested in this, as 
well. Can you tell us your thoughts about restoration and 
thinning, and why you think maybe this is a chance to reduce 
some of the public controversy and delay and litigation as 
compared to what's gone on in the past?
    Ms. Goodman. I certainly agree with you, it's a great 
model, and actually, we've taken that model past Lakeview and 
the Siuslaw--you see it in almost every forest. We have 
collaborative approaches. In fact, HEFRA has really helped us 
on the East Side, where we're bringing folks together to talk 
about what should be done on the landscape. We're seeing 
thinning models throughout the region, where we are using a 
collaborative approach, and it is working. We're seeing less 
litigation, even though we still have people taking their right 
to appeal and litigate, but we certainly are seeing that 
collaborative approach throughout the region. So, I agree 
wholeheartedly it's a good model.
    Senator Wyden. What's your sense about the transformation 
of the timber industry's infrastructure? My sense is that we've 
got a lot of mills now, we're putting a great deal of effort 
into making the changes in their infrastructure--their 
equipment and the way they run their business--to move away 
from old growth. Do you have any sense of how fast that 
transformation is taking place?
    Ms. Goodman. I really don't. I know that a lot of the mills 
are spending millions of dollars improving their millworks, and 
I think you'll have somebody testifying on the next panel who 
could probably answer that better than I.
    Senator Wyden. Last question for my round is, Mr. Caswell, 
the Forest Service, to their credit, is indicating that they're 
trying to move away from planning old-growth sales in 
responding to the public. But BLM continues to plan a number of 
old-growth sales, and the Western Oregon Plan revision proposes 
a large-scale resumption of old-growth logging in BLM lands. My 
guess is this is going to be a huge lawyer's full-employment 
program, that there's going to be a tremendous amount, you 
know, of litigation.
    Why can't we get you all to pick up on some of the thinking 
that Ms. Goodman just described as so promising?
    Mr. Caswell. Mr. Chairman, first of all, I think you still 
have to reflect back to the O&C Act and the purpose around 
which the O&C lands were established, that's No. 1.
    No. 2, within the matrix of the Northwest Forest Plan 
that's currently in place, you know, there is a really large 
component of the harvest level, the ASQ that was prescribed, 
that was to come from those lands. Now, some of that is old 
growth, some of that is thinning. I mean it's, you know, it's a 
mix of age classes. Over 14 years, however, almost all of those 
projects in the matrix that was available, was called for as 
part of that second objective of Northwest Forest Plans has had 
the, you know, we've been met with the same kind of resistance. 
We work very hard--we do the same kind of collaborative things 
the Forest Service does. We have groups that get together and 
try to plan sales and operations. But, the fact remains that if 
folks want to stop the activity, they can certainly do that.
    If we are going to uphold our responsibilities under the 
O&C Act for the benefit of the O&C counties, and given the land 
pattern that we have, and the stand structures that we have, we 
have to manage timber at a larger scale in older stands.
    I'm not necessarily talking about stands 200 years and 
plus. I mean, we can argue a long time about where that cutoff 
is, that's why age really doesn't work very well. So, there's 
stands in the 160 to 180 and the 150 to 160 that look like old 
growth--there's stands that are 140 that look like old growth, 
or people would be inspired to believe that they are, in their 
mind, and that's fine.
    But those are also part of the solution, here, to provide a 
sustainable supply of timber.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you very much, Mr. Chairman. I 
appreciate our panelists being with us this morning, and 
reexamining as this committee ought to, on a regular basis, 
forest policy.
    You and I and Senator Smith have been involved in forest 
policy a long while. I've been involved in it 28 years here in 
Congress, so I've seen a reasonable span of time, and a 
reasonable change--different changes in policy, right through, 
of course, the Pacific Northwest, through the Northwest Forest 
Plan in the 90s, and what I believe was a false base for its 
creation. I've been very blunt and very bold about it. I've 
followed the debate and participated in the debate as it 
relates to late successional forests and the complex forest 
policy that we tried to design to do that.
    I've drawn a rather simple conclusion based on the last few 
years. We saved the tree from the logger, but we haven't saved 
it from Mother Nature. Because an old-growth tree is, quite 
simply, a tree that has matured and is starting to die. Now, it 
may take 200 years for it to get there, but it is no longer the 
robust, active, growing tree that it once was in its youth.
    While I know that has been the mantra of the large part of 
the debate, it is fascinating to me the phenomenal 
destructiveness we've turned loose in the system. That is, 
because of our involvement with Mother Nature, our fire 
suppression for 80 or 90 years, and a failure to replicate a 
fire-like scenario by man's presence in the forest. Now we're 
having unprecedented situations occur, that I must tell you, 
when Mother Nature decides to start burning, she will not burn 
up to the old-growth line and say, ``Oops, gotta stop there, 
because policy won't allow me to touch that.'' She will sweep 
through, and in a catastrophic way destroy--and destroy in a 
way, oftentimes, that we've not seen in the past. The intensity 
of these fires are phenomenal.
    So, we wring our hands, we try to do something different. 
Ron and I became involved in trying to create a new policy of 
thinning and cleaning and changing the dynamics of our forests 
through the Healthy Forests Act.
    Then we get to something like this, Ms. Goodman. In giving 
us an estimate of what we might do with NEPA, or ESA or the 
National Forest Management Act and the requirements for a 
typical forest management project, Undersecretary Rey mentioned 
when he was last here, when we said, ``OK, we develop 
categorical exclusions in healthy forests, what does it cost to 
do that?'' Roughly $50,000, but then we've got a judge that 
says, ``No, no, no, you can't do all of that kind of thing. 
That's wrong.''
    So, then, OK, then let's do an environmental assessment--
what does that take? That's roughly $250,000, and about a year 
to put together.
    What about a full-blown environmental impact statement? 
That requires a million dollars and 2 or 3 years to put 
together. The last time I looked at the statistics and the fuel 
loads in our forests, and the ramping up of fires that are 
going on out there, Mother Nature isn't waiting for us--she's 
taking over. We're simply following along. I understand there's 
a great satisfaction on the part of some communities, that fire 
is a natural episode, and we can praise its coming and its 
going, and hope that the forest moves up from the ashes. I 
don't think it will, as readily and as--in the way we want.
    The question of you, Jim, the O&C lands are a unique 
parcel, I wish they were in Idaho and not in Oregon. Because 
they are a phenomenal resource, and over the years they have 
served our nation well, and certainly served Oregon well, and 
serving those counties well.
    You just gave us a scenario that I think is absolutely 
fascinating. Because the Northwest Forest Plan would suggest 
that we were just cutting the heck out of the O&C lands, when 
in fact we were harvesting them on a reasonable approach that 
kept the watershed quality up, that kept a productive life 
going on out there for the human species, and for a lot of 
wildlife.
    Your statistics tell me that there is as much as 40 percent 
more standing timber in the O&C lands than there was in 1937. 
Is that an accurate statement?
    Mr. Caswell. Senator Craig, I would say that's fairly--I 
mean, in round numbers, I would say that's right.
    Senator Craig. I find that remarkable, because that isn't 
the story we were told. That isn't what we led to believe, by 
those who were so dramatic in pushing forth a plan that, at 
best, was never met. It's certainly frustrated me, and its 
frustrated the Senators from Oregon, it has destroyed jobs and 
industry and counties and infrastructure, and yet there's now 
40 percent more timber on those lands than there was in 1937. 
Thank you.
    Senator Wyden. I thank my friend.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Mr. Chairman, I have a statement I'm anxious 
to give. It may be 5 minutes, it may be a few more than that.
    Senator Wyden. Why don't we have that statement and--I 
would just say, Senator Smith, we're going to have the moment 
of silence----
    Senator Smith. Exactly.
    Senator Wyden. At 10:15, and I want to be accommodating and 
get everybody in.
    Senator Smith. But stop me if I'm anywhere close to that.
    Senator Wyden. You go ahead.
    Senator Smith. All right.
    I thank you, my colleague, for holding today's hearing on 
the management of old growth. Since our time together in the 
U.S. Senate, we've used our positions on this committee to 
bring constructive oversight to the management of Oregon's 
forests, and I thank you for that.
    We'll continue to act on forest protection proposals that 
have the support of local elected officials, and also protect 
Oregon's ability to sustainable harvest of timber for 
generations to come.
    Reasonable people can agree on specific and unique places 
to protect, including older stands of trees. However, to set 
aside every old tree in every forest, is something that has 
always been met with distrust from timber-dependent 
communities.
    The reason for that distrust is history. Time after time, 
acre by acre, Oregon communities have watched the manageable 
public land base erode by roughly 92 percent. They've been told 
that, if we just protect this area, you can continue--or even 
increase--logging in the remaining areas.
    But protection on a map does not always materialize into 
protection on the ground. Keeping timber towns alive from an 
ever-shrinking forest is an unmet Federal promise, proven by 
the county payments crisis, and alarming unemployment rates in 
rural Oregon.
    The public policy debate over old growth is decades old. It 
is inseparable from the saga of the Northern Spotted Owl.
    In 1976, shortly after the Endangered Species Act became 
law, an Oregon State graduate by the name of Eric Forsman, 
published a Master's thesis. It surmised that the Northern 
Spotted Owl of Oregon was declining as a result of habitat 
loss. That habitat was, ostensibly, old growth--a phrase that 
defined the legal effort to preserve older forest stands.
    In their own words, those who have sought for preservation 
of these forests needed a surrogate species--one that lived in, 
and needed, old growth for its habitat. At a law clinic in 
1988, one of these activists stated, and I quote, ``Thanks to 
the work of Walt Disney and Bambi, and his friends, wildlife 
enjoy substantive statutory protection. While the Northern 
Spotted Owl is the wildlife species of choice to act as the 
surrogate for old-growth protection, and I've often thought--
thank goodness the Spotted Owl evolved in the Northwest, for if 
it hadn't, we'd have to genetically engineer it. It's a perfect 
species for use as a surrogate. First of all, it is unique to 
old-growth forests, and there is no credible scientific dispute 
on that fact. Second of all, it uses a lot of old growth, 
that's convenient because we can use it to protect a lot of old 
growth.''
    After years of litigation surrounding the survival of the 
Spotted Owl, the loss of over 35,000 timber jobs in Oregon, 
then-newly elected President Bill Clinton offered a middle path 
between old-growth protection and owl protection and timber 
harvest. The ensuing Northwest Forest Plan promised to produce 
a predictable and sustainable level of timber sales that will 
not degrade or destroy our forest environment.
    The predicted harvest level was 1.1 billion board feet. The 
sad irony is that neither the 1.1 billion board foot harvest 
level, nor the recovery of the Spotted Owl has been 
accomplished. The 2004 Federal status review of the Spotted Owl 
introduced a new antagonist to the saga--not the logger, not 
the loss of old growth--but another owl.
    The Barred Owl is not native to the Pacific Northwest. It 
is larger, more aggressive, more successful in predation and 
reproduces faster than the Spotted Owl. Eric Forsman, the 
Oregon State University Master's student who wrote the first 
major opus on the decline of Spotted Owls in 1976, is now a 
biologist for the Forest Service, and a leading researcher of 
the Barred Owl.
    He recently commented, and I quote, ``In the past, we could 
assume that what we were seeing in terms of habitat would help 
us to understand what was happening with the Spotted Owl. Now 
we don't know if the Spotted Owls aren't there because there is 
no habitat for them, or because of the Barred Owls.''
    The second question haunts our discussion of old growth 
management and protection. Why more old growth forest has 
resulted in fewer Spotted Owls? A 10-year review of the Clinton 
Northwest Forest Plan found that there are 600,000 more acres 
of old growth in Western Oregon and Washington than there was a 
decade ago. However, the sharpest decline in Spotted Owl 
populations actually occurred where the least amount of Federal 
timber harvest took place, namely the Olympic peninsula of 
Washington State.
    This is also the location of the greatest number of Barred 
Owls. The owl actually increased its population in Southern 
Oregon, where the most Federal harvest activity took place, and 
had the smallest incident of Barred Owl invasion.
    These paradoxes remind us to ask, what have we been 
protecting Old growth for? What are we really protecting old 
growth from?
    The discussion of old growth protection must acknowledge 
that wildfire--not timber harvest--is the primary threat to 
old-growth habitat. Over 100,000 acres of old-growth habitat 
were severely burned over the last 10 years. Most of this was 
in the 2002 Biscuit fire, the largest fire in Oregon's history 
and the most expensive to fight in Forest Service history, 
costing in excess of $150 million.
    The Biscuit fire incinerated 65,000 acres of Spotted Owl 
habitat, as seen in this picture. This is more than four times 
the amount affected by timber sales in the 50 years preceding 
the fire. One notable difference is that the areas harvested 
were replanted. As old growth continues to burn, we will face 
the same dilemma of land managers after the Biscuit fire--how 
do we get old growth back? If old growth characteristics are 
important, then they should be used as forest management, 
namely salvage and reforestation, to accelerate their return 
after a fire.
    These are questions that need to be answered in the old-
growth discussion. What I do know is that after 15 years of not 
logging in old growth, growing new old growth, and burning 
protected old growth, the Federal Government really isn't sure 
what to do for the Spotted Owl.
    But worse, the Federal Government doesn't know what to do 
with Oregon's timber towns and counties that are facing 
cataclysmic consequences of the failure to produce jobs in the 
woods.
    The poem, Rhyme of an Ancient Mariner, tells of a ship 
driven far off course. The ship's crew lament their painful 
thirst in the famous words, ``Water, water everywhere, but not 
a drop to drink.''
    In Oregon, the ship of our Federal forest policy has 
drifted too far astray. Timber, timber everywhere, nor any 
stick to cut.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Smith.
    We'll give you all the last word, and then we'll have to 
move on.
    Ms. Goodman, Mr. Caswell, anything else you'd like to add?
    Mr. Caswell. Thank you, Mr. Chairman.
    I would like to add something to what Senator Smith said--
--
    Senator Wyden. Briefly.
    Mr. Caswell. Briefly, it'll be brief.
    That is that the irony, further, is that the Barred Owl 
which--if we do determine, ultimately, that it is one of the 
key, the very key components to the demise of the Spotted Owl--
is further protected under the Migratory Bird Treaty Act. So, I 
mean, you were truly on the horns of a dilemma as to what to do 
in this situation.
    Senator Wyden. Ms. Goodman.
    Ms. Goodman. Thank you for letting me come here today, 
Senators. I really appreciate the opportunity. What I'd like to 
say is that I would ask you not to try to define old growth by 
using an age class or a size class. We need to have all the 
tools in our toolbox to be able to manage old growth, so that 
we do have protection, and we do have diversity of our 
landscape.
    So, thank you for this opportunity.
    Senator Wyden. We'll be working closely with you, and Ms. 
Goodman, we hope to have something to show you on our 
legislation before you retire, and we wish you well, and the 
twins will wear those shirts with pride.
    Ms. Goodman. Thank you very much.
    Senator Wyden. Thank you both.
    Let's go right to our next panel, Dr. David Perry of Oregon 
State, Dr. John Tappeiner of Oregon State, Marvin Brown, Oregon 
Department of Forestry, Paul Beck with Herbert Lumber in 
Riddle, Oregon, Randi Spivak of the American Lands Alliance.
    We're very pleased that Senator Barrasso has taken such a 
great interest in forestry issues, and I would ask unanimous 
consent that his statement be put into the record, his opening 
statement, without objection, that will be done.
    [The prepared statement of Senator Barrasso follows:]
  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Thank you, Chairman Wyden, for scheduling today's hearing on old 
growth in the Pacific Northwest.
    I am told this Subcommittee held a similar hearing on this very 
subject back in the fall of 2001.
    I look forward to hearing about new developments since then.
    I want to thank both the Administration and the public panel for 
agreeing to testify at this hearing.
    I am especially pleased that Professor David Perry (Emeritus) and 
Professor John Tappeiner (Emeritus) both from Oregon State University 
have agreed to testify. They have decades of forestry experience and 
will provide us wise counsel I am sure.
    As we discuss forest health issues in the Northwest today, many of 
us from the West are watching carefully.
    I am concerned that whatever happens with forest issues in Oregon 
tends to ripple eastward.
    Your trends seem to drive how those issues get dealt with in other 
states.
    Having said that, I have to make a few observations:

  <bullet> Oregon and Washington have approximately 41 million acres of 
        Forest Service and Bureau of Land Management lands.
  <bullet> Of that, approximately 7-8 million acres are considered to 
        be large and older stands.
  <bullet> Since the Pacific Northwest Forest Plan was put in place, 
        the number of acres of large and older stands has grown by 1.25 
        million acres. This is about double what was predicted and five 
        times the amount of older stands that have been harvested.
  <bullet> During this same time period only 17,000 acres of large, old 
        stands of trees have been harvested or thinned.
  <bullet> Most disturbing is that we have seen wildfires significantly 
        impact 102,500 acres of large old stands within the Pacific 
        Northwest Region.

    Given that the number of acres of older stands are growing; Given 
that wildfire has out paced harvesting by six-fold; It would seem to me 
fundamentally unwise to deny any future opportunities to manage and 
protect these areas.
    I am not a forester, but have observed that nature often completely 
modifies the forest environment all on its own. I have to question the 
wisdom behind efforts to pass a law in Congress that demands permanent 
and full protection for old growth, expecting nature to alter its 
normal course.
    Rather, I think of events like Mount Saint Helens, and the large 
insect epidemics we are currently seeing in Wyoming, Colorado, South 
Dakota, Alaska and other states. These events suggest to me that we 
should give our federal land managers the maximum flexibility to adapt 
to both man-made and natural events.
    Giving resource managers the opportunity to adapt to changing 
conditions and to optimize forest health priorities just makes more 
sense.
    I mention fires because I found Professor K. Norman Johnson's 
answer to my question at our December hearing unsatisfactory.
    I asked about how to deal with older forests in northern Colorado 
and Wyoming that are currently being ravaged by pine beetles He 
answered that in high elevation intermountain forests, insects and fire 
are a natural part of the system. He also shrugged and said there may 
not be much we can do to avoid mega-forest disasters in these forests.
    Given the dead and dying forests of Southern Wyoming, we cannot 
take the attitude that ``there may not be much we can do to avoid 
this.'' The people of Wyoming should not be forced to accept that 
outcome.
    True, we cannot eliminate fire and insect issues, but we can reduce 
the amount of devastation through effective management.
    It is clear that there were steps we could have--and should have--
taken over the last 20 years to ameliorate the disaster we are now 
seeing.
    And there are steps we need to be taking now to protect our forests 
for the future.
    When I think about that apathetic attitude about thinning and 
combine it with the ``lock-up-all-old growth policy'' being articulated 
by some, I do not believe it will be an acceptable policy in any State.
    Thus, Chairman Wyden I applaud you for having this hearing and 
searching for a third path through the forest wars, including these old 
growth issues.
    Data from the Pacific Northwest Forest Plan implementation would 
suggest to most people our problem is not protecting old growth from 
logging; it is protecting it from fires. And I fear lines on a map 
cannot provide the protection for those forests that many hope to 
provide.
    Finally, I hope that you will carefully consider the scope and 
potential consequences of any policy you might include in legislation. 
When forest policy in Oregon gets nudged to the left or right, forest 
practices and policy in the intermountain states tends to run 
completely off the road.

    Senator Wyden. Thank you all very much for coming.
    What we're going to do, I told colleagues, we're going to 
have you all testify and at the time that the Senate floor, the 
Senate--as a body--is going to be taking time today to 
recognize the extraordinary courage of our men and women 
serving in our military, we're going to take a break for a 
moment of silence here, in the room, so we're going to have to 
try to coordinate that. We thank you for your patience.
    We'll make your prepared remarks as part of the hearing 
record in their entirety. I know the compulsion is just to put 
your head down and read, and if you can summarize your key 
concerns in 5 minutes, or so, that will leave us some time for 
questions.
    Welcome to all of you, and to have so many Oregonians on 
hand is a privilege, and we're glad you've made the long 
journey.
    Dr. Perry, please begin.

STATEMENT OF DAVID A. PERRY, PROFESSOR EMERITUS, DEPARTMENT OF 
     FOREST SCIENCE, OREGON STATE UNIVERSITY, CORVALLIS, OR

    Mr. Perry. My name is David Perry, I am a Emeritus 
Professor in the Department of Forest Science at Oregon State 
University.
    Let me begin by quoting a recommendation of the National 
Research Council's Panel on Environmental Issues in Pacific 
Northwest Forests. Their recommendation goes, ``Forest 
management in the Pacific Northwest should include the 
conservation and protection of most or all of the remaining 
late successional and old-growth forests. The remaining late 
successional and old-growth forests could form the cores of 
regional forests, managed for truly and indefinitely 
sustainable production of timber, fish, clean water, recreation 
and numerous other amenities.''
    A great deal of evidence indicates that when Euro-Americans 
arrived in the Pacific Northwest, about two-thirds of the 
forested landscape west of the crest of the Cascades was old 
growth. East of the crest of the Cascades, the number was 
probably closer to three-quarters.
    The most recent studies that we have, show that of that 
about 28 percent is left on the, in both areas--west side and 
east side. Of that that's left, on the west side, 14 percent 
has some degree of protection, and on the east side, the number 
of protected forest is much lower, it's closer to 5 percent.
    These numbers are far below what conservation biologists 
would consider is a minimum amount of habitat needed to support 
the species. I'd like to point out that the Spotted Owl--as 
central as it is--there are many more species involved in these 
forests than just the Spotted Owl.
    So, if we protect what's remained, we push the amount 
that's saved up into the area--which is a bare minimum of what 
conservation biologists would believe is necessary to maintain 
species that depend on that habitat.
    So, there's no question in the scientific community that 
these forests are centers of biological richness. What else are 
they? Before I get into what else they are, I want to just 
clarify some definition here. What--and again, I'll go to the 
NRC Panel on Environmental Issues, and quote them, ``Old-growth 
forests are forests that have accumulated specific 
characteristics related to tree size, canopy structure, snags 
in woody debris and plant association. Ecological 
characteristics of old-growth forests emerge through the 
processes of succession. Certain features do not appear 
simultaneously, nor at a fixed time in stand development. 
Specific attributes of old-growth forests develop through 
forest succession until the collective properties of an older 
forest are evident.''
    So, there's no one age that you can stand at and say, ``On 
this side is old growth, on the other side, it isn't.'' We 
have--most scientists will say that all of these properties 
have been accumulated by the time a forest gets to be 180, 200 
years old. But, forests younger than that, or what I would term 
emerginal growth, are exhibiting a number of these properties, 
probably beginning at least when they're 120 years old.
    So, why are we interested in saving what's left? The 
habitat and biological richness is one reason. Another reason 
is their carbon storage--it's clear that they store huge 
amounts of carbon. A study done about 15 years ago showed that 
if those forests were harvested, even accounting for the 
storage of carbon in boards, that it will take at least 200 
years for the young re-growing forest----
    Senator Wyden. Dr. Perry, excuse me for interrupting you. 
The moment of silence is just beginning on the floor. This is a 
very important time, because we recognize the 5 years of 
service and sacrifice of our troops in Iraq, as well as those 
serving in Afghanistan and around the world. We want to honor 
the families, especially, who have given so much--the husbands 
and wives, and let us now, as part of this effort in the entire 
Senate this morning, let us take a moment of silence to 
appreciate those who, with such courage, serve our country.
    [Moment of silence observed.]
    Senator Wyden. We are very grateful--very, very grateful, 
as a Nation, to all who have served our country.
    Let us begin, again, with you, Dr. Perry.
    Mr. Perry. So, we have--we have biological diversity as an 
issue, we have carbon storage as an issue, water regulation is 
a third issue. Studies have clearly shown--controlled studies--
that the old-growth forests are much better at regulating water 
flows, especially during peak run-off periods in the spring, 
than younger forests.
    Finally, we have the fire-resistance--and fire has come up 
a number of times, and it should come up a number of times--and 
let me make it really clear, that under the proper--under 
severe weather conditions, anything is going to burn up. Under 
mild weather conditions, nothing is going to burn up.
    What we're got to be concerned with right now is that broad 
middle ground. It's really clear from the evidence over the 
last few years, plus just common sense, that in that broad 
middle ground, a fire is much more likely to go into the crowns 
of a young stand than it is into the crowns of an old-growth 
stand. So, keeping those old-growth stands out there helps 
control the chance of mega-fires across the landscape, which 
we're going to be looking at more chance of that with climate 
change.
    Now, I want to emphasize that--in the dry forest types that 
you've heard in past testimony, I'm sure, there is a problem. 
We've got to get into those old-growth forests and reduce 
fuels, and we've got to do that by going to the source of the 
problem, which is with those smaller trees, and we've got to do 
it in such a way that we protect the necessary closed forest 
habitat and so, also, water.
    But, we do need to deal with that problem, and that's part 
of the protection issue, in the dry forest.
    So, I think my time is close to up, and I'd just like to 
summarize by saying, old-growth forests are centers of 
biological diversity, they perform unique functions with 
respect to carbon storage and hydrologic regulation, and they 
serve as a relatively stable components of the landscape.
    These forests begin exhibiting these properties probably as 
young as 120 years, maybe even younger. The area of old growth 
has been sharply reduced, compared to historic, and amounts 
currently protected are far below what conservation biologists 
say are needed to protect species.
    Saving all remaining, greatly enhances the probability of 
protecting these successional species, and rebalances the 
landscape and makes it more stable in the face of what's going 
to be coming up to a pretty stressful time, because of climate 
change.
    Thank you very much.
    [The prepared statement of Mr. Perry follows:]
Prepared Statement of David A. Perry, Professor Emeritus, Department of 
         Forest Science, Oregon State University, Corvallis, OR
    Mr. Chairman, Senators, thank you for the opportunity to testify 
regarding pending legislation to protect old-growth forests in Oregon 
and Washington.
    My name is David A. Perry.
    I am a Professor (emeritus) in the Department of Forest Science, 
Oregon State University.
    I am a member of the National Commission on the Science of 
Sustainable Forestry, and serve on the Board of Directors of the 
National Center for Conservation Science and Policy. I am a former 
member of the Marbled Murrelet Recovery Team, The Scientific Societies 
Panel on Interim Protection for Old Growth Forests in eastern Oregon 
and Washington, and the National Research Council's Panel on 
Environmental Issues in Pacific Northwest Forests.
    I'll begin by quoting a central recommendation of the National 
Research Council's Committee on Environmental Issues in Pacific 
Northwest Forest Management (NRC 2000):

          Forest Management in the Pacific Northwest should include the 
        conservation and protection of most or all of the remaining 
        late-successional and old-growth forests . . . . The remaining 
        late-successional and old-growth forests could form the cores 
        of regional forests managed for truly and indefinitely 
        sustainable production of timber, fish, clean water, 
        recreation, and numerous other amenities of forested 
        ecosystems.

    Note the terminology used here differs somewhat from other uses. By 
``late-successional'', the NRC panel refers to what is also called 
``mature'', the seral stage immediately preceding old-growth.
    In the following I'll first discuss the common definitions for old-
growth and its current status as compared to historic. I'll then 
briefly go into the ecological rationale for protecting what remains. 
I'll close by discussing mature forests and the rationale for 
protecting them as well as old-growth.
                         i. defining old-growth
    Both old-growth (OG) and mature are best defined by their structure 
(which may vary with forest type). From an ecological standpoint, the 
most accurate definition for OG is that given by the National Research 
Council Panel of Environmental Issues in Pacific Northwest Forests (NRC 
2000)

          Old-growth forests are forests that have accumulated specific 
        characteristics related to tree size, canopy structure, snags 
        and woody debris and plant associations. Ecological 
        characteristics of old-growth forests emerge through the 
        processes of succession. Certain features--presence of large, 
        old trees, multilayered canopies, forest gaps, snags, woody 
        debris, and a particular set of species that occur primarily in 
        old-growth forests--do not appear simultaneously, nor at a 
        fixed time in stand development. Specific attributes of old-
        growth forests develop through forest succession until the 
        collective properties of an older forest are evident.

    It is generally accepted that forests develop the full set of OG 
characteristics by 180 to 220 years, although as the NRC definition 
indicates there is no sharp dividing line and forests usually begin 
displaying OG characteristics at a younger age; I will refer to these 
as ``emergent OG''. Note also that not all of the characteristics cited 
in the above quote hold in all forest types. In particular, multi-
layered canopies are not a characteristic of old-growth pine on dry 
sites.
 ii. the current extent of old-growth forests in oregon and washington 
                is only a small fraction of the original
    The amount of OG at the time of European settlement varied by 
region, but for the two states together is estimated to have composed 
nearly two-thirds of the total land area of western Oregon, western 
Washington and the east slopes of the Cascades (Strittholt et al 2006). 
Historic proportions in the Blue Mountains, Klamath Plateau, and 
Colville area were similar; a USFS inventory of the latter three areas 
in the mid-1930's classed 65 per cent of forests as either as OG or, in 
types where OG wasn't distinguished, as ``large''. This was after a 20 
year period of heavy logging, so it is reasonable to assume that the 
pre-logging area of OG forest in the eastern portions of the two states 
was even greater than in the western portions.
    Strittholt et al (2006) used remote imagery to document current OG 
amounts in western Oregon, western Washington, and the east slopes of 
the Cascades (forests within the range of the northern spotted owl 
(NSO). At the turn of the 21st century approximately 28 per cent of the 
original OG remained, largely concentrated on public lands (Strittholt 
et al. 2006). One-third of the OG remaining on public lands, 
representing approximately 7 per cent of the original, is in relatively 
secure protected status ( e.g. Wilderness, National Parks). OG 
contained within Late Successional Reserves and Designated Roadless 
Areas is less securely protected (e.g. the recent attempt by the USFWS 
to include a no-LSR option in the draft NSO Recovery Plan), but 
including these areas increases the proportion of original OG within 
the range of the NSO that is presently in protected status to 
approximately 14 per cent. Remote imagery detects complex canopy 
structure rather than age per se, and it's almost certain that the OG 
cover measured by Strittholt et al (2006) includes emergent OG stands 
that are younger than 180 years.
    In eastern Oregon and Washington outside the range of the NSO, 
Henjum et al. (1994) estimated that one-quarter of the original OG 
remained on National Forest Lands in the mid-1990's, 22 percent of 
which was protected in Wilderness or administratively withdrawn areas. 
Less than one-half of the areas designated as ``dedicated old-growth'' 
contained more than 70 percent OG, and nearly one-third contained none 
(Henjum et al. 1994). Logging all unprotected OG in the eastern regions 
of the two states would reduce that remaining to approximately 5 
percent of the original.
                       iii. values of og: habitat
    There is little question that ``(m)uch of the biological diversity 
of the Pacific Northwest is associated with (mature) and old-growth 
forests'' (NRC 2000). From the standpoint of conservation ecology there 
are at least six reasons for protecting all remaining OG:

  <bullet> The science is clear: when habitats have been sharply 
        reduced the probability of maintaining viable populations of 
        organisms that depend on those habitats increases directly with 
        the amount of remaining habitat protected. The amount of OG 
        currently protected in Oregon and Washington is far below the 
        minimum amounts of habitat that conservation biologists believe 
        is necessary to maintain species viability (Noss and 
        Cooperrider 1994). Protecting all remaining OG (as detected by 
        remote imagery) would raise levels into the low range of that 
        considered adequate.\1\ Moreover, saving all would provide an 
        important buffer against future losses. Natural disturbances 
        are likely to destroy some of the remaining OG and mature 
        habitat before younger forests have aged sufficiently to 
        provide suitable replacement habitat, a risk significantly 
        increased by the combined effects of changing climate and the 
        increased vulnerability of older forests when embedded within a 
        matrix of fire-prone young forests. On the east slopes of the 
        Cascades, 14.5% of NSO habitat was lost between 1994 and 2003 
        (Spies et al. 2006), and approximately 80,000 acres of NSO 
        habitat was lost in the Biscuit fire. The more saved now, the 
        greater the buffering against such losses.
---------------------------------------------------------------------------
    \1\ ``Adequate'' may vary widely depending on specific 
circumstances and must be determined on a case-by-case basis. For 
example, the amount of area needed in strictly protected status depends 
on what is done in the matrix.
---------------------------------------------------------------------------
  <bullet> Many species that occupy stable habitats--of which old 
        forests are a prime example--have poor dispersal capabilities, 
        hence risk isolation, genetic deterioration, and ultimate 
        extinction when suitable habitat is spread too widely (Kareiva 
        and Wennergren 1995). Studies suggest that many OG associates 
        in the PNW may be limited more by dispersal than by the 
        abundance of habitat per se, including species of lichens, 
        bryophytes, mollusks, fungi, and invertebrates. This implies 
        that every remaining piece of suitable habitat becomes an 
        important focus for eventual colonization of the surrounding 
        landscape. Potential problems with dispersal are exacerbated in 
        the Pacific Northwest because young forests presently 
        dominating the matrix do not have the structural complexity and 
        legacies characteristic of naturally disturbed forests (e.g. 
        Tappeiner et al 1997), resulting in a much starker contrast 
        between old and young forests than occurred historically.
  <bullet> Species, species assemblages, and the genetic structure of 
        populations may vary at relatively fine scales for small 
        organisms (which account for by far the largest share of 
        diversity), raising the possibility that each remaining older 
        forest is to some degree unique in its biological structure. 
        For instance, many mollusk species are restricted to one 
        region, or even one river drainage (Frest and Johannes 1993).
  <bullet> Even small fragments of older forest may be significant 
        biological reservoirs. Amaranthus et al. (1994) found that 3.5-
        ha fragments of mature forest harbored 13 species of truffle-
        forming mycorrhizal fungi not found in surrounding plantations.
                         iv. other values of og
    OG forests store large amounts of carbon that may take to several 
hundred years to recoup following logging. Some OG stands, especially 
those with infrequent fire regimes, accumulate large stores of carbon 
in the soil compared with mid-aged forests.
    OG has a strong influence on stream flows relative to younger 
stands. In an experiment comparing logged and unlogged basins in the 
Cascades, logged basins have had elevated stream flows for 40 years 
compared to their OG controls (Jones and Post 2004). Stream flows 
during the snowmelt season have been particularly slow in recovering to 
OG conditions. Another experiment that compared logged with 100 year-
old forest rather than OG has shown a similar pattern.
    Considerable evidence over the past two decades shows that OG is 
more resistant to crown fire than younger forests, and hence helps 
buffer the landscape against the possibility of mega-fires. Modeling 
shows that western Oregon is likely to become drier with climate 
warming, which means more fire and therefore an increased value of 
relatively resistant components on the landscape.
    The situation with fire is complicated in the dry forest types, 
where various factors have allowed understory fire ladders to develop 
in OG forests, increasing their susceptibility to crown fires. 
Appropriate levels of fuels reduction are badly needed in many these 
dry forests, however at least three strict guidelines should be 
followed. First, large, fire resistant trees should be retained. 
Second, habitats for closed forest species should be protected, which 
means taking a landscape approach to thinning. Third, all caution 
should be taken to protect soils and streams.
                           v. mature forests
    As recognized by FEMAT, a conservation strategy for the Pacific 
Northwest must consider mature forests as well as OG. Forests are 
considered to enter maturity when their mean annual increment 
culminates, following which time they begin developing the 
characteristics that ultimately produce OG. Mature forests serve 
various important ecologic functions. They serve as future replacements 
for old-growth, help protect existing OG by reducing the starkness of 
age-class boundaries, and provide landscape connectivity and 
transitional habitat that compensate to some degree for the low levels 
of OG. Moreover, they are almost certainly more resistant to crown 
fires than younger forests, and hence contribute to buffering the 
landscape.
    According to FEMAT, mature and old-growth forests together compose 
approximately 51% of federal forest lands within the range of the NSO 
in Oregon and Washington. Protecting all of these would have clear 
benefits from the standpoint of conservation and landscape ecology. A 
majority of the landscape dominated by large trees within forests that 
have or are developing complex structure provides habitat connectivity 
for late-successional species and lowers the risk of mega-wildfires. 
Complete hands-off is not necessary, and in the case of dry forests, 
management will be required to reduce fire hazard. In mesic forests 
there is unlikely to be any ecological justification for thinning in OG 
and older mature forests, however thinning may be both appropriate and 
beneficial in some younger mature stands. Such evaluations must be made 
on a case-by-case basis and involve both silvicultural and habitat 
considerations.
    In summary, OG forests are centers of biological diversity, perform 
unique functions with regard to carbon storage and hydrologic 
regulation, and serve as relatively stable components of the landscape. 
Mature forests share many of the OG values. The area of OG has been 
sharply reduced compared to historic conditions, and amounts currently 
protected are well below scientifically accepted minimum habitat levels 
required to maintain species viability. Saving all remaining OG forests 
greatly enhances the probability of late-successional-dependent species 
persisting through this period of extreme habitat bottleneck, reduces 
the chance of flooding, and lowers the risk of mega-fires. Saving 
mature forests that are effectively emergent OG contributes 
significantly to these goals in the short run, and will be essential in 
the long run.

    Senator Wyden. Thank you very much.
    Dr. Tappeiner, welcome.

  STATEMENT OF JOHN TAPPEINER, PROFESSOR EMERITUS, COLLEGE OF 
        FORESTRY, OREGON STATE UNIVERSITY, CORVALLIS, OR

    Mr. Tappeiner. Thank you for the opportunity to testify 
before your committee.
    I agree with most of the testimony that's been presented, 
and certainly the descriptions we've had about old-growth 
forests, on wet and dry sites, and there being threatened by 
fire and insects--especially on the drier sites--and the 
variability in the old-growth forest throughout the Pacific 
Northwest. You know, I simply agree, so I'm going to avoid--
avoid, I'm not going to present that part of my testimony.
    I would just like to move right on to some ideas about 
managing old forests, managing to maintain or enhance old 
forests.
    I think that it's--we would agree that thinning is a way to 
grow young forests, to have old-growth forest characteristics. 
We've found that--in our work, we've found that the, that the 
big tress in old-growth forests grew at low densities, and that 
their ages and sizes when they were 200 years old could be 
predicted by how fast these trees were going when they were 50 
years old.
    So, by managing young stands, we can increase the size of 
the trees, it seems to be that these old trees grew at low 
densities. We can also grow trees quickly with large stems, 
deep bark characteristics, things that resemble old-growth 
trees.
    We know also that when you thin young stands, you develop a 
diverse under story, which is part of an old-growth 
characteristic. Also, you get an under story of shrubs growing, 
and they become good habitat for birds long before they really 
achieve characteristics that resemble old growth. So, those are 
some additional values for thinning these young stands, 
especially on the moist sites, to get old-growth 
characteristics, growing them more rapidly.
    In the dry forests if you have young stands you can thin 
them for the same purposes, but of course, like Dr. Perry and 
others have said, we need to reduce the density of the fuels, 
especially the ladder fuels in the old forests, fuels that 
carry fire from near the ground up into the crowns of these old 
forests.
    Also, there--thinning, commercial thinning, prescribed fire 
and cutting small trees by hand or tractors are all ways of 
reducing fuels and achieving these characteristics. I've seen 
this applied on a sister's district, for example, and I'm 
impressed by how well these work. I've also worked with the BLM 
in establishing studies in young stands to produce these old-
growth characteristics, and I'm really impressed with how well 
that agency was able to implement these prescriptions, simply 
by--with their own people.
    So, I think the potential is there for lots of good 
management, and they simply need to have the opportunity to do 
it.
    Another thing we've found that I think that might be useful 
to know is that these old-growth trees respond positively to 
removal of trees from around them. When we went back and looked 
at old stands that have had trees removed from around them 
about 20 or 30 years previously, we found that the old trees 
that were remaining in those stands, actually increased their 
growth rates, which indicate that they were under stress, and 
that possibly it indicates, also, that they could develop 
resistance to insects, and so forth. That they were growing in 
dense stands, because the density of the stand appeared to be 
suppressing their growth.
    So, I think there's a good biological reason--other than 
fire--to remove some of these trees from old stands, just to 
reduce the stand density.
    I'm impressed about how important it is to have local 
definitions of old forest, other people have talked about this. 
The definitions that we have that we think about, use to think 
about old forest, I think, are primarily developed from the 
moist sites in the Cascades and the coastal forests. In the 
mixed conifer forest, or Ponderosa Pine forests, on the drier 
sites, we need quite different definitions. I think we need to 
take into account the fire in defining those definitions, too, 
in coming up with those definitions. How many, in 100-acre 
stand, how much of it needs to be treated? Do we want it all to 
be treated, or do we need to leave parts of it untreated, and 
so forth? I don't think we've really addressed those questions.
    Finally, I had a picture that I hope is before you. It's a 
small one----
    Senator Wyden. Let's see.
    Oh, yes, I've seen this--let me just show our colleagues on 
the committee, Doctor, yes. A very important picture.
    Mr. Tappeiner. Thank you, sorry. That's it. Sorry I didn't 
get a big one like the Forest Service had.
    Senator Wyden. It only counts around here if you have 
charts or big pictures.
    Mr. Tappeiner. OK.
    Senator Wyden. You have got it in front of the Senators.
    Mr. Tappeiner. That picture, I believe, illustrates an 
example for the need for flexibility in managing these forests. 
Now, that's a big Sugar Pine tree in that picture, it's taken 
on the road from Medford up to Crater Lake. That tree is 
probably well over 100 years old, but in order to save that 
tree from fire, to reduce the ladder fuels, you probably want 
to cut trees around it that are 30 or 40 inches in diameter, 
because they're the ladder fuel in some of these old forests. 
You know, that doesn't mean you do that always, all the time, 
everywhere, but it may be important--it may be important in 
certain cases to remove some pretty big trees, in order to save 
even larger ones.
    In the case of the Sugar Pine, it's even more important, 
because Sugar Pine is threatened by White Pine blister rust, 
and that's a disease that was introduced from Asia in the 
1930s, and it threatens the Sugar Pine.
    So, if you can find Sugar Pine trees that are healthy and 
free from rust--even though they're small trees--they may not 
be old-growth trees, it would be important to save those trees, 
it might be important to cut some bigger trees, in order to 
save the small, rust-resistant Sugar Pine.
    Also, by cutting around resistant trees, you might want to 
be, be able to reproduce new, hopefully rust-resistant Sugar 
Pine, and try to get that resistance into the population.
    So, this is just an example of why flexibility is needed in 
dealing with this issue of old-growth forests, and especially 
when the managers come to apply prescriptions to conserve or 
enhance them.
    So, those are our proposals, my remarks, thank you for 
having me testify.
    [The prepared statement of Mr. Tappeiner follows:]
 Prepared Statement of John Tappeiner, Professor Emeritus, College of 
            Forestry, Oregon State University, Corvallis, OR
    Good morning, Chairman Wyden and members of the subcommittee, my 
name is Dr. John Tappeiner and I appreciate this opportunity to testify 
before the committee. My remarks today will focus on managing forests 
on public lands to maintain and achieve old-growth forest 
characteristics.

          1. Old Growth forests (OG) are an important part of western 
        forests. They provide habitat for a wide range of organisms. 
        They have spiritual, aesthetic, and historical value; they 
        contain valuable commercial wood.
          2. Each of us has our own image of an OG forest---usually 
        large, majestic trees in undisturbed forests. Typically OG has 
        few very large overstory trees, multiple layers of intermediate 
        size and smaller trees, herbs and shrubs in the understory and 
        large standing and fallen dead trees (7,9). It is this varied 
        structure that makes OG unique. These characteristics vary 
        widely even within a stand, and especially throughout the 
        forests of Washington, Oregon, and northern California from 
        moist coastal forests east to the Cascades, to the drier 
        ponderosa pine and lodgepole pine forests east of the Cascades 
        and the mixed conifer of southwestern Oregon and northern 
        California. OG may be fragmented and occur in small patches 
        (<5-10 acres) with few trees. The effects of land ownership, 
        fire, logging, windstorms, etc. cause fragmentation. Stands 
        that are classified as young stands may contain some OG trees.
          3. Fire and other disturbances like wind and insects have had 
        and continue to have major effects on the OG forests in the 
        Pacific Northwest--especially on drier sites in mixed conifer, 
        ponderosa pine and lodgepole pine forests (1, 8). Before about 
        1900 relatively frequent, low severity fire in the ponderosa 
        pine and mixed conifer forests reduced fuel levels by burning 
        small trees and shrubs, and these fires killed few large trees. 
        Since the beginning of fire control in the early 1900's, fuels 
        have accumulated in OG forests especially on dry sites. 
        Consequently today's fires are much more severe, killing trees 
        over 1000's of acres. Insects can kill young and OG trees in 
        dense stands during drought periods in ponderosa pine and mixed 
        conifer forests and especially in lodgepole pine forests. These 
        dead trees increase the fuels and potential for severe fire. On 
        moist sites fire is much less common, but when forests become 
        dry enough to burn, fire may kill many acres of trees. In many 
        landscapes it is likely that fire will start in young forests 
        and burn into adjoining OG, so effects of fire on today's OG 
        also need to be viewed from a landscape perspective.
          4. There are four different goals for thinning which need to 
        be considered. They vary with the ecosystem in which the forest 
        occurs: (a) perpetuating old forest conditions threatened by 
        severe fire from high density of fuels, (b) bringing forest 
        conditions to higher resilience to drought and insects, (c) 
        accelerating development of structural complexity and old-
        growth characteristics in young forests, and (d) growing trees 
        for wood. (A) and (b) apply to dry forests, (c) mainly to young 
        moist forests. The goals can overlap, for example: (a) and (b) 
        on dry sites, (c) and (d) in productive moist forests, also in 
        some dry forest stands. In both moist and dry forests, 
        reduction in stand density favors rapid growth of large trees 
        with full crowns and large branches and furrowed bark (OG tree 
        characteristics) (11). We found that in western (6,10) and 
        southwestern (8) Oregon, large, old trees grew rapidly when 
        they were young. Tree size (diameter) at 200+ yr was strongly 
        related to growth rate when trees were young (50 yr) (6). In 
        addition OG trees grew much more rapidly than the fastest 
        growing trees in nearby plantations, because of the high 
        density of the plantation. In addition to growing large trees, 
        commercial thinning also initiated the beginning of a multi-
        layer of trees, the establishment or maintenance of shrubs and 
        a yield of wood (2,3). In young stands, even before they 
        develop OG characteristics, the establishment of shrubs and 
        growing trees with large crowns provides habitat for a variety 
        of birds (5).
            Thinning stands on dry, fire-prone sites also produces the 
        characteristics described above. In addition, it can make a 
        stand more resistant to severe fire (11). This is done by (a) 
        spacing overstory trees when needed to reduce the density of 
        the forest canopy and thus the potential of a crown fire that 
        burns from one tree to the next, (b) growing larger trees with 
        thick bark that are more fire resistant than smaller trees and 
        dense stands and (c) lowering the density of small trees and 
        shrubs in the understory which reduces ``fuel 4 ladders'' that 
        can carry fire into the crowns of the large, overstory OG 
        trees. The fire scorches and kills the needles and vegetative 
        buds, causing mortality. These treatments may yield commercial 
        wood.
          5. Removal of trees by commercial thinning, prescribed fire, 
        and cutting small trees by hand and tractors with cutting 
        devices, etc. are all ways of thinning stands to grow large 
        trees and to reduce fuels and flammability (11). When the goal 
        is to reduce flammability, often no one treatment will suffice. 
        Slash disposal by treatments like broadcast burning, piling and 
        burning or chipping must follow thinning. If the slash (dead 
        tree tops, shrubs, etc) is not treated on fire prone sites the 
        potential for severe fire may be higher than before thinning, 
        at least temporarily. On fire prone sites treatment may be 
        needed (about every 15 to 20+ yr) to control ladder fuels as 
        new trees and shrubs become established. On many sites it is 
        difficult to use fire, because (a) smoke conflicts with air 
        quality standards, and (b) the short periods between conditions 
        that are too wet to burn in the winter and too dry to burn 
        safely in the summer. In ponderosa and lodgepole pine forests 
        insects may breed in the slash and emerge to attack nearby 
        green trees. Prompt slash disposal and timing of thinning so 
        that the slash dries rapidly can avoid this problem. On moist 
        sites, slash disposal is not usually needed because it 
        decomposes more rapidly than on dry sites and fire is less of a 
        concern.
          6. Thinning for fire resistance or to promote development of 
        OG trees, need not result in a uniform and homogeneous stand. 
        The main purposes of thinning are a marked reduction in ladder 
        fuels, decrease in canopy density and space to grow large 
        trees. Species, sizes and spacing of overstory and understory 
        trees will vary to achieve desired results.
          7. OG trees respond positively to tree removal. Surprisingly 
        stem area growth of over 68% of large (40+ in. diameter) 
        Douglas-fir, ponderosa and sugar pine increased by over 10% for 
        20+ yr after trees were removed from around them. About 30% of 
        the trees increased their growth by more than 50% and 1.5% 
        decreased growth. Increased growth rates suggest improved vigor 
        that may make trees more resistant to insects and pathogens 
        during periods of drought. It also suggests that when thinning 
        young stands to provide OG characteristics, thinning can 
        continue well beyond 100yr.
          8. Local descriptions of OG trees and stands are needed to 
        aid conservation and management of OG stands. As mentioned 
        above, the species composition and tree sizes in the overstory 
        and understory of OG stands vary throughout Pacific Northwest 
        OG forests. Forest managers, the public and scientists need 
        guidelines to help agree on what is OG. These guideline are 
        needed to set goals for managing young stands to achieve OG 
        characteristics. Guidelines will vary with species composition, 
        site productivity, and other factors such as the potential for 
        fire, severe insect outbreaks and windstorms. In stands that 
        are managed to reduce fuels and flammability, the sizes and 
        numbers of trees will differ from those where fire is not a 
        concern.
            Age is not likely to provide a useful description of OG. It 
        is difficult to determine the ages of OG trees (especially 
        large trees). Large trees growing on productive sites with few 
        trees around them can be quite young. Small trees growing on 
        poor sites and in dense stands can be quite old. OG stands 
        often contain large trees with a wide range of ages. Thus the 
        average tree age does not adequately describe the stand. 
        Localized definitions of stand structure (numbers of trees of 
        different species and sizes per unit of land) are likely to 
        provide the most useful guidelines.
            It is important to consider spatial variability within OG 
        stands. Over how large an area should OG characteristics occur? 
        Within a 50 to 100 acre stand some acres may have 10 OG trees, 
        others 30+ and still others 0. What is sufficient? In fire 
        prone forests are OG characteristics or fire proof stands 
        needed on every acre? What is the tradeoff (if any) between 
        fire resistant stands and ideal OG?
            Guidelines should ensure a genuine understanding and 
        description of local OG trees and stands, including spatial 
        variability. They should be local and practical to enable 
        forest managers to implement treatments to protect and develop 
        OG trees and forests.

    These remarks represent my view and not those of Oregon State 
University.

    Senator Wyden. Very good, Doctor. I just had to ask the 
experts a fine point of your excellent testimony.
    Mr. Tappeiner. Thank you.
    Senator Wyden. Thank you.
    Mr. Brown, welcome. Thank you for your help.

STATEMENT OF MARVIN D. BROWN, STATE FORESTER, OREGON DEPARTMENT 
                     OF FORESTRY, SALEM, OR

    Mr. Brown. Thank you, Chair Wyden, members of the 
committee, good morning. My name is Marvin Brown, I'm the 
Oregon State Forester. I also serve as Forest Policy Advisor 
for our Governor, Ted Kulongoski. It's a pleasure to be here 
and speak on behalf of him this morning about this topic, old 
growth.
    It is important to the State, the old-growth issue. Just to 
give you some perspective, there's about 30 million acres of 
forest land in Oregon, 16 million of those acres are managed by 
either the Forest Service or the Bureau of Land Management, and 
pretty much all of the old growth that exists in this State, 
exists on these Federal lands. So, it boils down to a Federal 
issue that's important to the State.
    Folks have described, you know, why old growth is 
important. It's certainly the unique biology that is 
represented by these stands, is something that we want on our 
forested landscapes, it's important to maintain that. It's 
also, from a, kind of, a workman standpoint, I think scenic 
value is really important to the average person in Oregon, the 
large trees that come with preserving these lands as old growth 
is important.
    There's kind of a reassurance value to a lot of people, 
just out there in general society, that we've got lands that 
are not being particularly disturbed by individuals. I think 
all those are the values that are wrapped up in old growth.
    There's another one too, from our standpoint, and that's if 
public lands can successfully deliver these values, then it 
makes it that much sense for private lands to have another 
focus, a focus on, say, early successional habitat for wildlife 
or for producing, you know, intensive timber production issues. 
So, it is important in a State.
    Kind of setting that aside for a minute, the Federal lands 
in general, by policy, have been directed to provide a full 
range of benefits, economic, environmental, and social. The 
policies you all are fully aware of, the western side of the 
State is primarily dominated by the Northwest Forest Plan. The 
eastern side of the State, forest policy is profoundly impacted 
by what's called the East Side Screens. Both of those policies 
have provisions that directly focus on old growth, but they are 
also, again, like I said, the policy direction that it says 
that these lands need to providing economic and social benefit.
    The reality is that they're not doing a very good job of 
delivering those benefits for the State of Oregon. Oftentimes, 
I think people would agree, that the reason they're not 
delivering many of those benefits, is because of conflicts 
about what is old growth and how much of it should be existing 
on Federal lands. So, I think it is important that we get some 
new policy direction that tries to get past some of this old-
growth conflict, specifically, policy direction that would 
clearly articulate just what is old growth, what are we talking 
about when we talk about old growth, and what is an appropriate 
amount on Federal lands.
    I think it would be important for that policy to also 
recognize, as gentlemen have said here, that it takes sustained 
re-entry into these areas to maintain the kind of climax 
conditions that are characterized by old growth. It's not a 
one-time thing, manage these lands and go on. It does take 
sustained, indefinite work, treatment to maintain them.
    Ihere also needs to be policy direction that actually 
allows this work to get done, policy and funding to allow this 
work to get done. One of the big impediments that seems to be 
thrown up there and inhibiting what actually gets done on the 
ground, is the cost of NEPA analysis, the length of time it 
takes to get through NEPA analysis, to some decision, and the 
fact that, oftentimes, even after this very lengthy analysis, 
the work is still not allowed to go forward.
    So, I think dealing with that particular piece of the 
puzzle would be really important, because in the end, all the 
definitions are great, but you still have to be able to get the 
work done on the ground.
    Just, you know, one view I have, is that I've always found 
it interesting that forest management is viewed as a threat to 
environmental values, when in fact, you know, much of what 
we're talking about here would be forest management that would 
improve environmental values. I think if we can kind of get 
that recognition somewhere in policy, then it could be 
appropriate to take a little different approach in the whole 
NEPA analysis part of the process.
    So, those are our views. I appreciate it, and obviously 
I'll be here for questions.
    [The prepared statement of Mr. Brown follows:]
     Prepared Statement of Marvin D. Brown, State Forester, Oregon 
                   Department of Forestry, Salem, OR
    Chairman Wyden and members of the Subcommittee, thank you for the 
opportunity to provide testimony on the science, policy and management 
of old growth forests. My name is Marvin D. Brown. I am the Oregon 
State Forester, and also serve as forest policy advisor to Oregon 
Governor Ted Kulongoski. I am here today speaking on behalf of Governor 
Kulongoski.
    Slightly less than half of Oregon is forested, about 30 million 
acres in total. Approximately 60 percent of this land, 16 million 
acres, is managed by either the U.S. Forest Service or Bureau of Land 
Management. These federally-owned lands are the focal point for 
discussions about old growth in our state.
    The federal lands are capable of producing a broad range of 
benefits, including the unique values associated with old growth 
forests. These values include types of biological diversity found only 
in old growth forests, the inspirational beauty of large trees, and a 
simple reassurance that some places in nature are being left generally 
undisturbed by people. Such values are important to the people of 
Oregon, and federal lands play the dominant role in providing them. 
These are values that Governor Kulongoski assigns to old growth 
forests. Shaped by those values, the Governor firmly believes that we 
must resolve to shift the debate about management of federal forest 
lands from whether or not harvest should occur in old growth forests to 
agreeing that such forests should be off limits to commercial harvest 
so we can turn our attention to properly managing the rest of national 
forest lands for multiple benefits.
    As a practicing forester, however, I have yet to find a 
straightforward, easily agreed-upon definition of old growth, or a 
formula for determining how much old growth we need. Ultimately, 
questions about defining old growth--and about managing our federal 
forests in general--come down to policy decisions informed by science, 
but based on a shared vision about the purpose and range of benefits we 
seek from these lands.
    It's important to acknowledge that disturbances, in addition to 
natural events such as fires or floods, also include removal of trees 
as part of a management strategy. Mechanical removal of some trees can 
be more practical, more economical than, and just as effective as, 
allowing natural disturbances that perpetuate a climax condition.
    A management regime that leads to sustained re-entry for thinning, 
general improvement of forest health, and for creating an appropriate 
distribution of size classes can successfully achieve and maintain old 
growth benefits.
    Assuming a workable definition for old growth can be developed, the 
next challenge is being able to implement policy. The Northwest Forest 
Plan, approved in 1994, represents current policy for federal lands in 
western Oregon. Developed in response to the listing of the northern 
spotted owl as a threatened species, it designates large areas as late 
successional reserves (LSR), where forests would grow to old growth 
conditions. Notably, the Forest Plan also committed to restoring a 
predictable, sustainable federal timber supply for rural communities, 
although at lower levels than those of previous years. While most of 
that supply was intended to be derived from lands classified as 
`matrix' lands under the plan, the plan also recognized the management 
of lands classified as late successional reserves would also produce 
merchantable timber by thinning such stands to accelerate their 
progression to an old growth forest ecosystem.
    Almost 15 years after the Plan's adoption, little of its vision has 
been realized for Oregon and its communities. Instead, controversy has 
stymied needed management--from thinning of LSRs to harvest in matrix 
lands, the plan is not being implemented as intended. This is of great 
economic and social consequence to Oregon. The loss of a predictable 
and sustainable supply of timber from federal lands has resulted in the 
loss of jobs, community vitality and forest industry infrastructure. 
Worse, it has severely reduced revenues to counties in Oregon which 
were promised a reasonable stream of funding from federal land 
harvests, creating uncertainty and hardship for local schools, law 
enforcement and other county services. In this light, resolving the 
issue of what constitutes old growth would be most welcome if it 
facilitates successful implementation of the Northwest Forest Plan.
    In adopting a definition of old growth, it must be recognized that 
desired old growth conditions vary depending on several factors to 
include annual precipitation, elevation and tree species. For example, 
in eastern Oregon, old growth values on federal lands are presently 
addressed through what are called the ``Eastside Screens.'' Among other 
things, this provision significantly inhibits the harvest of any tree 
over 21 inches in diameter at breast height. From a forest management 
perspective, this is a very coarse filter that does not meet the 
critical management need on these lands, which is to keep stand density 
low enough and size distribution varied enough to promote acceptable 
forest health.
    As a consequence, eastside federal forest lands are overcrowded 
with diseased, insectinfested, dead or dying trees--the result of years 
of suppression of the fires that once were a natural part of the 
ecosystem, and of climate change. What we see now are unusually hot, 
large fires that damage the resource, threatening even those reserve 
areas intended to grow into older forests. About three-quarters of the 
federal forested acres in Oregon are now considered vulnerable to 
unusually severe fires, and fire is a genuine threat to older forests 
and the habitat they provide.
    This is why a definition of old growth must not only consider the 
length of time trees have been growing, it must also consider the 
overall forest health and other conditions that provide the ecosystem 
benefits desired of old growth forests.
    Improving the definition of old growth in these instances will 
help, but in order to implement policy, there are also improvements 
needed in application of the National Environmental Policy Act (NEPA) 
and in concepts for funding federal land management.
    Costs, appeals, and litigation associated with NEPA analysis have 
severely limited the number of forest management projects that actually 
make it to implementation. If federal policy were to recognize that 
such projects enhance environmental benefits (as opposed to the current 
presumption that they threaten environmental values) then there would 
be justification for significantly less analytical cost. The key would 
be to identify the circumstances under which management projects are 
accepted as environmental enhancements. And taking controversial 
projects that target cutting of old growth off the table would also do 
a great deal in reducing controversy, litigation and the need for 
extensive NEPA analysis.
    Regarding funding, investment in federal lands has clearly declined 
at the same time that timber harvests on federal lands have been 
reduced to a small fraction of historical highs. This disinvestment has 
resulted not only in a failure to manage designated forest lands 
towards an old growth condition, it has also resulted in a loss of 
recreation facilities as well as significant threats to water quality 
and fish habitat because of seriously backlogged road maintenance.
    Rural counties in Oregon are in jeopardy of losing roughly $280 
million in safety net payments under the Secure Rural Schools Act. No 
one expects timber revenues to ever again approach their historic 
levels.
    But achieving a harvest level that offers these counties some 
financial relief, and that provides economic sustenance for forest-
dependent communities should also be part of creating the right 
balance. Harvest levels and revenue to counties could be largely 
achieved if we simply implemented the Northwest Forest Plan. However, 
the failure to agree on a definition of old growth and how we will 
manage areas to an old growth condition curtails our ability to produce 
intended benefits on other federal forest lands. Just like the problem 
we face with fire severity, the loss of a predictable and sustainable 
supply of timber from federal lands for the benefit of communities 
speaks to the need to resolve the question of old growth.
    Whether you focus on social, environmental or economic values, the 
federal forests clearly are not contributing benefits in proportion to 
the extent to which these lands dominate Oregon's landscape. Given that 
dominance, we cannot expect to have a sustainable forest resource in 
Oregon if federal lands are not well managed.
    If we are successful at achieving some improvements, we think that 
a host of important forest related benefits, including those related to 
old growth forests, can be more fully realized. Those improvements 
should include the following: a commitment to eliminate harvest in old 
growth forests except when managing to accelerate or protect old growth 
conditions; the creation of a legally-recognized definition of old 
growth would benefit management of Northwest forests, a recognition 
that harvesting trees for management to a desired condition or to 
produce multiple benefits that include timber may both produce revenue, 
but that such harvests are for entirely different objectives and both 
should be allowed; and that funding federal land management in the 
future requires an analysis of return on investment to include the 
values of minimizing fire risk and associated losses as well as the 
role of forests in producing biofuels and sequestering carbon dioxide.
    Mr. Chairman and Subcommittee members, this concludes my remarks.

    Senator Wyden. We'll have questions in a moment.
    Mr. Beck, welcome, long journey for you.

   STATEMENT OF PAUL H. BECK, TIMBER MANAGER, HERBERT LUMBER 
                      COMPANY, RIDDLE, OR

    Mr. Beck. Thank you. Chairman Wyden, Senator Craig, Senator 
Smith, I really appreciate being here, it's an honor for me. 
I'm Paul Beck, I'm Timber Manager of Herbert Lumber Company in 
Riddle, Oregon. We cut big trees.
    This room is an amazing room. It's beautiful wood. If this 
wood was Douglas Fir, it may have come out of our mill. This is 
the type of thing that we make. The difference between this 
room and the wood in it, and the product we make, is our 
product is certified as sustainable by the Forest Stewardship 
Council, either that or it's controlled by the Forest 
Stewardship Council. We submit our entire log procurement 
program to SmartWood, a division of the Rain Forest Alliance, 
for scrutiny.
    Historically, our log sourcing area was the Tiller Ranger 
District of the Umpqua National Forest. Today, that sourcing 
area runs from Humboldt County, California to the tip, northern 
tip of Vancouver Island. The Umpqua National Forest grows 
upwards of a half a billion board-feet per year, and will do so 
forever. We're barging wood from Canada to fill our needs.
    One of the questions that we hear constantly, is our 
dependence on foreign oil, something here is wrong. If you walk 
through a house you'll see a lot of different types--if it's 
under construction--you'll see a lot of different types of 
wood. You'll see a lot of two by fours, but you'll see a lot of 
bigger pieces of wood in there too. You can not build a house 
out of a single type of wood or a dimension of wood, you need a 
lot of other things to go into that house, also.
    You can not build an industry that builds--that makes one 
type of wood. You need to have mills that produce all these 
other things that society needs. I would hope we would produce 
them here, where we have the environmental laws that we have, 
rather than buying them offshore somewhere.
    While some segments of our industry, right now, are going 
through one of the worst economic busts ever, of all time, some 
segments are doing pretty well. The appearance-grade market, 
markets that we cut into, are actually pretty good. Not all 
products follow the same cycles. The dimension market has very 
big highs and lows. Our markets don't have the highs and lows 
and they're not in the same phase. So you've got a community 
like ours, with lots of different types of mills, you get a 
balance. Somebody's having bad economic times, at least you've 
got somebody in the community that's still employing people.
    Our company has existed for 62 years, we've never had a 
single lay-off in that entire time. That's a real stability for 
our area. Our ability to operate depends on the ability to 
procure a quality of log. We're fond of saying that we don't 
make it any better, we just make it a different shape.
    In the Fourth Congressional District of Oregon, we have the 
highest concentration of saw mills and veneer plants, plywood 
plants, in the United States, and probably the world. There's 
34 mills in that area, 17 of those mills are designed to cut a 
large diameter log. There isn't just one or two of us left, 
there's a whole bunch of us.
    Of the small log mills, there's two of those that cut 
species that aren't readily available on small diameter 
thinnings that come off of the Forest Service land at this 
time.
    I find no need to define old growth. We're never going to 
agree on a definition. What we have a critical need to define 
is protection. You can't draw a line on a map or through an age 
class or through a size class, and pretend or try and fool 
people into thinking that that's magically protected. It 
doesn't work that way. We had lines drawn on the map, we had a 
line drawn around Biscuit, it's call the Kalmiopsis Wilderness 
Area, didn't protect it. We had a line drawn on the map on the 
Umpqua, around Boulder Creek. Seventy-five percent of that 
wilderness area burnt up. We had a line on the map that was 
called the Last/Slick Creek Roadless Area, didn't protect it, 
it burned up. Lines on maps protect--protect nothing.
    We need to empower the agencies to go out and actively 
manage the very stands that we want to protect. We need to 
reduce fuel loads to protect these big trees that we're talking 
about. These lands have been managed for 10,000 years. When the 
first settlers of this continent came across the land-bridge or 
in boats from Asia, they brought the management tool of fire, 
and they burnt this land often. To think that this land, when 
the European settlers got here, was a wilderness area, is 
wrong. It had been managed.
    The fuel loads that we see out there today, they're not 
natural. The fires that we see today are not natural. To think 
that we could draw a line on a map and let nature take its 
course, is foolish. We need to roll up our sleeves and protect 
these lands.
    Thank you.
    [The prepared statement of Mr. Beck follows:]
  Prepared Statement of Paul H. Beck, Timber Manager, Herbert Lumber 
                          Company, Riddle, OR
    Chairman Wyden, Senator Smith, members of the committee, good 
afternoon and thank you for inviting me here today; my name is Paul 
Beck and I am the Timber Manager for Herbert Lumber Company in Riddle 
Oregon. I am a fourth generation sawmill worker. The Forests of the 
Umpqua and the Rogue have not only been my office of thirty years, they 
have been my home and my recreation for over fifty three. I am here 
today representing Herbert Lumber, Douglas Timber Operators (DTO) and 
American Forest Resource Council (AFRC). My goal here today is to help 
you better understand our company, our industry, our community, our 
forests, and the true history of those forests. There are many myths 
surrounding all of these things. My desire is to dispel those myths.
    Herbert Lumber Company was founded in 1947 by Milton Herbert near 
Lowell Oregon. The following year the company moved to Canyonville and 
continued there until operations were consolidated with our planing 
mill in Riddle. We have operated continuously since 1947. We employ 62 
people directly. Our employees have full benefits including medical, 
dental, and a retirement plan. At last calculation our average employee 
had been with the company for just over eleven years.
    Our entire product line is either certified as sustainable by the 
Forest Stewardship Council (FSC) or is FSC controlled. We submit our 
entire log procurement program to rigorous third party scrutiny and 
audit by Smartwood an affiliate of the Rainforest Alliance.
    We manufacture larger diameter trees into a wide variety of 
products ranging from door and window parts, appearance grade timbers, 
to industrial grade structural items. These products are in wide demand 
here domestically and on every inhabited continent on earth. 
Manufacturing these products in the United States ensures the highest 
environmental and labor standards are met, not mention keeping family-
wage jobs in the U.S., something that is often discussed on the 
campaign trail and in Congress. Moreover, it's environmentally 
responsible to produce these products in the U.S. where we can ensure 
our high standards are met, rather than depending on products from 
developing nations with few standards and little enforcement.
    Historically our log sourcing area was the Tiller Ranger District 
of the Umpqua National Forest. This area is within thirty miles of our 
mill. Today that sourcing area has grown to include the entire Douglas 
Fir region, which could be describe as the West slope of the Cascade 
Range to the Pacific Ocean, from Humboldt County in Northern California 
to the far northern tip of Vancouver Island. We travel this entire 
three state and two country sourcing area to procure the twenty million 
board feet of timber that we need to supply our mill. Senator Wyden and 
Senator Smith: our state of Oregon is the Nation's wood basket, and our 
mill is situated in the heart of timber country. Our neighbor, the 
Umpqua National Forest is growing a half a billion board feet per year 
and will do so in perpetuity. Yet we're barging logs from Canada to 
feed our mill. Senators, when one of the major environmental and 
political challenges of our time is a dependence on foreign oil, 
something here is wrong.
    The timber wars of the last twenty years in Oregon are full of 
villains and heroes, which vary by storyteller. But as policymakers, I 
urge my senators from Oregon and other Members of Congress to separate 
reality from mythology.
                                 myth 1
    If manufacturers would convert to only small log operations then we 
could thin young stands to provide all the material necessary to supply 
society's needs for wood products.

    Just as you cannot build a house out of one dimension of lumber, 
say 2x4's, you cannot build an industry that produces nothing but one 
type of wood. If you walk through a house under constructions you 
certainly will find a lot of 2x4's. This is a primary framing 
component. But if you look closer you will see a vast number of various 
other grades and dimensions. The timber industry of the Northwest has 
evolved to fill the needs of this market.
    Primary manufacturers in the Pacific Northwest can be divided into 
four basic categories; Dimension Sawmills, Grade Cutting Mills, Veneer 
Mills, and Chipping Facilities.
    Dimension Mills cut a set of specific dimensions of lumber such as 
2x4, 2x6, and 4x4 in varying lengths. A stud mill is a type of 
dimension mill.
    Veneer mills turn a log on a lathe and produce the components for 
plywood and laminated veneer lumber.
    Chip mills simply chip the whole log. These chips are used for 
manufacturing paper and can be used in the generation of electricity.
    Grade Cutting mills do not concentrate on a specific dimension of 
lumber but rather seek to capture the highest grade of wood products 
from a log. These mills make products that are used in the manufacture 
of doors, window parts, paneling, industrial products, and appearance 
and/or structural grade framing material. One example of large log 
consumer products is the headers above doors and windows that need to 
bare a structural load. Thinning young stands alone will not supply the 
raw materials needed to produce these higher grades and structural 
types of wood products. Thinning only young trees will also not provide 
the long-term sustainable supply needed for existing mills in many 
areas, nor will it truly maintain forest health. In order to meet 
consumer demand for renewable and sustainable wood products, we need to 
manage our forests to provide a variety of tree species, sizes and 
quantities. This type of management will also lead to improvements in 
forest health.
                                 myth 2
    There is one Timber Industry and all economic cycles affect the 
``industry'' the same way. 

    While the dimension portion of the industry and to a lesser degree 
some segments of the veneer sector, is suffering through one of the 
worst ``busts'' ever, the chipping markets are red hot, and cutting 
markets are decent. It is important to note that the portion of the 
veneer market that is doing well is the high end or the appearance 
grade product.
    The ability of cutting mills and veneer plants to manufacture 
appearance grade products is completely dependent on our ability to 
procure quality logs. As Milton Herbert, the founder of our company is 
fond of saying, ``We cannot make the wood any better. We simply make it 
a different shape.''
    While all portions of the timber industry experience market cycles 
those cycles are not in sync and they do not have the same variations. 
Dimension lumber markets fluctuate dramatically. Cutting markets do not 
have the same extremes, which is reflected in the fact our company has 
operated continuously for nearly 62 years. In those 62 years there has 
never been a layoff. Part of that is due to the stability of our 
markets. It is also due in large part to the philosophy of the Herbert 
Family. That is, when the market is bad that is when the community 
needs these jobs the most. I can think of no other mill that can make 
this same claim, but in general cutting mills provide stability to the 
local economy. They do not have the highs and lows of the other types 
of mills and their cycles are often ``out of phase'' with other 
segments of the industry.
    Just as it would be unwise for our government to encourage the 
agriculture sector to solely produce one agriculture commodity, say soy 
beans, it is equally unwise to adopt a policy that does not recognize 
the diverse demands and influences on wood products markets. Just as 
you would diversify your own economic portfolio, so too should rural 
timber economies be diversified. If federal forest policy forces every 
mill to create the same, low-grade product-then downturns in the 
housing market such as we see today will have even more dire effects in 
Oregon and elsewhere in the West.
                                 myth 3
    Only those mills that manufacture small logs are state of the art.

    It is often said that our industry needs to upgrade or modernize 
its facilities to manufacture small logs. The truth of the matter is 
that the entire industry, across all mill types, has modernized to 
remain competitive in the world marketplace, to more efficiently 
produce what consumers demand and to be good stewards of the land. The 
log supply in the last decade has been so critically short there is no 
room for inefficient mills anywhere, which is obvious if you look at 
the long list of sawmill closures.
    The Herbert Family has invested millions of dollars in continually 
upgrading our facility to more efficiently produce our products. Our 
mill is still housed in a building that was erected in 1962 but the 
equipment inside more resembles the set of Star Wars than the original 
machinery used in 1947. This investment allows us to conserve and fully 
utilize the forest resource for the benefit of the forest, our 
community, and society.
                                 myth 4
    There are only a small number of mills that need or can even 
process large diameter logs.

    The 4th congressional district of Oregon is the area that I am most 
familiar with. This district has the highest concentration of lumber 
and plywood manufacturing facilities in the United States. In this 
district there are approximately 34 manufacturing facilities. This is 
over half the mill capacity of Oregon. Of those 34 mills a full 17 are 
designed for and need large diameter logs for their operations. There 
are also companies that rely on mills to manufacture larger logs into a 
quality of veneer that is then utilized at other manufacturing 
facilities. So, while some companies may rely primarily on small 
diameter logs at most manufacturing locations, they may also need the 
quality of material that comes out of these larger trees to produce 
products such as plywood.
    It should be further noted that of the 17 small log facilities, 2 
have announced permanent closure and 2 only operate when they have 
accumulated a volume of the species required to run their mill. One is 
a small pine mill and the other uses cedar. These species are not 
typically found in merchantable size from Forest Service small diameter 
thinnings. Oregon's wood products industry needs a diverse mix of 
species and diameters to produce the products society demands. Since 
the Federal government manages over 50 percent of Oregon's forest, it 
has an important role to play in helping to meet these needs. Ignoring 
this reality has both economic and environmental consequences.
                                 myth 5
    In order to protect and ensure that we have biological diversity in 
our National Forest we need to define ``Old Growth''. 

    There are many definitions of ``Old Growth''. I find none of them 
accurate and none of them useful. I have tried to eliminate the term 
from my vocabulary, and I see no benefit in coming up with what could 
only be an arbitrary standard for its definition. What we have a 
critical need for is a definition for Protection. All of our forests 
are at risk of catastrophic and historically unprecedented wildfire as 
well as the effects of climate change and we need to devise a way to 
protect them from this. Active management will be required to help 
forests adapt to climate change--no management will only result in 
losing the very forests we're seeking to protect. Surely by now we know 
with certainty that we cannot arbitrarily draw a line on a map, through 
an age class, or through a diameter class and fool ourselves or the 
public that it is somehow magically protected. Unnatural stocking and 
fuel levels are threatening all forest of all ages in the Pacific 
Northwest. It wasn't logging that destroyed 25% of the Spotted Owl 
habitat in one year on the Rogue-Siskiyou National Forest in 2002. It 
wasn't logging that destroyed the ``Last/Slick Creek Roadless Area'' of 
the Umpqua National Forest that same year. It wasn't harvest that 
consumed over seventy-five percent of the Boulder Creek Wilderness on 
the North Umpqua. It wasn't logging that consumed over ten percent of 
the Umpqua National Forest in one summer. These lands had arbitrary 
lines drawn around them and were called ``protected''. Surely we 
understand that these lines are just that, lines on a map and do 
nothing to protect anything. If we are to truly protect something, then 
we must take action toward that end and empower the agencies to 
implement fuel reduction projects in the very stands of older forests 
we seek to protect. This will take trust and it will take courage on 
your part. But my children, the inheritors of your decisions, deserve 
both.
                                 myth 6
    These Catastrophic Fires are a historical part of the forest 
landscape.

    When the first (first means first) settlers came to North America 
across the land bridge or in boats across the Pacific they brought with 
them forest management. The management tool of choice was fire. By most 
accounts they burnt often and once a fire was set they had no way of 
putting it out and depended on winter rains to do the job for them. 
These fires were frequent to a point that there was often little fuel 
accumulation and thus a low heat/intensity. Studies do tell us they 
also created clearings of various sizes, some huge, especially in the 
Coast Range. These set fires, and not natural fires, were the single 
largest contributor to shaping the forests that European settlers and 
explorers found in the New World. When the question was posed; ``How 
often did areas burn before European settlement?'' Charles Kay who has 
done extensive research on the subject gave the following answer.

          As often as native people wanted. There is little doubt that 
        Native Americans fully understood the benefits they could 
        receive by firing their environment (Anderson2005). To suggest 
        otherwise is to assume aboriginal people were ecologically 
        incompetent, a supposition that is not supported by any reading 
        of the historical or ethnographic record (Mann 2005). Thus, the 
        idea that the Americas were a pristine wilderness, untouched by 
        the hand of man (Vale 2002) is a statement of belief, not a 
        fact supported by science (Kay 2002, Pyne 2003).

    He further states that:

          Nevertheless, even with the simplifying assumptions that were 
        employed, aboriginal use of fire most likely overwhelmed 
        lightning ignitions as Stewart (1956,1963,2002), Anderson 
        (2005) and others contend.

    With the introduction of European diseases of which Native 
Populations had no defense there was a massive die off of indigenous 
people. It is estimated that as much as 90% of the population vanished 
before European settlers arrived. With this decreased population came a 
decrease in native burning. Forests are not static. Existing trees 
grow. New tree trees sprout and grow. When they grow fuel loads 
increased and fires became less frequent but more intense with a much 
greater mortality of older trees. Compounding this growth, European 
settlers started putting out naturally igniting fires.
    While human-caused fire was very much a part of shaping the forest 
we inherited, the fires we are currently facing are very different and 
threaten the very forest we want to protect. If we are to save these 
forests we need to redefine the concept of protection and focus on 
removing ladder fuels that are threatening older forests and reduce 
fuel loads to actually change condition class.
                                 myth 7
    If we only thin overstocked stands of planted trees our forests 
will be healthy and protected.

    Second growth plantation forests only represent a small fraction of 
our National Forests. Limiting management to only these stands will not 
address the threats that exist to forest health on all stands, planted 
and natural. Moreover, given the historic role of indigenous and 
natural fire and the decision 100 years ago to suppress fires as means 
to protect communities, the reality we face today is more stems per 
acre now then previously. Trees grow in all forest types not just in 
young managed stands. To assume otherwise defies all logic. If we 
assume that because we have over-harvested and underthinned in young 
planted stands that we need to correct this by human intervention, then 
we also need to recognize that because we have excluded fire/harvest 
from other naturally regenerated stands we need to also correct this 
through human manipulation. We have stands of all ages of trees that 
are overstocked when compared to historic levels. These stands are fuel 
loaded to the point that any attempt to reintroduce fire would be a 
catastrophe.
    The forested landscape we inherited, and that species that adapted 
to it, were greatly influenced by both natural fire and by man using 
the tool of fire over a period of some ten thousand years. These fires 
were not like fires we see today which do great damage to entire 
ecosystems. For many reasons, including development and the need to 
protect and life and property, fire is not likely to play the role it 
once did. We can and have, however, achieved similar results in a more 
predictable way using modern harvest techniques. We need to redefine 
protection of our National Forests to promote a more extensive and less 
intensive program of removal of trees. Just when we are perfection 
those methods it would be counterproductive to limit them by 
implementing arbitrary prohibitions.
                                 myth 8
    Clear Cutting is the only tool available for the Forest Service to 
manage and regenerate older forest types.

    On private timber lands in Oregon the goal is to maximize growth 
and thus profit. On these lands clear cutting helps create optimal 
growing conditions. These lands are some of the most productive in the 
world. The growth on our National Forests, however, far exceeds current 
or foreseeable levels of extraction. As a result, maximizing growth is 
not necessarily a desired goal.
    There are many things that we do require of our National Forests. 
We expect clean water, recreation, wildlife habitat, solitude, and some 
contribution to our local and national economies. These expectations 
often require different management approaches and won't be accomplished 
through a one-size-fits all forest management prescription. For 
example, populations of elk and deer are suffering in many areas due to 
a lack of forest openings for grazing habitat and thinning won't 
address this problem. What should be the goal is an approach to 
management that meets the needs of all of the important objectives 
listed above. I am here to tell you that if we earnestly work to 
achieve this goal the byproduct will be the production of a quality 
material from our National Forests.
    For the first eighty years of managing our National Forests in 
western Oregon we tried to mimic nature by excluding fire and creating 
manmade disasters called clear cuts. These did regenerate fir well but 
to the possible detriment of some tree species. They obviously offended 
some segments of society. For the last twenty years we have tried to 
exclude both fire and any meaningful amount of harvest. Forests and 
fuel loads continue to grow and we are seeing fires that, while they 
are a natural consequence they are not a socially or environmentally 
acceptable result if our National Forests are to provide us all the 
things we require of them.
    Given that conservative estimates tell us that burning at any scale 
by indigenous people ended some 150 years ago and other reasonable 
estimates tell us that large scale burning probably ended 100 years 
before that, it is safe to assume that there are trees that are at 
least 150 to 250 years old that would not be on the landscape given the 
pre-European management regime and the more recent suppression of fire. 
As a result, any Forest Service management approach should recognize 
the need to selectively harvest larger trees to manage and protect 
older forest types. I believe any approach that fails to do this will 
fall short of producing the many objectives, including healthy older 
forests, we all desire.
    In summary, it would be simple and politically expedient to define 
``Old Growth'' as an age, size, or draw a line on a map. This will do 
nothing to protect it for future generations and in fact would doom the 
entire forest to risk of catastrophic, unnatural, and historically 
unprecedented wildfire. We need to concern ourselves with the entire 
forested landscape. We need to not make simple decisions that will rob 
our children of their rightful inheritance.
    There are those on both sides of this issue that have made a living 
off this conflict. There are those extremes that will choose to not 
agree. There are also reasonable people on both sides that can agree 
that humans have a natural role in helping to shape, manage, and 
protect landscape again and are poised to work together toward that 
end. I would hope that you wouldn't prematurely hamstring those 
efforts. This is not a case of jobs versus the environment. We have the 
opportunity to benefit both.
    I can show you examples on the Umpqua and the Rogue that were not 
appealed or litigated that successfully met this challenge and 
harvested 130 to 250 year old timber. I have come here today to your 
office here in the Senate. Senators Wyden and Smith I have had both of 
your staffs spend time with me and I challenge both of you with your 
history of working across the aisle to come to my office, the Umpqua 
and Rogue, so I can show you my vision of what forest management should 
look like in the century ahead. I am here to tell you that Herbert 
Lumber, DTO, and AFRC are ready to work with you.
    Thank you.

    Senator Wyden. Mr. Beck, thank you very much. It's a long 
trek from Riddle, and we really appreciate your coming, and 
there's a lot of economic hurt out there, and we're trying to 
respond to it and also address the old-growth protection. So, 
we thank you for coming.
    Ms. Spivak, welcome. You've worked with the subcommittee 
often.

 STATEMENT OF RANDI SPIVAK, EXECUTIVE DIRECTOR, AMERICAN LANDS 
                            ALLIANCE

    Ms. Spivak. Good morning, thank you, Senator Wyden.
    Thank you. Good morning, Senator Wyden and Senator Smith. 
Thank you very much for inviting me to testify today to talk 
about the importance of old-growth forests in the Pacific 
Northwest.
    We've heard today about the standing value of timber of 
old-growth forests, but I think it's really important to 
underscore that the value of these forests goes way beyond the 
timber value, a little has been talked about, but just 
underscore. These forests clean the air we breathe, they 
produce oxygen, they produce abundant supplies of clean water, 
they're critical for the last, best salmon runs. The bigger 
trees are, in fact, more fire resistant, and the older forest 
protect from flood protection, which is a pretty big issue in 
the Pacific Northwest.
    From a social value, these are places that Americans and 
Pacific Northwesterners go to play, hike, bike, camp, relax, 
these are the spiritual retreats for millions of Americans. In 
short, they're the natural forest legacy of the Pacific 
Northwest. From an economic standpoint, there's been a 
tremendous recreation boom, and those activities all contribute 
to local economies.
    Mr. Perry touched a little bit on the carbon sequestration 
benefits of old forests, but I do want to underscore, because 
as climate change becomes more and more in the front view and 
we have to think about policies, sequestering carbon is 
critically important.
    Ihere's a very unique situation in the Pacific Northwest, 
especially the west side, because those forests are more carbon 
per acre than any other forest, including rain forests, on 
earth. Just to underscore how important they are, West Oregon, 
Washington, and Northwestern California forests are about 19 
percent of the forest area in the U.S., but they account for 39 
percent of the U.S. forest carbon storage. When you log old-
growth forests and the carbon is released, this can't be 
recovered, even for centuries.
    There's also been talk about, well how much old growth is 
appropriate? That question, in a way, is premature because 
there's an extreme deficit of old growth across the landscape. 
It used to be, in the Pacific Northwest, about two-thirds of 
the land were covered with older forests. Now, about 18 
percent, that's a precipitous drop. The majority of this 83 
percent is, in fact, on public lands.
    So, our first order of business needs to bring the 
landscape back into balance, which is very much now dominated 
by younger trees. We need to bring it--shift it back into the 
balance dominated by older forests.
    I would urge, in any legislation and policy, that there is 
a definition of old growth and mature trees, because without 
such clear direction to the agencies, we'll continue to see the 
pressure to log old-growth forests. An example is the BLM 
Whopper Plan revision, which proposes to increase old-growth 
forest logging by 700 percent.
    The mature forest or the emerging old growth that Dr. Perry 
talked about, we need to protect the old growth, but the 
emerging class is critically important because there is such a 
severe deficit across the landscape, and this is the 
recruitment class for future old growth. As older trees do die, 
fire is part of the natural cycle, we need to make sure that 
there's more old growth coming online.
    There's tremendous public support for protecting old 
growth. Poll after poll shows Americans want these trees 
protected, 1992 polls show that 75 percent of Oregon and 
Washington voters wanted old growth protected, including in 
timber-dependent towns.
    For the most part, the Pacific Northwest timber industry 
has transitioned away from logging old-growth timber, and only 
a handful of mills remain dependent. No wood product made from 
old forests is worth the destruction of these forests. 
Substitute materials can be found for these products, and 
engineered wood products that are equally structurally sound.
    It was once thought that only ivory from elephant tusks 
would do for piano keys and billiard balls or whale oil for 
lighting, but killing whales and elephants to make products out 
of old-growth wood that could be made from substitute materials 
is no longer socially acceptable. It's morally wrong. The same 
is true for logging old-growth and mature forests.
    It's time to resolve the controversy over this and move on 
to more productive ground and focus on restoring the--our 
natural forests. These are the economic engines for local 
communities and while Congress did not create late successional 
forests, only Congress can protect them for this and future 
generations.
    Thank you.
    [The prepared statement of Ms. Spivak follows:]
   Prepared Statement of Randi Spivak, Executive Director, American 
                             Lands Alliance
    My name is Randi Spivak and I am the executive director of American 
Lands Alliance. I want to thank the subcommittee for holding this 
hearing and for inviting me to talk about the importance of the Pacific 
Northwest's mature and old-growth forests. American Lands was created 
at the height of the Pacific Northwest ancient forest wars to give 
local citizens a voice in how their public forests are managed. My 
organization has worked on forest policy issues and specifically for 
the protection of old-growth forests since our inception 16 years ago.
    When I speak of ``late-successional'' forests, I am referring to 
both mature and old-growth forests as defined in the Northwest Forest 
Plan (NWFP). Both kinds are extraordinarily valuable--not just 
ecologically, but socially and economically as well. Without question, 
they are some of the most beautiful forests in this country, maybe even 
in the world. These magnificent forests cleanse the air we breathe and 
filter and produce clean drinking water. They are home for countless 
rare animals and plants and they shelter the rivers that produce some 
of the last best runs of wild salmon. Late-successional forests are 
more resistant to fire and can also reduce damages from flooding. These 
older forests are the playground and spiritual retreat for millions of 
Americans who go there to hike, hunt, fish, camp, and bike. These 
activities also generate significant revenues to local economies. In 
short, late-successional forests are the natural legacy of the Pacific 
Northwest.
pacific northwest forests, carbon sequestration, and climate mitigation
          A mere 0.017% of the earth's land surface, old-growth forest 
        conversion [in western Oregon and western Washington] appears 
        to account for a noteworthy 2% of the total [Carbon] released 
        [into the atmosphere] because of land use changes in the last 
        100 years. (Harmon, Ferrell and Franklin 1990)

    Another crucial role that these late-successional forests play is 
helping to mitigate climate change by absorbing and storing substantial 
amounts of carbon from the atmosphere. More carbon is stored per acre 
in the moist ``Westside'' portions of the Pacific Northwest than any 
other forests in the world (Smithwick et al. 2002, Franklin and Waring 
1980). Though the forests in Washington, Oregon, and California 
comprise only 19% of the forested area of the United States (USDA ERS 
2002), they contain 39% of the United States' total forest carbon 
(Birdsey 1992). Logging late-successional forests releases this carbon 
into the atmosphere. And these carbon emissions will not be absorbed by 
younger managed stands for centuries to come (Janisch 2001).
        historic and current extent of late-successional forests
    Late-successional forests once blanketed the Pacific Northwest. 
Before European settlement they covered approximately two-thirds of the 
landscape. But today, after decades of logging, they cover less than 
one-fifth. The majority of the remaining old growth, about 83%, is on 
public land in Washington, Oregon, and in Northern California. (See 
Appendix A)
                        defining ``old growth''
    In order to develop sound and effective policies that protect 
mature and old-growth forests, we must be able to identify late-
successional stands and trees. So a central question is, how do you 
define ``old growth?''
    While there are several definitions of old-growth forests, there is 
not a lot of variation among these definitions. According to the Forest 
Ecosystem Management Assessment Team (FEMAT), which laid the ecological 
foundation for the Northwest Forest Plan:

          Old-growth stands are usually at least 180 to 220 years old 
        with moderate-to-high canopy closure; a multi-layered, multi-
        species canopy dominated by large overstory trees; high 
        incidence of large trees, some with broken tops and other 
        indications of old and decaying wood (decadence); numerous 
        large snags; and heavy accumulations of wood, including large 
        logs on the ground (FEMAT 1993).

    From an ecological perspective, a key component of protecting old 
growth is to also protect mature forests. Mature forest characteristics 
generally begin to appear at 80 to 100 years of age depending on site 
conditions. Like old growth, the mature age class is also ecologically 
valuable, but the most important role these forests serve is as the 
recruitment class for future old growth. As mature trees transition to 
old growth, they replace old growth lost to disturbance, ensuring that 
viable amounts of old growth will remain across the landscape.
    Mature forests are those that have reached the culmination of mean 
annual increment (CMAI). CMAI is a time-tested method of foresters that 
identifies where the maximum rate of tree growth has peaked. CMAI also 
serves to generally define the beginning of the transition of a stand 
of trees to the mature stage.
    Mature forests continue to grow--both upward and outward. An 
important transition between the mature and old-growth conditions is 
that while old-growth trees continue to grow, they do so mostly in 
diameter rather than height.
    Besides scientific definitions, there is a social definition of 
``old growth.'' How does the public define old growth? Approximately 
three-quarters of Oregon and Washington voters say that trees are old 
growth when they are 100 years old. (Davis and Hibbitts 2002)
    Given the tremendous ecological deficit of late-successional 
forests across the landscape, any policy must protect both the mature 
and old growth age classes. CMAI can serve as a workable demarcation 
point that will provide enough specificity to accurately identify 
mature trees and enough flexibility to distinguish between species and 
local site conditions.
    If we are serious about restoring ecological integrity and 
resilience to our publicly owned forests, late-successional forests 
must also be restored across the landscape over time, allowing these 
forests to return to historic levels.
                     public support for protection
    There is very strong public support for such a policy. Poll after 
poll has shown that Pacific Northwesterners and Americans in general 
want to protect old-growth forests. In a 2002 poll of Oregon and 
Washington residents, 75% wanted to protect old growth. (See Appendix 
B)
        protection and restoration of late-successional forests
    Legislative protection for late-successional forests is essential 
to permanently resolve this resource conflict and provide clear 
direction to land management agencies concerning management priorities. 
Without it, we will continue to see efforts to eliminate and weaken 
existing protections, more litigation, and public controversy. The NWFP 
leaves over 1 million acres of mature and old growth open to logging. 
The Bush administration seeks to eviscerate what protections exist for 
water quality, salmon, rare species, the northern spotted owl, and the 
marbled murrelet in order to pave the way for even more logging of 
mature and old-growth forests than is already allowed by the NWFP.
    The Bush administration proposes to significantly increase the 
logging of mature and old-growth forests. On BLM lands in western 
Oregon, they are proposing a 700% increase in old growth logging. There 
is a better path. That path is restoration of degraded public forests.
    Past logging, grazing, and fire suppression has transformed many 
northwest forests creating a need for ecologically-based thinning that 
can both help restore the landscape and produce non-controversial 
timber volume. In the moist forests on the westside of the Cascade 
Crest, there are hundreds of thousands of acres of monoculture 
plantations that would benefit from variable density thinning to 
accelerate the re-establishment of late-successional forests. On dry 
forests east of the Cascade Crest, thinning small-diameter trees from 
below reduces fuels and therefore helps restore natural fire regimes 
which in turn, protects and restores the original structure of old-
growth forests. Many conservation groups, community-based forestry 
organizations, mill owners, and loggers have found common ground 
focusing on small-diameter thinning. Such projects are moving forward 
without controversy or litigation (examples include the Siuslaw, 
Gifford Pinchot and Rogue-Siskiyou National Forests).
    For the most part, the Pacific Northwest timber industry has 
already made the transition away from logging old-growth timber. Only a 
handful of mills still rely on old-growth logs. Today, no wood products 
are worth the further loss of mature and old-growth forests as every 
acre counts. Substitute materials are readily available to replace 
products made from old-growth trees.
    These last few old-growth mills are like the last whaling stations. 
It was once thought that only ivory from elephant tusks would do for 
piano keys and billiard balls or whale oil for lighting. Killing whales 
or elephants to make products that can be made from other materials is 
no longer socially acceptable; it is morally wrong. The same is true 
for logging mature and old-growth forests. Consider the recent public 
outrage over the Bureau of Land Management's Western Oregon Plan 
Revision to increase old-growth logging by over 700% in western Oregon. 
It is being opposed even in counties that would benefit greatly from 
increased logging revenues. The public will not stand for it.
                               conclusion
    It is time to resolve the controversy and get on with the business 
of protecting mature and old growth logging and restoring our national 
forests. Only clear direction from Congress to the federal forest 
management agencies can do this.
    Unlogged mature and old-growth forests are more valuable to society 
than logged for short term economic gain. Late-successional forests are 
economic engines for commercial and sports fisheries, recreation, and 
tourism, as well as for the ecosystem services, carbon sequestration 
and social benefits they provide. There is significant wood volume and 
related jobs that can come from ecologically-based thinning of 
plantations and fire-suppressed stands. Logging the last of the mature 
and old-growth forests would simply be morally wrong.
    In addition to a focused program of forest restoration, a 
comparable program of aquatic restoration is urgently needed. When we 
speak of forests we also mean watersheds. As degraded forests are 
restored to health, so too must degraded watersheds. One cannot 
separate the trees in a watershed from the watershed itself. There are 
countless miles of old and unnecessary roads that neither the public 
can afford to maintain nor the fish can afford to tolerate.
    Please see that the Pacific Northwest protects and restores one of 
its most important natural legacies. While Congress did not create 
late-successional forests, only Congress can protect the last of the 
old-growth forests and restore them for this and future generations.
appendix a.--the need for protecting both mature and old-growth forests 
                        in the pacific northwest
    Mature and old-growth forests of the Pacific Northwest are 
irreplaceable reservoirs for plants and wildlife, provide clean air and 
pure water, and mitigate climate change by storing vast amounts of 
carbon. Yet these magnificent forests are in great danger of being lost 
unless they are preserved on public lands. Old-growth forests used to 
comprise roughly two-thirds of the forestlands in Washington, Oregon, 
and Northern California, but today cover less than one-fifth. Mature 
forests, which become old growth as they age, have also been greatly 
diminished. The vast majority of remaining old growth is on public 
lands and there is little likelihood that mature growth on private 
lands will be allowed to transition to old growth. Therefore, in order 
to maintain current levels, and to promote the gradual return of old 
growth across the forest landscape, all mature and old-growth forests 
on public lands need to be protected.
    Why older forests are important: Older forests and the structure 
provided by their large, live trees, standing dead trees (snags), and 
downed trees (often called logs) are essential to many ecological 
functions that make forests healthy. Specifically, older forests:

  <bullet> Provide habitat for numerous fish (such as various Pacific 
        salmon stocks) and wildlife species, including rare species and 
        others threatened with extinction. Many wildlife species also 
        depend on large blocks of dense older forests whose canopy\1\ 
        layers are closed for shelter and nesting (e.g. northern 
        spotted owl, Pacific fisher, American martin, and deer).
---------------------------------------------------------------------------
    \1\ The forest canopy describes the area above the forest floor 
where the tree crowns meet to form an interactive web of life.
---------------------------------------------------------------------------
  <bullet> Provide invaluable ecosystem services including clean 
        drinking water, filtering the air we breathe, and cycling 
        nutrients, which are essential for soil development.
  <bullet> Are less susceptible to pest outbreaks and large-scale 
        disturbances, like fire, than younger forests (NRC 2000). 
        Diversity of tree and plant species, and the abundance of 
        spiders and other invertebrates limit pest outbreaks in older 
        forests that could otherwise over-run densely packed 
        monocultures (Schowalter 1995). The thick bark of older trees 
        allows them to withstand more heat, and their great height 
        allows them to escape many surface fires. The heterogeneous 
        structure, higher humidity, and litter moisture of many older 
        forests also inhibit fire (NRC 2000).
  <bullet> May be more resilient to climate change than younger forests 
        because of the diverse plant and animal species they sustain 
        (NRC 2000; Elmqvist et al. 2003; Hooper et al. 2005; Tilman et 
        al. 2006). Some of these plants may contain invaluable 
        medicines. For example, the Pacific yew tree, long considered a 
        ``trash tree'' by lumber companies, contains taxol, an 
        anticancer chemical.
  <bullet> Store more carbon than any other terrestrial ecosystem on 
        earth (including tropical rainforests) and therefore play a 
        pivotal role in long-term carbon sequestration and climate 
        change mitigation. Carbon storage in western Pacific Northwest 
        forests is higher per acre than other forests in the United 
        States (Smith et al. 2006; EPA 2007; Woodbury et al. 2007) and 
        is in fact the highest in the world (Smithwick et al. 2002, 
        Franklin and Waring 1980) because:

    --Favorable climate conditions promote growth during all seasons, 
            not just during the normal summer growing season.
    --The dominant tree species of the region grow in diameter and 
            height throughout their lives and produce large amounts of 
            decay-resistant litter.
    --Infrequent natural disturbances such as wildfires and windstorms 
            allow trees to grow very old (Wayburn et al. 2000).

    Birdsey (1992) found that forests in Washington, Oregon, and 
California contain 39% of the United States' total forest carbon. 
Smithwick et al. (2002) estimated that if allowed to return to 
historical old-growth status across the landscape, Pacific Northwest 
forests could store two to three times more carbon than they currently 
store. Considering that the U.S. net forest carbon sink offsets over 
10% of all annual U.S. CO2 emissions (EPA 2007), allowing forests in 
the Pacific Northwest to return to old-growth conditions would play a 
significant role in helping to mitigate climate change.
    The Westside and Eastside forests are generally separated by the 
Cascade mountain range, which extends through Washington and Oregon to 
Northern California. Westside forests, which include 24 million acres 
of federal forests, have very high rainfall and moderate seasonal 
temperature variability. Eastside forests, which include 15 million 
acres of federal forests, generally grow in less productive soils than 
the Westside, in a climate that is hotter and drier in summer, and 
colder in the winter. Historically, the Westside forests have been most 
associated with Douglas-fir, while the Eastside forests have been most 
associated with ponderosa pine.
        how much old growth was there and how much is there now?
    Estimates of how much old growth existed in the Pacific Northwest 
prior to Euro-American settlement in the early 1800s generally rely on 
the first forest surveys. Those surveys (Andrews and Cowlin 1942; 
Cowlin et al. 1940), conducted in the mid-1930s for both the Douglas-
fir (Westside) forests and ponderosa pine (Eastside) forests, revealed 
that despite extensive logging and related fires like the Tillamook 
Burn that had already occurred, the forests were still primarily old 
growth. The National Research Council (2000), relying heavily on the 
1930s forest surveys, concluded that roughly two-thirds of western 
Oregon and Washington forests were old growth when Euro-Americans 
arrived in the area, and that similar old-growth coverage had existed 
in the Eastside forests. This is in line with a more recent study by 
Strittholt et al. (2006) that found that 64% of the entire land area of 
western Washington, Oregon, and Northern California was covered in old 
growth (which it defined as 150 years or older) before settlement, as 
well as the Forest Service's estimate (Moeur et al. 2005) that 60 to 
70% of the Northwest Forest Plan area had been late-successional (older 
than 80 years) before settlement.
    Since the 1930s, other studies have sought to measure the extent of 
current old growth in the Pacific Northwest. Despite the differing 
parameters of each study, including the definitions used for old 
growth, time frames, geographic areas (e.g. Westside forests, Eastside 
forests, individual states), ownerships (various federal jurisdictions, 
state, and private), and land uses (forests only, or forests combined 
with other land cover), every study has shown that there has been a 
substantial decrease of old-growth forests caused by logging. The 
estimates of current old growth have generally ranged from 13% of 
forests in western Washington and Oregon (Morrison 1991) to 18% 
(Bolsinger and Waddell 1993) of forests in the entire states of 
Washington, Oregon, and Northern California. Strittholt et al. (2006) 
employed satellite imagery from 2000 to examine the over 60 million 
acre area of the western Pacific Northwest, regardless of ownership or 
land cover, and found that 18% of the land is currently covered in old 
growth. A Forest Service survey (Bolsinger and Waddell 1993) examined 
56.5 million acres of forest inventories from virtually all public and 
private forests in Oregon, Washington, and Northern California, and 
found that 18% of forests were old growth (based on varying old-growth 
definitions for different states and ownerships). Therefore, based on 
the various studies:

  <bullet> There has been more than a 70% decline in the amount of old 
        growth in the states of Washington, Oregon, and in Northern 
        California.

    Another key finding, by the Bolsinger and Waddell survey (1993) is:

  <bullet> The majority of remaining old growth (83%) in the states of 
        Washington, Oregon, and in Northern California is on public 
        land.
                         westside older forests
    The Northwest Forest Plan (NWFP), implemented in 1994, covers 24 
million acres of U.S. Forest Service, Bureau of Land Management, and 
National Park Service lands in the Westside forests of Oregon, 
Washington, and California, and a small portion of Eastside federal 
forests in Oregon and Washington near the Cascade crest. The NWFP 
largely shifted federal lands management from resource extraction to an 
ecosystem management focus within the range of the northern spotted 
owl, which was listed as threatened under the Endangered Species Act in 
1990. This dramatically reduced the amount of logging on federal lands 
by 80% (Strittholt et al. 2006). The NWFP is based on the ecological 
framework of protecting ``late-successional'' forests, which includes 
both ``old-growth'' and ``mature'' stands.\2\ According to the NWFP, 
old-growth stands are:
---------------------------------------------------------------------------
    \2\ A classic definition of ``late-successional'' forest was a 
state ``in which shade-tolerant tree species, such as western hemlock 
and grand fir, begin to attain dominance'' and such ``conditions in the 
Pacific Northwest forests occurred rarely, only after many years in the 
old-growth condition and in the absence of significant disturbances 
that maintained dominance of less shade-tolerant species (most commonly 
Douglas-fir or ponderosa pine).'' (NRC 2000 citing Spurr and Barnes 
1973). With the publication of FEMAT (1993) and the Northwest Forest 
Plan Record of Decision (1994), ``late-successional'' has generally 
come to mean forests that have attained the culmination of mean annual 
increment and includes both ``mature'' and ``old-growth'' forests.

          Usually at least 180 to 220 years old with moderate-to-high 
        canopy closure; a multi-layered, multi-species canopy dominated 
        by large overstory trees; high incidence of large trees, some 
        with broken tops and other indications of old and decaying wood 
        (decadence); numerous large snags; and heavy accumulations of 
---------------------------------------------------------------------------
        wood, including large logs on the ground (FEMAT 1993).

    Old-growth stands generally contain trees with a larger average 
diameter, more age class variation, and more structural complexity than 
mature-growth stands of the same forest type. Mature stands are 
generally greater than 80 to 100 years and less than 180 to 200 years 
old. Mature forests are those that have reached the culmination of mean 
annual increment (CMAI), or where the maximum rate of tree growth has 
peaked. Mature forests continue to grow rapidly, both upward and 
outward. An important transition between the mature and old-growth 
states is that old-growth stands continue to grow, but less so in the 
height of trees and more so in the diameter, and not as rapidly. Like 
old growth, the mature age class also plays an important ecological 
role, but perhaps most importantly, mature trees are the recruitment 
trees for future old growth. As mature trees transition to old growth, 
they replace old growth that has been lost to disturbance, ensuring 
that viable amounts of old growth will remain across the landscape.
    Strittholt et al. (2006), in addition to determining that large 
substantial losses of old growth have occurred in western Pacific 
Northwest (see chart below), also determined that there is very little 
mature growth (which it defined as 50 to 150 years or older) left in 
western Pacific Northwest:

  <bullet> There are 11.76 million acres of existing mature growth 
        compared with 11.53 million acres of old growth.
  <bullet> There is significantly less mature growth (5.9 million 
        acres) on public lands than there is old growth (9 million 
        acres) on public lands.
                         eastside older forests
    Like the Westside forests, every study measuring the Eastside 
forests of Oregon and Washington (``Eastside'' forests do not generally 
include any forests in California, though a portion of the Modoc 
National Forest is, in fact ``Eastside'' in character), have shown that 
significant old-growth logging has taken place (Lehmkuhl 1994, 
Bolsinger and Waddell 1993). The Eastside Forests Scientific Panel 
(Henjum 1994) concluded that late-successional/old-growth forests, 
which it defined as forests with trees at least 150 years old or 
greater than 21 inches in diameter in the overstory (dominant or upper 
part of the forest as seen from above), make up between one-quarter and 
one-third of Eastside national forests. When other public and private 
land is considered, the amount drops to below one-fifth. This is well 
below historical levels; the first extensive survey of Eastside forests 
in Oregon and Washington (but excluding northeastern Washington) 
conducted in 1936, showed that 73% of all commercial forest was old 
growth (Cowlin et al. 1942).
    The 1936 survey also found that nearly two-thirds of Eastside 
forestlands were dominated by ponderosa pine, with typical stands 
containing trees up to 60 to 70 inches in diameter at breast height 
(dbh) with most of the stand volume in trees of 20 to 44 inches dbh. 
Based on the 1936 survey, Henjum et al. (1994) concluded that:

  <bullet> Less than 15% of the original ponderosa pine of Eastside 
        forests remains.
  <bullet> Only 3 to 5% of the pre-settlement ponderosa pine old growth 
        remains in Deschutes National Forest, and only 2 to 8% remains 
        in Fremont National Forest.
                               conclusion
    There is a severe deficit of mature and old-growth forests across 
the Pacific Northwest. Like old-growth forests, mature forests are 
ecologically important as habitat for species that depend on closed-
canopies and as replacements for older forests in a dynamic landscape. 
Protecting and restoring mature and old-growth forests are critical to 
restoring ecologically robust forests. To have fully functioning 
forests that are resilient to natural disturbances, able to support 
abundant levels of plants and wildlife, capable of maximum carbon 
storage over time, all mature and old-growth forests need to be 
protected. To do so will require not only protecting what is left, but 
also restoring older forests across the landscape and over time.
    appendix b.--new poll shows 75 percent of oregon and washington 
  residents support protection of old-growth forests from logging on 
                              public lands
Even in ``Logging Counties'' a Clear Majority Now Favor No More Cutting 
                         of Old-Growth Forests
    PORTLAND, Ore.--A new poll conducted by Davis & Hibbitts, Inc. 
finds an overwhelming majority of 75 percent of Oregon and Washington 
state residents support protecting old-growth forests from logging on 
public land. ``The message from this poll is loud and clear: our 
citizens want to protect our last remaining old-growth forests from any 
further logging,'' said Regna Merritt, executive director of the Oregon 
Natural Resources Council.
    The most striking finding in the poll was that support for 
protecting old-growth forests cut across all groups and regions in both 
Washington and Oregon. Even in Oregon's counties where logging and 
other natural resource-based activities occur (every county except 
Multnomah, Washington, Clackamas, Benton, Lane and Deschutes), 67 
percent of respondents support protection of old-growth. Adam Davis who 
oversaw the poll said, ``[t]hese findings demonstrate an unusually 
strong consensus in every subgroup tallied in favor of protecting old 
growth.'' The 600-person poll of randomly selected registered voters 
has a margin of error of +/-4.0%. Davis & Hibbitts, Inc. is a highly 
respected, nonpartisan public research firm with a 20-year history of 
work on natural resource issues in the Northwest.

          With only ten percent of old-growth forests still standing on 
        our publicly owned lands, the continued logging of these 
        majestic trees is bad economics, bad for the environment and 
        bad public policy,`` said James Johnston, director of the 
        Cascadia Wildlands Project. ``The threat to old-growth is very 
        real with the Forest Service this year alone scheduling 114 
        timber sales that target 20,000 acres of national forests in 
        the Pacific Northwest. Half of these acres could be logged as 
        soon as this summer,'' Johnston added.

    When the poll asked why respondents support protection of old-
growth forests on public lands, the top three reasons given were 1) 
preserving what's left for future generations, 2) protecting the source 
for clean drinking water and air and 3) protection of endangered 
species that live in old-growth forests. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Wyden. Thank you very much. I think we can all have 
different opinions with respect to how to resolve the 
controversy, but it's clear there's a lot of support for 
getting it done, so that's what we're going to explore now.
    We're still looking at the prospect of having votes at 11, 
so, that may or may not happen, but what we'll do, is I'll take 
5 minutes and recognize Senator Smith for 5 minutes. Then at 
least we'll get some questions in and see if we have some 
prospects then of more time.
    Thank you all.
    Dr. Perry, let's start with you, in terms of what you think 
are the important management objectives for the landscape? I 
mean, we want to get it all done. We want to protect all our 
values, water, salmon, old growth, all the things that 
Oregonians care about. What do you see as the appropriate long-
term management objectives to get it all accomplished?
    Mr. Perry. I would say moving the--rebalancing the 
landscape, moving it back to a higher proportion of forests 
that are older, have bigger trees. I would envision in--that if 
we've got, say, 30 percent of it protected and we put another 
30 percent or so into these--into managed, but managed 
horticulturally in such a way to perpetuate a dominance of big, 
old trees.
    Then, the remainder of the landscape managed as fast-
growing plantations or whatever we might choose to do. I think 
that balance would give us the best combination of protection 
of water protection against mega-fires and the maintenance of 
biological diversity.
    I'll emphasize that--that that's going--for two-thirds of 
the landscape--that's going to involve management. I'm not 
suggesting that we lock those away from timber harvest, but I 
think, you know, as Dr. Tappeiner pointed out, for those 
portions of the landscape, we have very powerful and effective 
civil-cultural tools to shape the forest toward a dominance by 
larger trees.
    Senator Wyden. That really leads the question I wanted to 
ask for Dr. Tappeiner and you, Doctor, you know, Perry. The 
fire season is getting longer, these, you know, enormous, you 
know, inferno-like fires. Both of you seem to have touched on 
the concept of thinning old-growth stands in order to protect 
old-growth trees. I think people are just starting to get their 
arms around what that would mean.
    Dr. Tappeiner, can you kind of elaborate on that and how 
something like that would work?
    Mr. Tappeiner. First of all, I would say that's really 
important in the drier forests, not necessary for the west side 
forest, the hemlock, Douglas Fir forest. But in a mixed 
conifer, Ponderosa pine, Lodgepole, and pine forest, it's very 
definitely needed.
    By thinning, it reduces flammability in old forests, it 
means removing the ladder fuels, smaller trees and the shrubs 
that will carry the fire into the bigger trees, OK? It also 
means having some space between the crowns of the bigger trees, 
so if you do have a severe fire, it won't burn from one big 
tree to the next.
    Now, in order--as I mentioned earlier--in order to do this 
in some sites, it may be necessary to cut some fairly large 
trees, it may be necessary to cut some fairly old trees. Aged 
trees and size isn't necessarily very well correlated, so in 
these--especially on dry forests, some very old trees might 
actually be ladder fuels for larger trees that you want to 
save.
    Senator Wyden. OK, let me go to you, Mr. Beck, because 
we're going to clearly want to understand more about your 
business model and your needs, and some of this I may even ask 
you in writing. What percentage of your timber now comes from 
the private forests and what percentage comes from the public 
forests?
    Mr. Beck. There is actually a couple of other groups there, 
and I would be guessing because I don't break it out that way. 
But I would guess Forest Service, BLM, probably at this point 
15 percent, last year, Indian Nations, probably--probably 30 
percent, 35 percent, and the remainder would be private land in 
one country or another.
    Senator Wyden. What is the smallest tree that you can 
process in your mill now?
    Mr. Beck. We're totally market-driven in what we cut, and 
that's why we've survived, we jump around. At times we cut down 
to a 12-inch diameter, small end. So, that would be, probably a 
18, 1-inch at breast height on a tree.
    Senator Wyden. I'll have some more questions, if we have 
time, otherwise we'll do it in writing. The point is, we want 
to learn more about your business model, and my pledge to you 
is to really try to walk the system through, in terms of how it 
works for you today and the various approaches that we might 
take to resolve the controversy.
    Senator Smith.
    Senator Smith. Thank you, Senator Wyden.
    Let me first say to Dr. Tappeiner and Dr. Perry, how 
honored we are to have you here.
    Mr. Perry. Thank you, we're honored to be here.
    Mr. Tappeiner. Thank you.
    Senator Smith. We respect you, we thank you for being the 
experts you are in a State as great as our own. I think the 
Chairman and I agree on that.
    I think I heard you both say that old-growth trees respond 
positively to tree removal. Is that--are we clear on that?
    Mr. Perry. I----
    Senator Smith. In other words----
    Mr. Perry [continuing]. Dr. Tappeiner said that and----
    Mr. Tappeiner. I said that.
    Mr. Perry [continuing]. I will not dispute him on that. He 
knows more than I do about the old growth response to thinning.
    Senator Wyden. Is that your feeling as well?
    Mr. Tappeiner. Yes, Senator, it is.
    Senator Smith. Your testimony, Dr. Tappeiner, indicates 
that guidelines for understanding and describing of old growth 
should be local and practical, to enable forest managers to 
protect and develop old-growth trees and forests. Given that 
many forest types, climates, and diversity across the 
Northwest, do you think Congress should develop such 
guidelines, or would these be better left to professionals?
    Mr. Tappeiner. I hope that Congress would facilitate 
developing those guidelines. Yes, I think it has to be done 
forest ecologists, agriculturalists, foresters, wildlife 
biologists, who know their local forests. Then they have to be 
adaptable, they have to be flexible enough so that those 
guidelines can be implemented. So it takes, you know, it takes 
an understanding of logging equipment, it takes an 
understanding of fire regimes, what, you know, just the whole 
infrastructure of what's available locally.
    Senator Smith. Dr. Perry, do I understand that you--it's 
your feeling that old growth refers to a forest condition and 
not the size of a single tree?
    Mr. Perry. It does refer to a forest condition, and part of 
that condition depends on the size of individual trees. So it's 
both the size of individual trees and it's the forest 
structure, in total.
    Senator Smith. Are you familiar with the Coos Tribe 
proposal to assume management of a portion of Siuslaw National 
Forest?
    Mr. Perry. I am not.
    Senator Smith. Their plan would be a thinning-only program 
to accelerate old growth characteristics and wildlife habitat 
on about 60,000 acres. Is that something that you could 
support?
    Mr. Perry. Oh, yes.
    Senator Smith. Very good.
    Mr. Perry. I think it's, you know, I would have to look at 
it and say, on the Siuslaw, where there is no old growth, to 
speak of, left, then they're going to be going into younger 
stands. I'd just specify that I'd very much support that 
approach and I think it needs to be applied to the younger 
stands for a number of reasons.
    Senator Smith. Randi, thank you for being here, as well. I 
want to ask you a few questions, because I want to try to 
understand the differences of--that you and I may have.
    Are you--were you saying in your testimony that to cut a 
tree and to turn it into a room like this, that it releases 
carbon? Or is the carbon still here?
    Ms. Spivak. If you--there is some carbon in the stored 
wood, but if you take into account logging old growth and the 
emissions that are released by--from logging, from the tree in 
the soils, only about 15 percent of that carbon remains in the 
wood product. The life of a wood product may only be about 50 
years.
    Senator Smith. It's my understanding that, as we talk about 
global climate change and the ability of trees to sequester 
carbon, that as a tree--and please tell me if I'm wrong, any of 
you, but I'm directing this to Randi initially--that younger 
trees are much better attracters of turning carbon into wood 
than older trees. As they die, they begin emit carbon. Is that, 
am I incorrect in that understanding?
    Mr. Perry. Could I respond to that?
    Senator Smith. Yes, sure.
    Mr. Perry. The evidence that's been coming in over the last 
few years, is that the older forests are much more productive 
than we once thought they were. It--the standard wisdom was 
they build up a lot of biomass and that respires and then 
throws away a lot of carbon, so their productivity drops 
accordingly. But in fact, what it looks like they do, is that 
as they get older, they use water much more efficiently than 
the younger forests. So, their productivity does not drop as 
much as we thought it did.
    Senator Smith. That, that's--I'm glad to know that. 
There's--I've just been confronted with lots of scientific 
evidence that's saying otherwise, but if that's not the case, 
then I'm anxious to learn that, and that's why I asked this 
question.
    Because one of the things I do know, is when you burn up a 
Kalmiopsis Wilderness of old growth, you're not capturing 
anything, are you? It's just turned into global warming.
    Mr. Perry. When it burns?
    Senator Smith. Yes.
    Mr. Perry. You're capturing it rarely, except in small 
stands, do the boles burn up, so the standing boles are left 
there, where the bulk of the carbon is. So the carbon that's in 
the crowns goes up in the air, the carbon that's in the big 
standing boles stays onsite, depending on where it--or it gets 
hauled off to a mill, depending on what we choose to do about 
salvage.
    Senator Smith. I think my time is up, Senator.
    Senator Wyden. Senator Craig, what we're doing, given the 
nature--you recognize for 5 minutes, and then if we haven't 
gone to votes, we'll come back for another round.
    Senator Craig. Mr. Chairman, thank you.
    Panelists all, thank you. I've--I'm sorry, I had to step 
out, I had a meeting in the other room, but I appreciate, not 
only your observations, your obvious experience and knowledge 
of the issues at hand. I'm also pleased to hear that some 
believe that in old growth--some form of management, some form 
of activity, of the thinning, the cleaning, is appropriate, as 
it relates to the vitality of old growth itself.
    Dr. Perry, Dr. Tappeiner was mentioning that and gave us 
the example of this one Sugar Pine. Do you agree with him, that 
the kind of active management that he talks about, about under 
story and the thinning and cleaning, in some respects, enhances 
or ensures at least the stability of an old-growth stand?
    Mr. Perry. I agree very much with the point that we need to 
retain some flexibility. I also agree with the point that John 
Tappeiner made, that this is--on the moist forest types, it's 
almost certainly not necessary, in terms of fire protection, to 
go in and do any thinning in old growth. In the dry forests 
types it's different. There, where you need the flexibility, 
that if you have--if you're trying to save a large, old, fire-
resistant species like Ponderosa Pine or old-growth Douglas 
Fir, on these dry sites, and it happens to be surrounded by 
White Fir fire ladders that may be fairly large in diameter, 
then I think, to save that big old fire-resistant tree, we may 
have to log out some of those larger diameter White Fir. It's a 
judgment call that has to be made on the ground in those 
particular situations.
    Senator Craig. But it's an active judgment call, is it not? 
It's not old growth as museum pieces that we put fences around 
and windows up to and simply observe or walk through. You're 
talking about an active decisionmaking process as it relates to 
the state of play in that old-growth stand, are you not?
    Mr. Perry. I am. Again, I'll emphasize that it's the dry 
forest types that this applies to, but yes, I definitely am 
talking about an active decisionmaking process.
    Senator Craig. When I came back into the room you were all 
having a discussion about sequestration and I missed, I think, 
Randi, your testimony, as it relates to--or at least you were 
responding to a question. Ron and I--Senator Wyden and I--have 
spent a good deal of time and made efforts to introduce 
legislation over time that recognize and reflect on the value 
of sequestration as it relates to climate change.
    In the latter years of the Clinton Administration, I spent 
about a 24-hour period stopping the Clinton negotiators, at a 
Climate Change Conference in Belgium, from giving away our 
sequestration values, and that's when the Russian's were in 
there dealing and making their play with the forests of 
Siberia, because I saw it as a value we could not give away nor 
should we negotiate away.
    Last year--let me put it this way, I serve on the 
Environment and Public Works Committee, which has been very 
active in attempting to look at legislation that addresses the 
issue of climate change. As a result of that, I asked some of 
our agencies to look at last year's burn on public lands, both 
forest and grasslands, but, of course, dominantly forest lands, 
as it relates to the total acres burned and the approximate 
release of carbon into the atmosphere, and what it--what was it 
an equivalent of.
    This is a guesstimation, but a reasonable guesstimation 
based on some pretty good minds--it was equivalent to taking 12 
million passenger cars off the road, if that carbon had not 
been released, but had been retained inside the log, inside the 
tree, inside the grass blade.
    Now, how do we compare that? That's like taking nearly all 
of the passenger cars off the highways of California. I think 
we're--I'm always amazed that we just pass this one by. We are 
rushing to judgment on climate change in other areas, trying to 
control man, but we're not actively engaging Mother Nature in 
her releases, in ways that we probably ought to. I think it is 
extremely important that we do that.
    I'm very anxious to look at the science that says old 
growth does more than we thought it did, because I started 
looking at the science about 15 years ago, when we believed 
that young and active forests and their growth cycles 
sequestered a great deal more than older trees, and the trees 
that had peaked and were, if you will, just sustaining 
themselves.
    So, those are extremely valuable pieces of information for 
us to have. Because, as we equate climate change and as we 
legislate--if we do--and if I'm still here, I'll make every 
effort to put a forest provision in climate change. Because I 
think it is a valuable factor in our overall understanding of 
what we might be able to effectively do.
    If any of you wish to make comment to those comments, 
please do. If not, Mr. Chairman, I have no further questions of 
the panelists.
    Senator Wyden. I thank my colleague. The vote hasn't been 
called, so let's see if we can get another 5 minutes in on our 
questions. I won't even take 5 minutes.
    Ms. Spivak, question for you--I'm going to be, on Sunday 
afternoon, in beautiful Baker County in our State on the east 
side, and I know that you all have been supportive of the idea 
of working with industry folks and environmentalists and 
scientists, looking at thinning on the east side, and I think 
that's appreciative, and certainly that's something that I'm 
going to hear a lot about on Sunday afternoon. We'll want to 
follow up with you more on your thoughts in terms of how that 
ought to go forward.
    Tell me, if you would, just so we get a--almost a set of 
data points to let us build the record--what your sense is of 
old growth, and the amounts. How much there used to be, how 
much there is now, and what you think it ought to be. I realize 
this is a very inexact, you know, science. I think you had some 
numbers earlier. Again, this is in area where people have 
differences of opinion, but just from your standpoint and the 
efforts that you've made over the years--how much did there 
used to be, how much is there now, and what's your sense of how 
much there ought to be?
    Ms. Spivak. OK, good question, thank you.
    There have been a number of studies over the years to try 
to get a good handle on those numbers, and of course, it's not 
an exact science to calculate the past, but based on a series 
of studies, it looks like there was, across the Pacific 
Northwest, pre-European settlement, about two-thirds of the 
landscape was covered with older forest, old-growth forests.
    Now, based on current data, which is accurate--fairly 
accurate, anyway--it looks to be there's about 18 percent 
across the landscape. So, it's about a 72 percent drop.
    So, we're in a significant deficit state of old-growth 
forests across the landscape. To answer the question of how 
much there should be, as we talked before and you heard Dr. 
Perry testify, the landscape is sort of out of balance now, 
with a lot of younger forest plantations, more fire-prone.
    To restore the ecological balance, we'd like to see the 
landscape go back to a dominance by older forests, getting 
closet to the historic composition.
    I just wanted to mention one other thing on thinning, if I 
may, and I was cutting my testimony so I didn't--I had to cut 
some things out, but--I did also want to say that, you know, as 
tenacious and as important as conservationists are to protect 
the old growth, we totally recognize that in dry forests there 
has been a buildup of fuels because of grazing and fire 
suppression.
    So, we're not talking about a complete hands-off approach, 
just let nature take it's way. I absolutely recognize and, you 
know, I learn a lot from Dr. Perry and other scientists, that 
it is important to go in there and reduce the ladder fuels and 
do some active management in these stands.
    But, you know, we need to be careful--it's talking about 
protecting the older trees, making sue there's not damage to 
soils, to water quality, to wildlife habitat and to fish. So, 
you know, again, not hands-off, but careful management.
    Senator Wyden. That's a good message for Baker County on 
Sunday, and I thank you for it.
    Let me ask one question of you, if I could, Mr. Brown. You 
know, this subcommittee has tried very hard to strike a balance 
in natural resources--we've been right at the center of the two 
pieces of legislation in the last 15 years that actually became 
law--the County Payments legislation, and the Forest Health 
legislation. I'm going to see if I can help spur along the 
third effort with this thinning bill.
    You've heard a little bit about some of the concepts, you 
know, today. We want to make sure, particularly in these, you 
know, hundreds of thousands of acres of, you know, overstocked, 
you know, second-growth stands, that we get some of that 
merchantable timber to the mills, and you know, we protect old 
growth--and that's going to be the general, you know, 
direction.
    But one of the reasons I feel so strongly about trying to 
make this effort is I'm now old enough to remember some of the 
battles, where our wonderful Senator Hatfield was holding, you 
know, the big Timber Summits and we would have throngs of 
protesters, and the timber wars with all the lawsuits were just 
sort of notorious for, sort of bringing everything to a halt. 
Instead of the win-win kind of situation--being sensitive to 
economics and environmental values, essentially we got, you 
know, a whole lose-lose.
    I think my question to you is--what's your sense about the 
impact of something like that in the State of Oregon? I mean, 
when you have something like that, essentially, total, you 
know, gridlock, it strikes me that the impact can just be, you 
know, devastating. You remember some of those old battles, and 
what can you tell us about what happens when you have total 
impasse in a State like ours?
    Mr. Brown. Senator Wyden, it is devastating. It covers the 
gamut of environmental costs, as well as social and economic 
costs.
    The social cost comes a lot from rural communities no 
longer being able to support family wage jobs, the education 
system suffers because the infusion of dollars aren't there any 
longer. There's a migration of people out of those communities, 
because they don't have the opportunity to earn a family wage 
job.
    I've even heard folks talk about it showing up in things 
like higher rates of domestic violence, and people accessing, 
kind of the social welfare infrastructure because of the lack 
of economic opportunity, and the stress that goes with that.
    It's interesting, on the environmental side, there's also 
significant issues. One of the ones that I get real concerned 
about with Federal lands is the road maintenance. Because 
Federal lands no longer have the economic infusion that allows 
them to maintain their roads, they're not being maintained, 
they represent a water quality threat, and they're not doing as 
well a job as, say, industrial timberlands at eliminating fish 
passage barriers that, you know acts, and allow salmonettes to 
be much more successful at spawning.
    So there are environmental consequences that go with, with 
all of that conflict. Not to mention the millions of acres of 
dead, dying, and diseased trees that are on the landscape right 
now, and certainly the economic piece of that. We know, you 
know, there's only a fraction of the mills in Eastern Oregon no 
that there once used to be. So, it has had very significant 
impact.
    When, you know, our landscape, our forested landscape is 60 
percent under the management of Federal policy, you can expect 
that to also bleed over into what happens on private lands. 
Private lands adjacent to Federal lands are threatened by the 
fires that burn off of them, they're threatened by the insect 
and disease issues that come from Federal lands.
    When those mills in Eastern Oregon go away, that private 
landowner that used to be able to take his logs 50 miles has to 
go 300 miles. It greatly impacts our ability to manage.
    Senator Wyden. Very helpful.
    There are about 12 minutes in the vote, so if Senator Smith 
takes 5, we'll be able to make it.
    Senator Smith.
    Senator Smith. Thanks, Senator.
    Paul, thank you for being here. When you cut a tree, how 
much carbon is released when it's harvested and processed?
    Mr. Beck. You know, I've never done the science. But, the 
actual log, probably 99 percent of it is----
    Senator Smith. It's still carbon, right?
    Mr. Beck. We do utilize log fuel, the bark, to generate 
electricity. There's a co-generation facility about a quarter 
mile from our plant.
    But, I question the logic of a burnt tree----
    Senator Smith. Being better than a harvested tree?
    Mr. Beck. Yes. I mean, it's decomposing. Yes, the roots 
decompose when we log, but so does a burnt, dead tree. It 
decomposes.
    Senator Smith. You indicated that, you know, where you're 
living, you are surrounded by some of the most productive 
forestlands in the world, you now go to other countries to get 
your logs, is that correct?
    Mr. Beck. Yes, it is.
    Senator Smith. Is that Canada?
    Mr. Beck. Canada.
    Senator Smith. Do they have any standards on old-growth 
harvest?
    Mr. Beck. The private lands that we deal with on Vancouver 
Island, have a pretty rigorous set of forest practices law. I 
don't think they probably compare to ours. I think----
    Senator Smith. Are they over-cutting up there?
    Mr. Beck. What's that?
    Senator Smith. Are they over-cutting their old growth up 
there?
    Mr. Beck. I don't think so.
    Senator Smith. Ms. Spivak I think compared mills like yours 
to the whaling industry of a century ago. I wonder if, in 
fairness, you ought to have a response to that.
    Mr. Beck. I think it might have been a fair response to my 
great-grandfather's mill, he did have a saw mill, he did log, 
that was 100 years ago. It's not a fair comparison to what I am 
proposing now. Our mill still sits in a building that was built 
in 1962, but the equipment inside is nothing like the mill we 
had in 1947--it more resembles something out of Star Wars. It's 
a state-of-the-art saw mill, designed specifically to cut large 
trees in a very efficient manner.
    You know, what I would like to see is man become a native 
species on a landscape again. I said that the Native Americans 
managed this land by fire for 10,000 years, and the fuel that 
was removed kept those forests healthy.
    What I would like to see, and what Linda's people have been 
doing on the Umpqua, on the Rogue, is just that--they've been 
removing some trees. It's no the clear-cut of my great-
grandfather's. What I'm proposing is more like the Inuit whale 
hunting, I guess, if we want to use the whale hunting analogy, 
and it wasn't the Inuits that destroyed the whale populations 
of the world.
    Senator Smith. Thank you for being here, Paul.
    Ms. Spivak, I appreciate your testimony, as well, and your 
perspective. I respect it, and I also want to state for the 
record I do value forests as a place of recreation, as a place 
where there is an economy.
    I would just note for the record that Ron Wyden and I this 
week have been besieged with county Commissioners and mayors 
who frankly are at an absolute dead end as to how to fund 
things like schools and paved roads and have public protection 
and police and sheriff departments. While recreation is 
important, it does not provide these local communities with the 
basic building blocks for civil society, and they are 
landlocked by Federal timber, and the deal has been changed on 
them, and it has been an enormously difficult challenge for us, 
working in a bipartisan way, to get the rest of the country to 
agree to pay us not to log. That is, essentially, the deal.
    The feeling around here is, we don't want trees cut, and we 
don't want to pay you not to cut them anymore. When recreation 
is a full replacement, I'll be the first to admit it, it just 
simply isn't. There's a lot of people that are falling victim 
by a change in forest policy, and it does seem to me that the 
ultimate tragedy for the environment, for Spotted Owls is when 
it all goes up in smoke. Because then, while there may be some 
ecological value in fire in a forest, the extent and intensity 
with which they burn in these overgrown areas now, leaves the 
environment and the economy all the losers.
    Thank you, Mr. Chairman.
    Senator Wyden. I thank you, Senator Smith.
    Let me thank all of you, and particularly for the tone, the 
constructive tone that all of you have brought. Because for me, 
this completes the second of our two-part effort to look at 
this issue, the first hearing was devoted just to the thinning 
question. This was designed to look at old growth, but of 
course the two are intertwined, and we've seen that in both of 
the hearings, and then I've had a number of sessions at home, 
you know, in rural Oregon, you know, listening to people.
    I will tell you, I think in Oregon, folks really get it. I 
mean, they understand that this is a critical time, both from 
the standpoint of the economy and the environment. They don't 
give people election certificates to just go out and sloganeer. 
They give us election certificates to do the heaving lifting, 
to really try to think through how to deal with these issues.
    You've given us a lot of very good suggestions. They have 
been specific, they have been pointed, I think it's fair to say 
that not everybody on this panel agrees with all of the other 
witnesses, but you've all show an inclination to work together.
    We've be able to thread the needle a couple of times on 
this subcommittee--particularly County Payments, and Forest 
Health--I see Ms. Goodman there in the second row, you know, 
nodding. That's what you do when you have people like 
yourselves who have demonstrated goodwill and a desire to reach 
out and get ideas and suggestions for our forests, where a lot 
of the good work that you all propose is actually being done 
today.
    So, I leave today with a real sense that we can do this, 
again. We're going to be calling on you often, I hope to have a 
piece of legislation to show you, to ask you for your input and 
your ideas on, very shortly.
    I'm sorry that the morning doesn't allow us to do more in 
terms of questioning, we'll probably have some additional 
matters we want to ask you in writing.
    But thank you for your input, and particularly, thank you 
for the way that you have approached a very difficult issue, 
which is not through name-calling and rock-throwing, but 
through a desire to try to find some common ground, and by God, 
I think we can do it.
    With that, the subcommittee's adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of David A. Perry to Questions From Senator Barrasso
    Question 1. If the goal is to foster and improve the old growth 
attributes in a stand of timber, do you think that large, catastrophic 
fire is a better management method than allowing thinning in old growth 
stands?
    Answer. In dry forest types, NO. Proper fuels reduction (e.g. 
underthinning, retaining large trees, treating logging slash) is 
important to restore and protect dry old-growth. In moist forest types, 
thinning within OG is unlikely to help prevent a large fire and may 
even increase the risk.
    Question 2. Do you think that management can improve old growth 
stands or maintain old growth characteristics or would you recommend a 
hands-off approach to optimizing old growth in all instances?
    Answer. Proper management can improve OG characteristics in dry 
forest types that have experienced an influx of younger trees during 
the era of fire suppression and high-grade logging. Management should 
focus on the source of the problem--the smaller trees; large, fire 
resistant trees should not be removed (unless to protect an even larger 
adjacent tree).
    In moist forest types management will detract from OG values.
    Question 3. Let's say we come to an agreement on a definition or 
set of definitions for old growth--and we then draw a line around the 
existing old growth--and that old growth gets blown down or burned up. 
How should the Forest Service and the BLM handle that kind of 
situation?
    Question 3a. Should salvage harvesting be allowed or should they 
just walk away and allow the material to rot?
    Answer. Areas allowed to recover naturally from disturbance are 
among the rarest community types we have. From an ecological 
standpoint, it is crucial that some natural recovery be allowed. The 
LSR's and IRA's are the logical places for that. Where salvage is 
allowed, there are various reasons why we should take some and leave 
some (I've always liked 50-50). The idea that leaving wood in the 
forest is ``waste'' or hampers recovery of the system has no support in 
the ecological sciences. In fact, from an ecological standpoint leaving 
it is a plus.
    Question 3b. What if the fire was not started naturally or did not 
originate in the old growth stand?
    Answer. It's important to keep the focus on what we want on the 
landscape. What is perceived to be ``natural'' can be a useful guide, 
but we shouldn't become prisoners to it.
    One of the witnesses today advocated for full protection of mature 
trees and went on to suggest that trees over 100 years in age are 
mature. In my state of Wyoming--and I am told in parts of both eastern 
Oregon and Washington--we have large stands of Lodge-pole pine and 
Ponderosa pine that regenerate in very thick and dense stands that have 
stagnated. The trees never grow large in diameter or very tall. We call 
them dog-hair stands.
    Question 4. If Congress were to adopt either an age limit or a 
definition that says the land managers should stay out of mature stands 
of timber, what would you recommend be done in these stands that have 
stagnated but are mature or over 100 years in age?
    Answer. I started my career as a lodgepole researcher in the 
northern Rockies, so I know about doghair. In all cases--whether 
lodgepole or some other species--we have to stay flexible with regard 
to the mature stands. Depending on site and stand history, some won't 
need thinning and some will if we want to keep them healthy. 
Silvicultural expertise will be crucial in making these calls.
    Dr. Perry you suggested a good mix of management for old growth 
protection would be 30% old-growth reserves: 30% in mature forest 
(recruitment areas for old-growth); and 30% in production forest 
plantations to be managed. The most recent data we have on land 
allocations in the Pacific Northwest Forest Plan is 24.5 million acres. 
Of that approximately 66% of the land is in old-growth and mature 
forest reserves; approximately 4.2 million acres (17%) in Adaptive 
Management Areas and Riparian Reserves where harvesting is 
significantly restricted and about 4 million acres (16%) in the Matrix 
Lands but estimates are that about only 3 million of that is really 
been open to management.
    Question 5. Currently there are between 3 and 4 million acres in 
the Pacific Northwest Forest Plan that are allocated to the matrix 
lands which can be actively managed. What steps would you recommend the 
Bureau of Land Management and the Forest Service take to assure the 30% 
of its lands become available for active timber management as you 
called for in your testimony?
    Answer. I'm glad to have the chance to clarify this. The 30-30-30 
mix I mentioned referred to land allocations within the region, and not 
just federal lands (a basic principle of ecosystem management is to 
look across ownership boundaries and plan accordingly). Using a general 
target allows us to evaluate what role the federal lands should be 
playing in a particular subregion. In the Oregon Coast Range, for 
example, intensive management is well represented on private lands and 
federal lands have another role to play. In the southern Cascades and 
Siskiyou's, with less private land, some intensive management on 
federal lands will probably be necessary to attain the  30% figure. 
However, even in the later case, intensively managed federal lands must 
be subject to riparian reserves and harvesting restrictions similar to 
those imposed by FEMAT. Those restrictions are subsumed within my 30% 
figure. I am definitely not suggesting that federal lands go back to 
the era of industrial-style management, or that 30% of federal lands 
opt out of FEMAT.
    30-30-30 are not magic numbers and there will be some variation 
around these depending on the context (especially since they don't add 
up to 100%). The key concept is that in order to protect diversity and 
reduce the chance of very large disturbances, immature stands should 
exist as islands within a sea of late successional (i.e. mature plus 
OG) rather than vice versa.
    Finally, achieving these land allocations is a long-term goal. If 
the objective is to produce healthy and resilient forested landscapes, 
timber harvest from federal lands over the next several decades should 
come from thinning overstocked young stands and removing fire ladders 
from older dry stands. Thousands of acres are in need and the agencies 
are not able to meet those needs with their current resources. Given 
the looming threat of more fire and insect activity, this situation is 
a powder keg. By putting young, fire-susceptible stands on the 
landscape, regeneration harvests exacerbate risks and should occur only 
under special circumstances (e.g. if there is a demonstrated shortage 
of early-successional habitat). Once large, fire resistant trees 
dominate the regional landscape again, we can consider regeneration 
harvests in those areas where they are appropriate.
    Thank you for the chance to address these follow-up questions. I'd 
be happy to continue this dialogue.
                                 ______
                                 
      Responses of Paul H. Beck to Questions From Senator Barrasso
    Question 1. You talked about the fires that have occurred on the 
Umpqua National Forest and the old-growth that has been destroyed by 
those fires. Do you have any idea, on an acres basis, how much old-
growth forest on the Umpqua National Forest has been harvested since 
2000 vs. how many acres of old-growth has burned?
    Answer. The Umpqua is 984,602 acres. Of that, well over 10% is non-
forested and is water, rock, ice, or roads. In the period between 1996 
and 2003 a total of 108, 595 acres burned at unnaturally high 
mortality. Well over two thirds of this acreage was mature forest 
types. That is 11% of the total Umpqua and over 12% of its forest. Of 
critical importance to understand is that, of that burned area over 
13,000 acres burned at High Severity. The Severity is measured by 
several criteria the most important being soil damage. An intense fire 
or one with high mortality is one thing, as it will often be able to 
support a new forest. A high severity fire has so damaged the soil 
itself that a new forest may be hundreds of years in the making. It may 
take a hundred years to grow a large tree but it may take several 
hundred years to recreate the soil that makes that possible. High 
severity fires are an indication of extreme fuel loading. This 
unnatural fuel loading allows the fire to burn at a heat and duration 
that will actually ignite and consume the soil itself. These High 
Severity fires occurred in mature stands.
    The Umpqua regeneration harvested less than a thousand acres of 
older timber in that time period. Regeneration harvest is as close as 
the Forest Service gets to an actual clear cut. Regeneration retains as 
few as three trees per acre but more often as many as 20 or more trees 
per acre and always has green tree retention areas, stream buffers and 
wildlife corridors. It is not my Grandfather's forestry. Most all of 
these regeneration harvested acreages were from sales that predated the 
North-West Forest Plan. They were planned, laid out, and auctioned 
prior to its implementation. For one reason or another, including 
litigation, they were harvested after the plan went into affect. The 
Umpqua has all but abandoned the use of regeneration harvest for any 
new sales. It is important to note that none of the soil conditions in 
high severity burn areas are present in regeneration harvested areas.
    Question 2. Compared to 2000 do you have any idea how much old 
growth has been added to the Umpqua National Forests inventory of older 
trees?
    Answer. The Forest Service estimates that 40,000 acres of the 
Umpqua have grown into ``late-seral condition'' since 1996. On the 
surface this would seem positive but when compare to the number of 
acres that have ``burned out of late-seral condition'' it is a large 
net loss. We need to do something to keep the growth from burning up.
    Question 3. Before the implementation of the Northwest Forest Plan, 
how much of your mill's lumber supply was from the Umpqua? How much do 
you receive from the Umpqua now?
    Answer. Prior to the implementation of the Northwest Forest Plan 
Herbert Lumber purchased over 90% of its wood from the Federal 
Government. The majority of this volume came from the Tiller Ranger 
District, the center of which is within 30 miles of our plant. Last 
year our supply from the Umpqua and adjacent BLM lands were less than 
10% of our total usage. That percentage is actually up from zero the 
year before. The reason for this bump up is twofold. A sale that sold 
in 1997 finally worked its way through the courts and the purchaser was 
able to operate it. In that ten year period they had changed their 
operations to the point that this wood better fit us than them. 
Secondly the Umpqua had planned, laid out, sold, and operated a series 
of sales in older stands that were, for a lack of a better term, light 
touch. These were excellent projects that reduced fuel loading and 
greatly improved deer and elk habitat. They were esthetically pleasing 
and had the added benefits of being profitable and producing a much 
needed size and grade of wood. These sales included no regeneration 
harvest. To the best of my knowledge, these sales were not litigated. 
There are hundreds of thousands of acres on the Umpqua that would 
benefit from this type of management.
    Question 4. How much of the 20 million board feet your mill 
processes each year is brought in from Canada?
    Answer. Last year our Canadian suppliers accounted for 
approximately 40% of our needs. This was our highest import year and 
likely will be. Our expectation going forward is that we will rely on 
these sources for a third of our needs.
    Question 5. Are these logs from Canada larger or of better quality 
than logs from Oregon or Washington or approximately the same?
    Answer. The quality and size of logs that we obtain in Canada exist 
on the Umpqua. We manufacture products from logs that are typically 16 
inches and sometimes as small as 12 inch diameter on the small end and 
up. Our average log size for 2007 was over 23 inches and it was 22 the 
year before. Where a dimension mill may only make a half dozen 
products, we literally make hundreds. The key to our success and to our 
survival is our ability to shift from one product to another as markets 
dictate. Our ability to do this depends on having a wide range of logs. 
We do not cut all of our products out of 16 inch logs. We cannot cut 
all of our products out of 30 inch logs. We need a full range of 
diameters and grades of logs. This entire range exists in the 
overstocked stands of the Umpqua. If the Umpqua is to survive as a 
green forest it needs to have some of that material removed.
    Question 6. All else equal, if you could sustainably meet your 
board foot requirements from Oregon's forests would you still need to 
bring in logs from Canada?
    Answer. In a perfect world it makes no sense to go to Canada to 
purchase wood that exist in our own back yard. Indigenous burning 
halted and fire suppression started over a hundred and fifty years ago. 
These stands of all ages, that are quite literally within view of our 
mill are overstocked beyond what they were historically. The wood is 
here, it is growing, it needs to be removed if the forest is to 
continue to meet all the needs that society is putting upon it; why 
would society want us to buy our wood anywhere else? As a pure business 
decision on Herbert Lumber's part it would be extremely unwise for us 
to trust the Federal Government to provide any raw materials. It has a 
dismal track record of keeping its promises over the last two decades. 
Our Canadian trading partners are our most dependable and consistent 
suppliers of quality raw material. Congress would have to make some 
ironclad guarantees before we would even consider turning our backs on 
this relationship.
    Question 7. In your mind, given the demand for wood products that 
Americans use, is it moral to supply our wood product demands from 
countries with lower environmental standards that we impose on our own 
federal forests?
    Answer. While I do not like to pass moral judgment, the simple 
answer is no. I feel confident that our raw material sources are 
environmentally sound. As I stated in my testimony we submit our raw 
material purchase program to third party scrutiny to make sure that our 
environmental standards are met. Two things are of great concern for me 
though. 1) Not all companies have those standards and not all countries 
have the same high standards that Canada has. 2) Even given our 
company's high standards, our consumption of energy to get a product to 
mill when that same product exists within a few miles and exists in 
such quantity as to put a whole ecosystem at risk of unnatural and 
historically unprecedented high intensity fire seems ridiculous. The 
raw material is here in our local forests. The forests are in desperate 
need of stewardship if they are to continue being green ecosystems. We 
have the ability to remove some of this material in such a way as to 
insure and improve the future viability of these forests. We can remove 
this material in perpetuity. We have the ability to do this in a manner 
that would return money to the treasury. Why would the public want us 
to go anywhere else for our raw material needs?
    Thank you for the opportunity to answer these additional questions. 
If any of these answers need clarification, or if they in turn foster 
further inquiry please do not hesitate to ask, as I would welcome the 
opportunity to continue this discussion.
                                 ______
                                 
     Responses of Linda Goodman to Questions From Senator Barrasso
    Question 1a. In your written testimony you wrote: ``Management 
Implications--The mission of the Forest Service is to sustain the 
health, diversity, and productivity of the nation's forests and 
grasslands to meet the needs of present and future generations. The 
National Forest Management Act (NFMA) establishes the goals of 
maintaining species diversity and ecological productivity on National 
Forest System lands.''
    In reviewing the National Forest Management Act, we do not see that 
law established that goal, rather we believe you may have been 
referring to Section 1604 of the Forest and Rangeland Renewable 
Resource Planning Act that established a goal to provide for diversity 
of plant and animal communities (see below).

          16 USC Sec. 1604 FOREST AND RANGELAND RENEWABLE RESOURCES 
        PLANNING(B) provide for diversity of plant and animal 
        communities based on the suitability and capability of the 
        specific land area in order to meet overall multiple-use 
        objectives, and within the multiple-use objectives of a land 
        management plan adopted pursuant to this section, provide, 
        where appropriate, to the degree practicable, for steps to be 
        taken to preserve the diversity of tree species similar to that 
        existing in the region controlled by the plan;

    Do you agree and would you like to correct that oversight? If not 
could you please provide the language from the National Forest 
Management Act that you were referring to in your testimony.
    Answer. The National Forest Management Act (NFMA) amended the 
Forest and Rangeland Renewable Resources Planning Act of 1974 in part 
to add the provision quoted above. The Forest and Rangeland Renewable 
Resources Planning Act (RPA) of 1974, as amended by NFMA, is codified 
at 16 U.S.C. Sec. Sec.  1600 et seq. Specifically, Section 6 of NFMA 
amends section 5 of the RPA Act. Section 6 added subsections (c) 
through (m), including the diversity provision (see 90 Stat. 2952, 
2953). The proper, formal citation for the diversity provision is 
section 6(g)(3)(B) of the Forest and Rangeland Renewable Resources 
Planning Act of 1974 Act (16 U.S.C. 1604(g)(3)(B)). As you correctly 
note, we were referring to this provision in our testimony. However, 
because NFMA added the provision to the RPA Act, it is not incorrect to 
cite NFMA as the source of the diversity provision.
    We agree that it requires the agency to provide for diversity of 
plant and animal communities.
    Question 1b. The 10 year Assessment of the Pacific Northwest Forest 
Plan showed that between 7 and 8 million acres of older forests 
currently exist in Oregon and Washington. It showed that since that 
plan was implemented in 2000, the number of acres of old forests have 
increased by about 1.25 million acres. It also showed that only 17,000 
acres of these stands have been harvested which is far less than the 
230,000 acres the plan anticipated would be managed. Most importantly, 
I see that fires have impacted 102,500 acres of older forests since the 
plan was implemented.
    My question is: given the data I have quoted above, should we be 
more concerned about fire or more concerned about harvest and 
management when it comes to protecting old growth and older stands?
    Answer. Fire has a potential for much greater impact on old growth 
and older stands than harvest.
    Concern regarding the impact of fire on older stands is warranted:

  <bullet> One quarter of the Northwest Forest Plan (NWFP) older forest 
        is in dry provinces.
  <bullet> Between 1994 and 2003, about 1.3% of Late Successional Old 
        Growth burned in wildfires. The Biscuit Fire accounted for 
        about three quarters of the total.
  <bullet> More large fires have burned since the last inventory 
        (mapping) period, 1994-2002.
  <bullet> Monitoring results indicate that at least 1.7 million acres 
        of older forest was present in fire adapted ecosystems in dry 
        physiographic provinces in the NWFP area at the end of the last 
        ten-year NWFP monitoring period. A majority of this area is 
        currently in a fire condition class where at least one and 
        possibly more fire return intervals have been missed and there 
        is an excessive buildup of fuels. Stands in these conditions 
        are at elevated risk from catastrophic wildfire.

    Harvest within mature and older stands in the dry provinces is an 
important tool to maintain older stand characteristics and habitats in 
the event of fire. We now have several examples of forested areas that 
experienced fire after management treatment that survived because the 
fire burned through on the ground at lower intensity.
    Question 2. Can you help us understand the variety of definitions 
used in the forest plans in Region Six for the terms old-growth stand, 
old-growth, and old growth habitat and the variety of definitions used 
on the East-side forests versus the West-side forests?
    Answer. The variety of definitions used on East-side and West-side 
forests is primarily related to the differences in forest types which 
occur among the Forests. For example:
Malheur NF (east side)
    Mixed-conifer, old-growth stands are multistoried with large-
diameter trees commonly older than 230 years. Understory trees are 
usually shade-tolerant species like white fir, uneven in size and age, 
and range from saplings to large sawtimber. Although density and 
closure of individual canopy varies considerably, the overall closure 
is generally high (70-80 percent) because of the layered structure.
    Old-growth ponderosa stands generally have a more open, parklike 
appearance with overstory trees exceeding 250 years. Lodgepole pine 
stands are characterized by dense stands of even-aged trees with canopy 
closure exceeding 70 percent and trees generally 70 to 80 years old.
Mt. Hood NF (west side)
    Douglas fir and Pacific Silver Fir stands below 3600 feet elevation 
used PNW-Research Note 447 as the guiding document to describe 
attributes which include at least eight live trees per acre > 32 inches 
in diameter, at least four 20-inch snags per acre, a minimum number of 
large logs, and the presence of a deep multilayered canopy. The Region 
6 Interim Old Growth Definitions extended the definitions to other 
vegetation zones, each of which has different threshold values 
depending on native site productivity. For example, in the Pacific 
Silver Fir zone above 3600 feet, the diameter limit is between 22 and 
26 inches, and the minimum number of live trees depends on site class, 
ranging from 1 tree per acre for site class 6 to 6 trees per acre for 
site classes 2&3. Likewise, snag and log density thresholds vary by 
site class.
References
    Old-Growth Definition Task Force. 1986. Interim definitions for 
old-growth Douglas-fir and mixed-conifer forests in the Pacific 
Northwest. PNW Research Note RN-447.

    USDA FS Pacific Northwest Region. June 1993. Region 6 Interim Old 
Growth Definitions.

    http://www.reo.gov/ecoshare/Publications/documents/
FirsWesternHemlockSeries.pdf
                          follow-up questions
    Question 2a. With the release of Region 6 Interim Old Growth 
Definition all forests reviewed their definitions for old growth in 
their plans and adjusted accordingly.
    In your mind is it realistic to develop one definition for old-
growth, or old-growth stands and attempt to apply that definition to 
all forest or portions of forests in the States of Oregon and 
Washington?
    Answer. It is not realistic to develop one definition to encompass 
all old growth forest types in the Pacific Northwest Region. The result 
would be a definition so generic that it would have little site 
specific, practical applicability. Old growth definitions should be 
fine-tuned to the patterns and dynamics of the forest landscape mosaic 
of an area. Many scientists believe that multiple definitions of old 
growth are needed to encompass the diversity of forest types within the 
Pacific Northwest.
    Example: Old growth forests east of the Cascades and in the Klamath 
Province of southern Oregon historically ranged from open, patchy 
stands, maintained by frequent low-severity fire, to a mosaic of dense 
and open stands maintained by mixed severity fire at variable 
frequency. In these areas, old growth structure and composition were 
spatially diverse and were shaped by a complex disturbance regime of 
fire, insects, and disease. This is very different from old growth 
forests on the west side where forests are characterized by the 
presence of large (> 32-inch diameter) or old (> 200 years) Douglas-fir 
trees per acre, one or more shade-tolerant associates such as western 
hemlock, high amounts of large snags and logs, and complex canopy 
layering.
    Question 3. I know that this hearing is focused on old-growth in 
the Pacific Northwest, but I also know when forest policy gets 
developed for the Pacific Northwest it has the tendency to strongly 
influence other parts of the country. I had my staff look at the terms 
old-growth stands, old-growth, and old-growth habitat in the National 
Forest plans in all regions of the country. As you can imagine there 
are lots of different definitions for each of the terms depending on 
which plan you examine. In some forests they didn't even bother to 
define one or more of the terms.
    Do you think it wise (given the variety of forest types and 
specific conditions on forests across the country) to even attempt to 
come up with a one-size-fits-all definition of any of the terms I have 
been asking you about today; or would we be better off to allow these 
terms to continue to be defined through the forest planning process and 
tailored to local conditions?
    Answer. A one-size-fits-all definition, at the scale of the Pacific 
Northwest region, is not useful. It is much more appropriate to define 
attributes through the forest planning process and tailor them to the 
stand types and local conditions of each forest.
    Question 4. Are you familiar with the moratorium on harvesting in 
the Giant Sequoia stands in California?
    Answer. Yes, we are familiar with the 1992 Presidential 
Proclamation, subsequent language in appropriations bills, and a 
judge's ruling in October 2006 regarding harvesting in giant sequoia 
groves.
    Question 5. If so, at what risk are we putting those stands when we 
can't harvest some of the large White-fir than now provides potential 
fuel ladders that could put the Giant Sequoia at risk if there are 
fires in those groves?
    Answer. Protection of the giant sequoia groves from ``wildfires of 
a severity that was rarely encountered in pre-Euroamerican times'' is 
identified in the Presidential Proclamation that formed the Giant 
Sequoia National Monument in California. The Proclamation also states, 
``Outstanding opportunities exist for studying the consequences of 
different approaches to mitigating these conditions and restoring 
natural forest resilience.'' It is difficult to determine the risk to 
these stands ``when we can't harvest some of the large White-fir.'' The 
degree to which risk could be reduced by harvesting some large white-
fir would need to be compared to other options, including thinning 
smaller trees and/or reducing surface fuels by mechanical means or by 
prescribed burning.
    Question 6. Dr. Perry suggested a good mix of management for old 
growth protection would be 30% old-growth reserves: 30% in mature 
forest (recruitment areas for old-growth); and 30% in production forest 
plantations to be managed. The most recent data we have on land 
allocations in the Pacific Northwest Forest Plan is 24.5 million acres. 
Of that approximately 66% of the land is in old-growth and mature 
forest reserves; approximately 4.2 million acres (17%) in Adaptive 
Management Areas and Riparian Reserves where harvesting is 
significantly restricted and about 4 million acres (16%) in the Matrix 
Lands but estimates are that about only 3 million of that is really 
been open to management.
    Given Dr. Perry's recommendation what would Congress have to do 
increase the matrix lands up to the 7.35 million acres he is calling 
for?
    Answer. It is difficult to tell from Dr. Perry's testimony whether 
he was actually recommending 7.35 million acres in matrix lands. We 
have tried to lay out more clearly the acres meeting the older stand 
definition used within the NWFP, within matrix/Adaptive Management 
Areas and Reserves of all kinds.
    Using the 10 Year Monitoring Report for the NWFP, the following 
information may be helpful:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Land allocation in the NWFP
    There are approximately 23.3 million acres of forest-capable area 
in the NWFP

  <bullet> 18.6 million acres (80% of forest-capable area) allocated to 
        Reserves of all types (Administratively Withdrawn, 
        Congressionally Reserved, Late Successional Reserves, Riparian 
        Reserves)
  <bullet> 4.7 million acres (20% of forest-capable area) allocated to 
        Matrix or AMA
Distribution by size class in 1996
    In 1996 there were 7.9 million acres (34% of NWFP) of forest 20''+ 
(meeting the older forest definition)

  <bullet> 6.5 million acres in Reserves (35% of Reserves)
  <bullet> 1.4 million acres in Matrix/AMA (30% of Matrix/AMA)

    In 1996 there were 6.1 million acres (26% of NWFP) of forest 10-
20'' (``recruitment areas'')

  <bullet> 4.8 million acres in Reserves (26% of Reserves)
  <bullet> 1.3 million acres in Matrix/AMA (28% of Matrix/AMA)

    In 1996 there were 9.3 million acres (40% of NWFP) of forest 0-10'' 
(``plantations'')

  <bullet> 7.3 million acres in Reserves (39% of Reserves)
  <bullet> 2.0 million acres in Matrix/AMA (43% of Matrix/AMA)
Expected ingrowth
    Based on rates reported in the NWFP 10-year report, older forest is 
increasing at a rate of about 19% per decade. Between 1996 and 2006,

  <bullet> In Reserves, older forest increased about 1.5 million acres
  <bullet> In Matrix/Riparian Reserves, older forest increased about 
        260,000 acres
  <bullet> Most recruitment occurs from the 10-20'' class into the 
        20''+ class (older forest)

    Question 7. Several of the witnesses' testimony on carbon 
sequestration seemed to differ.
    What is the Pacific Northwest Research Stations assessment of both 
Dr. Perry's and Ms. Spivak's testimony related to how much carbon is 
stored in wood products once a forest has been harvested, as well as on 
the relative ability of old growth forests to capture and store carbon 
compared to younger forests?
    Answer. Finished forest products in the PNW contain about 20-35% of 
the carbon that was in the stand; Old forests may be either sinks or 
sources of carbon, depending on the year; Carbon storage is only one of 
myriad functions of forests on the landscape.
    Wood is approximately 50% carbon, but only parts of the above-
ground portion of trees, and none of the root systems or associated 
soil carbon end up in most wood products. In 125 year-old rapidly 
growing Douglas-fir, about 70% of stand carbon is in the live tree.\1\ 
Based on studies of old Douglas-fir at the Wind River Experimental 
Forest,\2\ about 40% of stand carbon is in heartwood and sapwood. Given 
these numbers, it is likely that finished forest products from the 
Pacific Northwest contain somewhere between 20 and 35 percent of the 
total carbon in the harvested forest stand, including associated soils. 
Other parts of trees (e.g. bark, branches and tops) may offset 
emissions of fossil carbon if they are used, for example, to generate 
energy that displaces energy produced by oil, natural gas, or coal.
---------------------------------------------------------------------------
    \1\ Smith, J. E., L. S. Heath, K. E. Skog, and R. A. Birdsey. 2006. 
Methods for calculating forest ecosystem and harvested carbon with 
standard estimates for forest types of the United States. Gen. Tech. 
Rep. NE-343. Newtown Square, PA: U.S. Department of Agriculture, Forest 
Service, Northeastern Research Station. 216 p.
    \2\ Harmon, M. E., K. Bible, M. G. Ryan, D. C. Shaw, H. Chen, J. 
Klopatek, and X. Li. 2004. Production, respiration, and overall carbon 
balance in an old-growth Pseudotsuga-Tsuga forest ecosystem. Ecosystems 
7: 498-512
---------------------------------------------------------------------------
    When a forest stand, regardless of age, is harvested, a large 
amount of carbon is released through decomposition of roots, branches, 
and needles and through disturbance of the soil. How much depends on 
the type of harvest, the amount of soil disturbance, and post-harvest 
management. Some of that carbon will be fixed again in the short-term, 
but much of it will reside in the atmosphere until existing vegetation 
and newly establishing stands can once again fix it.
    Old forests store very large amounts of carbon, however, they are 
about carbon neutral\3\  \4\ over time--that is, the rate at which 
carbon is taken up and removed from the atmosphere by photosynthesis is 
mostly offset by the rate at which carbon is released to the atmosphere 
through respiration and decomposition. In some years it appears that 
old forests in the Pacific Northwest are carbon sinks, and in some 
years, carbon sources;\5\ mostly, old forests store carbon fixed over 
the life of the stand. That carbon will eventually be released to the 
atmosphere when old trees die and decompose or when the stand is 
replaced through natural disturbance such as fire.
---------------------------------------------------------------------------
    \3\ Field, C.B. and J. Kaduk. 2004. The Carbon Balance of an Old-
growth Forest: Building across approaches. Ecosystems 7: 525-533
    \4\ Harmon, M. E., K. Bible, M. G. Ryan, D. C. Shaw, H. Chen, J. 
Klopatek, and X. Li. 2004. Production, respiration, and overall carbon 
balance in an old-growth Pseudotsuga-Tsuga forest ecosystem. Ecosystems 
7: 498-512
    \5\ Ibid
---------------------------------------------------------------------------
    Younger, rapidly growing forests take up more carbon from the 
atmosphere than do old forests: Depending on the year, a 40-year-old 
Douglas-fir stand took up 2 to 7 times the amount of carbon compared to 
a 450 year old stand on an area basis,\6\ but younger stands have not 
yet developed the massive carbon storage in large boles, snags, and 
downed logs that is present in old forest.
---------------------------------------------------------------------------
    \6\ Chen, J., K. U, S. L. Ustin, T. H. Suchanek, B. J. Bond, K. D. 
Brosofske, and M. Falk. 2004. Net ecosystem exchanges of carbon, water, 
and energy in young and old-growth Douglas-fir forests. Ecosystems 7: 
534-544
---------------------------------------------------------------------------
    Carbon uptake and storage is only one of myriad functions of 
forests on the landscape. A distribution of forest ages is necessary to 
assure multiple ecosystem functions such as water management, wildlife 
habitat, and biodiversity.
                                 ______
                                 
      Responses of Marvin Brown to Questions From Senator Barrasso
    Question 1. How many acres of state forests do you manage in trust 
for counties and schools?
    Answer. 781,615 acres.
    Question 2. Do you manage to provide old growth values on State 
trust lands?
    Answer. Yes.
    Question 3. How many acres of state trust lands are virgin or old 
growth forest?
    Answer. To my knowledge there are no significant acres that have 
not been either harvested, or wholly regenerated after a modern-day 
fire. There will be scattered acreages of 100 year old, plus, trees, 
but I would not equate these with the virgin stands that once existed 
in these parts of the State. We manage our lands under a long term plan 
that seeks to have 25% of the land provide ``older forest structure'' 
over time, but the actual location of the structure is expected to 
shift around on the landscape.
    Question 4. How much of that is permanently preserved?
    Answer. Timber harvest is not categorically forbidden on any of 
these acres. Perhaps 20% of the acres are located such that harvest is 
unlikely, as they may be inoperable land, a riparian zone, along a 
scenic corridor or intensive recreation area, etc.
    Question 5. What percentage of Oregon's state forests that you 
administer do you manage either intensively or extensively resulting in 
harvests for wood products?
    Answer. Nearly all, but the 20% referenced above would probably 
only experience a harvest if there were a defined need related to 
forest health, critical wildlife habitat or human safety.
    Question 6a. I assume the public also visits Oregon state forests 
for recreation, solitude, etc. and that these needs are met in 
conjunction with other needs, such as timber management and older 
forest values. Is this correct?
    Answer. Yes.
    Question 6b. So you can manage for both recreation, wildlife and 
fishery values while also managing for timber production and older 
forest values?
    Answer. Yes.
    Question 7. Do some of the classic ``old growth dependent'' species 
that have driven much of land management in the PNW also reside on 
state lands under your management? How are they doing?
    Answer. Yes. Northern Spotted Owls are experiencing declines 
similar to that found on federal lands. Marble Murrellets appear to be 
holding fine.
                                 ______
                                 
        Response of Randi Spivak to Question From Senator Wyden
    1. Ms. Spivak, there were a number of statements made at the 
hearing regarding the carbon sequestration abilities of old growth 
forests, whether or not and how much carbon is emitted in logging and 
wildfires and how much carbon would ultimately be sequestered in a wood 
product. What is your understanding of the science on these issues?
    Answer.
            Old-Growth Forests Remain Effective Carbon Sinks
    Senator Craig said that, ``An old-growth tree is quite simply a 
tree that has matured and is starting to die. It might take 200 years 
for it to get there, but it is no longer the robust, active growing 
tree that it once was in its youth.'' He went on to state that he is 
``very anxious to look at the science that says old growth does more 
than we thought it did, because I started looking at the science about 
15 years ago, when we believed that young and active forests and their 
growth cycles sequestered a great deal more than older trees, and trees 
that had peaked and were if you will, just sustaining themselves.'' 
Similarly, Senator Smith said, ``It's my understanding, that as we talk 
about global climate change and the ability of a tree to sequester 
carbon, that, and please tell me if I'm wrong, any of you, but I'm 
addressing this to Randi initially, that younger trees are much better 
at attractors of turning carbon into wood, and that as they die, they 
begin to emit carbon, is that, am I incorrect in that understanding.''
    As Dr. David Perry mentioned during the hearing, the conventional 
wisdom that old-growth forests emit carbon and are no longer carbon 
sinks is a claim that is contradicted by recent research. For purposes 
of clarification, the term carbon sink refers to a carbon dioxide 
reservoir (e.g. forests, oceans) that is increasing in size, which is 
the opposite of a carbon dioxide source. In the case of forests, a 
forest is a carbon sink when it sequesters more carbon than it emits 
through respiration. Forests withdraw carbon from the atmosphere and 
incorporate it into biomass through photosynthesis as well as into 
their soils, and release carbon to the atmosphere through both plant 
and microbial respiration.
    The following studies demonstrate how mature and old-growth forests 
remain effective carbon sinks in forest ecosystems around the world, 
including the Pacific Northwest, where the most rigorous studies have 
been done: Douglas-fir-western hemlock, Washington (Janisch and Harmon 
2002; Harmon et al. 2004; Paw U et al. 2004) Oregon (Van Tuyl et al. 
2005); Douglas-fir, Pacific Northwest, westside (Mills and Zhou 2003); 
ponderosa pine, central Oregon (Law et al. 2000; Law et al. 2001; Law 
et al. 2003); whitebark pine-subalpine fir, northern Rocky Mountains 
(Carey et al. 2001); spruce, central British Columbia (Fredeen et. 
2005); spruce-hemlock-fir, aspen-birch, hardwood, Maine (Hollinger et 
al. 1999); northern hardwoods-conifer, New York (Keeton et al. 2007); 
hemlock-hardwood, upper Midwest (Desai etl al. 2005); eastern hemlock, 
Massachusetts (Hadley and Schedlbauer 2002); beech, central Germany 
(Knohl et al. 2003); Scots pine, Siberia (Wirth et al. 2002); Dahurian 
larch, Siberia (Schulze et al. 1999); multiple forests of various 
European countries (Valentini et al. 2000); and multiple forest types, 
worldwide (Lugo and Brown 1986; Buchmann and Schulze 1999; Law et al. 
2002; Pregitzer and Euskirchen 2004).
    The main reason that older forests remain effective carbon sinks is 
that they have much lower rates of respiration than younger forests. 
Additionally, old-growth forests, which store more carbon in the forest 
floor than younger forests, also release carbon from soil and litter at 
a slower pace than younger forests. The exhaustive Pregitzer and 
Euskirchen study (2004) showed that one of the reasons that older 
forests are effective carbon sinks is because their heterotrophic 
respiration, which is the sum of respiration from the litter (course 
woody debris) and soil carbon pools, levels are lower than younger 
forests. Specifically, they found that the rates of heterotrophic soil 
respiration for temperate forests (similar to those of Western Pacific 
Northwest) range from 9.7MgC ha<SUP>-1</SUP> yr<SUP>-1</SUP> in younger 
forests to 2.8MgC ha<SUP>-1</SUP> yr<SUP>-1</SUP> in older forests--a 
decrease of roughly 346%. When you consider that ``fluxes from soil are 
clearly the largest source of ecosystem respiration,'' for instance 
accounting for roughly 70% of total ecosystem respiration in a 
ponderosa pine forest in central Oregon (Law et al. 1999), it is clear 
that soil respiration can dictate whether or not a forest is a net sink 
or a net source of carbon to the atmosphere. For example, on the dry 
eastern face of the Cascades, where trees grow slowly, replanted clear-
cuts give off more CO2 than they absorb for as much as 20 years (Law et 
al. 2001).
    In addition to storing more aboveground carbon in trees and other 
vegetation, older forests also store more carbon in the forest floor 
than younger forests do. Pregitzer and Euskirchen (2004) found that 
mean and median organic soil horizon (forest floor) pool sizes 
increased with age in all major forest types--boreal, temperate and 
tropical forests, reaching a peak in the 71 to 120 or older age 
classes. This finding was echoed by Zhou et al.'s (2006) study that 
found that carbon stored in the top 20 centimeters of soil of an 
undisturbed old-growth forest in China increased 68% from 1979 to 2003.
    Depending on the species of tree and the climate it is in, an old-
growth tree is not necessarily ``starting to die'' as Senator Craig put 
it. Trees in the Pacific Northwest continue to grow for centuries, and 
if left undisturbed, will often live to be well over 500 years old and 
sometimes live in excess of 1,000 years. Second, there is no scientific 
basis for Senator Craig's statement that ``young and active forests and 
their growth cycles sequestered a great deal more than older trees.'' 
Senator Craig appears to be confusing the term ``carbon sequestration'' 
with the term ``carbon sink.'' In terms of carbon sequestration, the 
amount of carbon sequestered in a forest is mostly a product of how 
much biomass is in the forest, and how long the forest has been 
undisturbed.
    Regarding younger forests ability to be effective carbon sinks, it 
is important to distinguish between trees and forests. The key variable 
is not the rate of sequestration by a single tree, but the total amount 
of carbon stored by a forest. In all of the component pools within a 
forest (e.g. live trees, standing dead and down, soil, litter) growth 
of individual trees slows as they grow older, but when all pools of 
carbon stored in the forest are considered, carbon storage continues to 
increase in old forests. Pregitzer and Euskirchen's 2004 exhaustive 
study of carbon cycling and storage in forest ecosystems around the 
world, which utilized a database of approximately 1200 entries, taken 
from 120 references, found that ``living biomass carbon increased 
through time, peaking in the 71-120-year age class in boreal forests, 
but increasing steadily with age in temperate and tropical forests. The 
older age classes contained two to 10 times as much living biomass 
carbon as the youngest age class.''
                   Forest Fires and Carbon Emissions
    Senator Craig also cited the amount of carbon released from forest 
fires, ``This is a guesstimation, but a reasonable guesstimation, based 
on some pretty good minds. It was equivalent to taking 12 million 
passenger cars off the road. If that carbon had not been released, but 
had been retained inside the log, inside the tree, inside the 
grassland. Uh, now how do we compare that, well that's like taking 
nearly all of the passenger cars off the roads of, off the highways of 
California.''
    Senator Craig is correct that forest fires emit carbon dioxide to 
the atmosphere. However, it is misleading to look at a single event in 
time at a single point on the landscape and draw conclusions relating 
to the carbon consequences. A few points should be considered. First, 
the carbon dioxide released in a forest fire is carbon that has been 
cycling back and forth between forests and the atmosphere for 
millennia. Fire or decay releases carbon to the atmosphere, and 
regrowth ties it back down. Burning fossil fuels, by comparison, takes 
carbon out of geological deposits and adds this paleo, non-cycling 
carbon to the atmosphere, thereby causing a net increase in total 
ecosystem carbon.
    ``Natural forest disturbances, including fire, kill trees but 
remove very little of the total organic matter. Combustion rarely 
consumes more than 10 to 15 percent of the organic matter, even in 
stand-replacing fires, and often much less. Consequently much of the 
forest remains in live trees, standing dead trees, and logs on the 
ground.'' (Franklin Agee 2003).
    Live trees will continue to store carbon and dead trees will decay 
and slowly release carbon dioxide for tens of years. Regrowth after 
fires fixes carbon from the atmosphere reversing the emissions caused 
by fire over time. About 5-10 percent of the biomass consumed by 
wildfire is converted to charcoal, a uniquely stable form of carbon, 
which, if mixed into mineral soil or washed into water bodies, may 
remain there for thousands of years. (DeLuca and Aplet 2008)
                 Carbon Emissions: Logging vs. Wildfire
    News stories in late 2007 highlighted findings that burning 
vegetation (including agricultural burning, prescribed fires and 
wildfires in both forest and non-forest vegetation) in the United 
States during 2002-2006 released carbon dioxide equivalent to 4-6 
percent of all human-caused emissions, nationally (Wiedinmyer and Neff 
2007). But when emissions associated with logging and processing of 
wood products (see calculations below) are compared with emissions from 
forest fires as reported by a 2007 EPA report (Smith and Heath 2007), 
emissions from logging are more than twice as much as wildfires. 
Estimates at smaller scales, for instance the state of Oregon, (Law et 
al. 2004; Turner et al. 2007) or Shasta County, California (Pearson et 
al. 2006) also indicate that annual emissions from logging and wood 
products production typically exceed those from fire.
           Calculation of Carbon Emissions from Forest Fires
    Wiedinmyer and Neff (2007) estimate average annual U.S. emissions 
from fire (all vegetation fire: agricultural burning, prescribed fire, 
wildland fire in forests, grasslands, chaparral and shrub-steppe) for 
2002-2006 to be 293 Tg of CO2, which, multiplied by .2727 (because only 
.2727 of the mass of CO2 is from carbon) is equivalent to 79.9 Tg of 
carbon.
    Smith and Heath (Smith and Heath 2007) provide estimates of CO2 
emissions from fire in U.S forests, which average to 25.5 Tg of carbon 
for 2001-2005 as shown in Table 7-12 below. They also provide estimates 
of emissions of methane and nitrous oxide (also greenhouse gases) for 
2005, which, when converted to equivalents of carbon, would bring the 
total to 29 Tg of carbon and carbon equivalents. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Calculation of Carbon Emissions from Timber Harvest
    The calculation starts with 191,629 thousand metric tons, the mean 
annual dry weight of roundwood (logs) removed from U.S. forests (Howard 
2007) between 2001 and 2005. This figure needs to be adjusted to 
reflect the fact that more biomass is harvested in the forest than is 
removed as logs. Birdsey (1996, Table 1.8) provides figures for the 
ratio of total harvest to harvest removed for both hardwoods and 
softwoods, for different regions in the U.S. Averaging across hardwoods 
and softwoods and across regions yields an average ratio of 1.525, 
which yields a total harvest of 292,234 thousand metric tons of wood. 
Since this biomass is approximately 50% carbon, dividing by 2 yields 
146,117 thousand metric tons of carbon. Multiplying this figure by 58% 
[the mid-point of the one-half to two-thirds estimate of total 
harvested biomass that is released at or near the time of harvest (EPA 
2005)] yields 84,748 thousand metric tons, or 85 Tg of carbon emitted 
annually as a result of timber harvest and processing, not including 
emissions from forest products or fossil fuel emissions associated with 
harvest.
    Wayburn et al. (2000) explains that, ``on average, forest fires 
release roughly 10-20% of the carbon that harvest does in an old-growth 
stand and 5-10% of that in a second-growth stand'' as shown in the 
graph* below.
---------------------------------------------------------------------------
    * Graph has been retained in subcommittee files.
---------------------------------------------------------------------------
    The below table (Table 4) from the Turner et al. study (2007) shows 
the disparity between the amount of carbon released to the atmosphere 
because of harvest and the amount of carbon released to the atmosphere 
because of wildfire in the entire state of Oregon. The ratio of 
emissions from harvest to emissions from fire is roughly 30 to 1. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Responses of Randi Spivak to Questions From Senator Barrasso
    Question 2. Are you concerned with the fact that 5 times as many 
acres of old growth has burned as have been harvested?
    Answer. American Lands is extremely concerned that mature and old-
growth forests continue to be logged. The Western Oregon Plan Revision 
that proposes to increase old-growth logging by over 700% is a case in 
point. Logging mature and old-growth forests causes significant harm to 
forest ecosystems and the life support services that humans and 
wildlife depend upon from these forests. Logging mature and old growth 
also releases substantial amounts of carbon and can make forests more 
prone to uncharacteristic wildfires. Further, tree plantations tend to 
burn very hot. According to research from the Klamath Siskiyou region 
in Northern California, tree plantations experienced twice as much 
severe fire as multi-age forests (Odion et al. 2004).
    Regarding wildfire, I would like to make the following points:

          1. Natural disturbances, especially wildfires are essential 
        ecological processes by which forests regulate and renew 
        themselves, especially western forests. It is impossible, and 
        not ecologically desirable to manage fire out of forests that 
        have evolved with fire, including characteristic stand 
        replacing fires, as natural starts will always occur. Wildfires 
        reset the ecological clock for forests, watersheds and aquatic 
        systems.
          2. Past and current management on public forests has in some, 
        but not all cases, severely altered forest structure, 
        biodiversity, natural fire regimes and related ecosystem 
        processes. More recently, climate change and drought have 
        caused fire seasons to be longer, and fires in some areas to 
        burn hotter than during historic conditions. In these 
        instances, where there is a risk of uncharacteristic 
        wildfire,\1\ American Lands supports management practices--
        mechanical thinning, prescribed fire and wildland fire use--
        that can restore ecological integrity and resilience to forests 
        and reduce unnatural fuel loads that can contribute to 
        uncharacteristic wildfires.
---------------------------------------------------------------------------
    \1\ Fire events of a severity that is well outside the historic 
range of variability based on site-specific vegetation reconstructions 
of stand age structure and fire history or early historic records. 
Adapted from Noss et al. (2006).
---------------------------------------------------------------------------
          3. Restoration needs of forests differ depending on the 
        characteristic fire regime, Plant Association Group (PAG), and 
        degree of ecosystem degradation from past and current 
        management. Reintroduction of fire is the most effective method 
        to restore ecosystem processes and resilience and maintain 
        appropriate fuel levels. If it is determined that prescribed 
        fire alone is not appropriate because fuel loads are 
        unnaturally high, then thinning should be done as a pre-
        requisite to prescribed fire where soil health can be 
        maintained. Prescribed fire should be used following thinning 
        to burn highly flammable slash and brush that can actually 
        increase fire risk and cause subsequent fires to burn 
        uncharacteristically severe if left untreated. American Lands 
        supports variable density thinning in young managed stands and 
        thinning certain dry forest types where fire suppression and 
        grazing has significantly altered natural fire regimes. 
        Thinning should focus on removing small diameter material and 
        ladder fuels.

    Question 3. From a silvicultural standpoint, do you think that the 
kinds of large and severe wildfire we've seen in recent years are more 
beneficial to advancing old growth forest than allowing thinning and 
harvesting activities to take place?
    Answer. As noted above, American Lands supports management 
activities that can reduce inappropriate fuel loads and facilitate the 
onset of late-successional characteristics in certain forests. Attached 
for the record is a document, Management Principles for Protecting and 
Restoring Old Growth Habitat Washington, Oregon, and Northwestern 
California National Forests and Bureau of Land Management Holdings, 
spearheaded by American Lands that sets forth management principles 
supported by our organization.
    It is important to stress, however, that tradeoffs should not be 
made that may reduce the risk of uncharacteristic fire but cause harm 
to other important long-term aspects of the forest that are vital to 
its health, most especially soils. Soils are the foundation of healthy 
productive forests now and in the future.
    Specifically, thinning must not increase fire hazard by either 
leaving flammable logging slash and branches on the ground or by 
opening up stands so widely that the ground is exposed to drying 
sunlight. Increased sunlight results in rapid growth of plants, which 
act as ladder fuels for fire and increased winds resulting in increased 
fire severity. In order to reduce the risk of opening forest canopies 
too much, thinning needs to concentrate on smaller diameter material 
such as ladder fuels and surface fuels. Additionally, many wildlife 
species require large blocks of dense forest cover therefore canopy 
closure needs to be maintained.
    Thinning is a not a panacea. There are two situations in 
particular, where thinning is not likely to decrease fire severity: (1) 
where fire behavior is determined more by local weather such as high 
winds, hot temperatures and climate conditions rather than fuels, which 
may be increasingly the case with climate change; (2) where fire 
behavior is governed more by steep terrain and access is limited.
    Question 4. If fires continue to consume 9 or 10 million acres per 
year or even at a faster rate, how does that advance the protection of 
the wildlife, watershed and other resource values your organization 
advocates for?
    Answer. Short of clearing all trees from the landscape, logging 
will not stop fires nor will logging avert the causes or impacts of 
climate change. Forests have burned and will continue to burn. 
Ecological restoration of certain forests, including restoration 
thinning in previously managed forests combined with prescribed fire 
will move forests towards a more natural and fire tolerant state. 
Aggressive clearing of timber and biomass around homes in communities 
immediately adjacent to forest landscapes also will help protect 
investments and lives.
    Currently, the Forest Service actively suppresses more than 85 
percent of fires. Fires in natural, wild landscapes far from 
communities should be allowed to burn for the forest's long-term 
health. This will save taxpayer money and allow forests to adjust to a 
warming, more fire-prone climate.
    Question 5. Let's say we come to an agreement on a definition or 
set of definitions for old growth and we then draw a line around the 
existing old growth, and that old growth gets blown down or burned up.
    How should the Forest Service and the BLM handle that kind of 
situation?
    Answer. Naturally recovering forests following disturbance events 
are some of the rarest forms across the landscape. These areas need to 
be allowed to recover on their own. Although people see wildland fires, 
wind and ice storms, and insect outbreaks as ``catastrophes'' affecting 
federal and nonfederal lands, over time, such events have in fact both 
created and helped sustain the character of many regional ecosystems.
    Question 6. Should salvage harvesting be allowed or should they 
just walk away from the away and allow the material to rot?
    Answer. As one prominent forest ecologist has put it, ``Timber 
salvage is most appropriately viewed as a `tax' on ecological 
recovery.''
    In answer to this question, the following summarizes testimony of 
Dr. James Karr, noted ecologist and professor emeritus at the 
University of Washington before the Senate Agriculture Subcommittee on 
Rural Revitalization, Conservation, Forest and Credit on August 2, 
2006.

          The first point that I would like to make is that logging 
        after natural disturbances is not an ecosystem restoration 
        tool. Such logging damages forest landscapes by limiting 
        populations of species crucial to the maintenance of these 
        landscapes and by impeding the natural processes that have long 
        sustained these ecosystems. A substantial body of evidence 
        (some dating from the early twentieth century) demonstrates 
        that post disturbance logging impairs the ability of forest 
        ecosystems to recover from natural disturbances (Frothingham 
        1924; Isaac and Meagher 1938; Beschta et al. 1995, 2004; McIver 
        and Starr 2001; Karr et al. 2004; Lindenmayer et al. 2004; 
        DellaSala et al. 2006; Donato et al. 2006; Foster and Orwig 
        2006; Hutto 2006; Lindenmayer and Noss 2006; Lindemayeer and 
        Ough 2006; Reeves et al. 2006; Schmiegelow et al. 2006).
          Specifically, post disturbance logging prevents or slows 
        natural recovery by slowing the establishment of plant and 
        animal populations and degrading streams. Logging after natural 
        disturbances damages terrestrial and aquatic systems, plant and 
        animal communities, sensitive areas, and crucial regional 
        resources such as soils. For example, the dramatic physical 
        changes in forest structure resulting from hurricanes and 
        insect infestations in New England do not disrupt 
        biogeochemical cycles or degrade water quality, but post 
        disturbance logging increases nitrogen loss and does degrade 
        water quality (Foster and Orwig 2006). Post disturbance logging 
        also threatens species listed under the Endangered Species Act 
        and places more species at risk, making future listings a near 
        certainty.
          Damage from post disturbance logging may consist of direct 
        effects from logging, such as increased mortality of tree and 
        other seedlings, damage to soils, or destruction of key 
        biological legacies (that is, intact understory vegetation, 
        snags and logs, patches of undisturbed or partially disturbed 
        forest; Lindenmayer and Noss 2006). Equally important are the 
        indirect effects of activities associated with logging, such as 
        more traffic on existing roads, development of new roads, 
        spread of invasive species, further loss of biological 
        legacies, and damaged soils as a result of burning of slash 
        (the leaves, twigs, branches, and other organic material left 
        after logging).
          These observations are not mere points in an abstract 
        scientific debate; they constitute an accumulation of on-the-
        ground evidence that logging after disturbances harms rather 
        than helps the regeneration of forests. As one prominent forest 
        ecologist has put it, ``Timber salvage is most appropriately 
        viewed as a `tax' on ecological recovery.''
          The second point I wish to make is that recommendations exist 
        for how to avoid damage from post disturbance treatments and 
        how to speed recovery of both terrestrial and aquatic systems 
        (Karr et al. 2004; Foster and Orwig 2006; Lindenmayer and Noss 
        2006; Reeves et al. 2006):

                  <bullet> Protect and restore watersheds before 
                disturbance occurs, because healthy ecosystems 
                sustained by natural processes are more resilient to 
                natural disturbances. Such protection is far less 
                expensive than post disturbance rehabilitation, which 
                often brings new rounds of damage.
                  <bullet> Allow natural recovery to occur on its own, 
                or intervene only in ways that promote natural 
                recovery. For example, ensure that unburned and 
                partially burned patches within the perimeter of a 
                disturbed area are exempt from logging or subject only 
                to low-intensity harvesting that leaves high levels of 
                biological material behind.
                  <bullet> Retain old or large trees and other 
                biological material because they provide habitat for 
                many species, reduce soil erosion, aid soil formation, 
                maintain desirable microclimates, and nourish streams.
                  <bullet> Protect soils because soils and soil 
                productivity are irreplaceable on human time scales.
                  <bullet> Protect ecologically sensitive areas such as 
                streamside, or riparian, corridors; roadless areas; and 
                steep slopes because of their importance in maintaining 
                local and regional biodiversity and protection of water 
                quality and because physical and biological instability 
                in these places often has repercussions that spread 
                across landscapes. For example, after a disturbance, 
                riparian areas should receive the same protection they 
                received before the disturbance.
                  <bullet> Avoid creating new roads and landing zones 
                (for logging by helicopter) in the disturbed landscape 
                because they damage soils, help spread noxious weeds or 
                pests, and alter ground and surface water relationships 
                across the affected landscape; indeed, postdisturbance 
                logging may affect a larger area or have a greater 
                impact on forests than the disturbance itself 
                (Frothingham 1924 and others cited by Foster and Orwig 
                2006).
                  <bullet> Limit reseeding and replanting, especially 
                with nonnative species, which can impede native plant 
                regeneration, or even with varieties of native species 
                that may not be appropriate for local ecosystems.
                  <bullet> Do not place structures such as weirs, 
                riprap, or artificially placed large wood in streams 
                because their ecological benefits rarely outweigh the 
                physical damage or expense of installing and 
                maintaining them.
                  <bullet> Continue research, monitoring, and 
                assessment that will improve our knowledge of post 
                disturbance ecosystems, but do this in ways that do not 
                ignore or distort established principles of forest and 
                river ecology.
                  <bullet> Educate the public so that they recognize 
                that fires, storms, or insects on landscapes are not 
                always catastrophes but crucial components in the 
                evolution and maintenance of ecosystems.

          More than 500 scientists--from diverse disciplines, 
        institutions, and geographic areas--have to date acknowledged 
        the ecological merits of the recommendations I have outlined 
        here, including the recommendations' broader applicability in 
        ecosystems other than national forests and affected by 
        disturbances other than fire.

    The letter referred to by Dr. Karr is attached for the record.
    Finally, I would like to clarify that what may be commonly regarded 
as rotting wood and therefore seen as a waste of timber, is actually 
one of nature's most important processes whereby organic matter 
decomposes from the action of bacteria or fungi. Decomposing wood and 
associated litter plays a vital role in returning nutrients to the 
forest floor, provides an energy base for the detritus food web, and 
contributes to the formation of soils.
    Question 7. What if the fire was not started naturally or did not 
originate in the old growth stand?
    Answer. From an ecological perspective, the origin of a fire does 
not change the fact that post-disturbance logging is damaging.
    Question 8. Have you surveyed the membership of the American Forest 
Alliance to understand what their collective annual use of wood is?
    Answer. First, the name of our organization is American Lands 
Alliance. Given our focus on forests, I could see how our name can be 
easily confused. Regarding surveying our membership for their 
collective wood use, no we have not done that. We are not against wood 
use. We are opposed to damaging logging practices that harm water 
quality, destroy wildlife habitat, degrade recreational opportunities, 
especially on public lands.
    Question 9. Has your organization considered asking your members to 
reduce their use of forest product to help facilitate the protection of 
our federal forests by reducing the overall demand for forest products 
in this country? If not, why not?
    Answer. We engage our membership in protection and restoration 
efforts on publicly owned forests and watersheds. But I think that is a 
great idea and will send out an alert to our network with your 
suggestion. Thank you.
    I'm glad that you brought up the important point of reducing demand 
for forest products. I think you may find the following information on 
materials such as engineered wood that provide effective substitutes 
for old-growth wood very informative. May I suggest that you pass this 
onto Paul Beck at Herbert Lumber? These approaches could provide 
Herbert Lumber with a more viable business model than their current one 
that relies almost exclusively on logging the last of the remaining 
mature and old-growth forests. (Livingston 2004; 2006)
    The United Nations' ECE/FAO Forest Products Annual Market Review in 
2000 stated that manufacture and use of the world's Engineered Wood 
Products (EWPs) is expanding globally. with much of the impetus coming 
from the global need for efficient construction techniques, growing 
environmental concerns, and the universal requirement for affordable 
shelter.
    There are numerous reports and sources, including from the U.S. 
Forest Service such as http://www.fpl.fs.fed.us/documnts/techline/wood-
flooring-made-from-forest-restoration-materials.pdf that discuss how 
composite wood products made from small-diameter Douglas fir are just 
as strong as products made from old-growth Douglas fir and how (Burke 
and Draper 2003).
    For example, laminated wood beams reduce large dimension lumber use 
because they are made of smaller sized lumber glued together to achieve 
longer and thicker dimensions with superior strength and can thereby 
replace large beams from old growth.
    In your testimony you suggested only 15% of the carbon is stored in 
the wood products generated from the trees harvested from federal 
lands. But Dr. Perry estimated that it could be as high as 30%. Other 
research from the forest products industry and from federal research 
papers suggests that approximately 50% of the wood in a tree is carbon.
    Question 10. Could you provide the Committee with the research 
citations to support your claim that only 15% of the carbon sequestered 
in forests is stored in the lumber from trees cut in our forests?
    Answer. First, it is true that about half of the dry weight of wood 
is carbon. However, I was not referring to what percent of the wood in 
a tree is carbon, but rather that wood products represent only a 
fraction of the carbon stored in forests and that the process of 
converting forests into wood products releases the vast majority of the 
stored carbon to the atmosphere.
    In my testimony I said that only 15% of the carbon stored in 
forests ends up stored in wood products. This small fraction of carbon 
storage results from cumulative carbon emissions at each step in the 
logging, milling, manufacturing, and transporting of wood products. The 
carbon losses are related to logging waste known as slash, milling and 
manufacturing waste such as sawdust, and transportation and process 
emissions. This statistic comes from Figure 8 in Ingerson 2007 which in 
turn cites these two studies: Gower et al 2006 and Smith et al 2006.
    The difference between Ingerson's 15% and Dr. Perry's 30% is 
because Figure 8 (below)* accounts for ``process and transport 
emissions'' by subtracting 17% of the carbon from the 32% found in wood 
products at the end of the manufacturing process. It makes sense to 
account for the carbon consequences of using fossil fuels to process 
and transport wood products.
---------------------------------------------------------------------------
    * Figure retained in subcommittee files.
---------------------------------------------------------------------------
    The bottom line is that logging forests, milling and transporting 
wood products transfers to the atmosphere the majority of the carbon 
once stored in the forest. It is easy to conclude that carbon is stored 
more securely in forests than in wood products because forests can be 
long lived and continue to sequester carbon for long periods, while 
wood products represent only a fraction of the carbon in the forests 
they came from and wood products have relatively short useful life 
spans.
                                 ______
                                 
     Responses of John Tappeiner to Questions From Senator Barrasso
    Question 1. One of the witnesses today is advocating for full 
protection of mature trees and suggests that trees over 100 years in 
age are mature. In my state of Wyoming--and I am told in parts of both 
eastern Oregon and Washington--we have large stands of Lodge-pole pine 
and Ponderosa pine that regenerate in very thick and dense stands that 
have stagnated. The trees never grow large in diameter or very tall. We 
call them dog-hair stands.
    If Congress were to adopt either an age limit or a definition that 
says the land managers should stay out of mature stands of timber, what 
would you recommend be done in these stands that have stagnated but are 
mature or over 100 years in age?
    Answer. I think that there are many definitions of ``mature.'' They 
are based mainly on the experience, values and orientation of the 
person using the term. It is applied to both trees and stands in a 
variety of ways. Mature may mean that the growth of merchantable volume 
is slowing down; or it may mean that a stand is habitat for a 
particular species of wildlife, or that the trees are a certain size. 
Western conifers can grow to very old ages and a wide range of sizes. 
There is no reason that a tree that is 100 or 200 years old should be 
considered ``mature'', when it may live 400 years or more. It is a 
difficult concept to apply without criteria based on species and local 
conditions.
    To me ``dog-hair'' stands are so dense with conifers, and tree 
growth is so slow, that no self thinning occurs. Thus these stands 
remain ``stagnated''--with little change in tree size and stand 
structure.
    If the rule is not to cut trees defined as mature, then I do not 
see what could be done within the stand. There could be an attempt to 
protect these stands from fire by reducing fuels in stands around them. 
In many places dense stands of pine are susceptible to bark beetles. 
Often the larger trees are killed rather than the smaller ones. Of 
course the forest becomes very susceptible to fire after tree mortality 
from bark beetles.
    Question 2. You mention that old-growth trees respond positively to 
the removal of competing trees. You mention that these trees are larger 
than 40 inches in diameter. How big were the trees that were removed in 
the studies that showed this? How old were they?
    Answer. These studies reconstructed the effects of tree removal by 
BLM timber sales. They were not designed studies in which the number 
and sizes of trees were carefully controlled. We took advantage of 
sites where trees were removed from around old-growth trees about 20 to 
50 yr previously to see how these old trees responded to tree removal. 
Tress removed varied in sizes and amounts. On some sites only a few big 
trees were left (about 10 to 20/ac) as shelterwood trees for 
regeneration of a new stand. On some sites big and small trees that 
were judged to be likely to die were removed. We wanted to see if 
removal damaged the remaining trees as evidenced by a reduction in 
their stem growth rates. We found, however that the stem area growth 
rates of many trees increased, indicating a positive effect of 
reduction in stand density. Others found similar results: (McDowell, 
N., J. R. Brooks, S. A. Fitzgerald, and B. J. Bond. 2003. Carbon 
isotope discrimination and growth response of old Pinus ponderosa trees 
to stand density reduction. Plant Cell and Environment 26:631-644.).
    Question 2a. Does this suggest that a national, legislated limit on 
diameter or age is an appropriate prescription for all the old growth 
stands in the Pacific Northwest?
    Answer. No. Flexibility is needed. Decisions regarding what trees 
to leave or to remove are best made case by case. In old-growth Douglas 
fir stands in western Oregon, practically no tree removal is needed to 
conserve these stands. There may be a few exceptions in fire prone 
sites at low elevations. In the pine and mixed conifer forest in 
southern and eastern Oregon considerable removal of trees of a wide 
range of species, sizes and ages is needed--again depending on 
conditions at a specific site. The work mentioned above suggests that 
removing trees from around old-growth trees need not damage them.
    Question 3. If you were going to map all stands of old growth in 
the Pacific Northwest--or anywhere, for that matter--could you write a 
single prescription that could uniformly be applied to all of them in 
order to perpetuate old-growth characteristics?
    Answer. Based on my answers to the questions above, no I could not. 
Forest stands are fairly complex. Some would need considerable work in 
and around them, others would need very little and other would need no 
treatments. What might be needed would depend on the conditions within 
the old-growth stands themselves as well the conditions in the stands 
around them. Variables like susceptibility to fire, insects, wind, 
etc., as well as expectations of local communities, protection of 
private lands, wildlife habitat, etc. etc. could all affect 
prescriptions from site to site.
    Question 4. A majority of the current national forest plans in the 
Pacific Northwest contain a definition for old-growth stands that does 
not specify age. Are you familiar with this definition?--Since you 
state in your testimony that ``age is not likely to provide a useful 
description'' of old growth, what are your concerns with the current 
definition?
    Answer. I am not familiar with definitions other than those 
reported by the PNW Research Station. Those deal mainly with Douglas-
fir/hemlock forests. I am not familiar with definitions for mixed 
conifer, lodgepole, etc. The definitions that I am familiar with do not 
take into account variability within a stand, nor the area over which 
old-growth conditions might occur. The definitions mainly describe 
average values per acre. Questions like what is an acceptable condition 
for an old-growth forest treated to reduce fire susceptibility are not 
addressed, to my knowledge.
                                 ______
                                 
    [Responses to the following questions were not received at 
the time the hearing went to press:]

             Questions for James Caswell From Senator Wyden
    Question 1. Mr. Caswell, your testimony states:

          In 1950, the standing volume on the O&C lands was greater 
        than 50 billion board feet (BBF). Fifty years later, after 
        selling 45 BBF, the standing volume is now 70 BBF due to better 
        information, in-growth and rapid reforestation of harvested 
        lands.

    You seem to be saying that in 50 years BLM removed 90% of the 
standing volume it started with in 1950 and still has 40% more standing 
volume. By this measurement, if no logging had occurred, the standing 
volume on the O&C lands would have more than doubled in 50 years. Can 
you please provide a detailed summary of your calculations for these 
numbers? Its my understanding that in the mid-90s the BLM changed its 
commercial inventory and utilization standards a number of times - 
trending toward a decrease in the minimum tree diameter at breast 
height to qualify for inventory as commercial timber and a greater 
allowance for defects - do your calculations account for those changes?
    Question 2. Turning more specifically to old growth, can you give 
your agency's estimate of what the change in standing acreage of old 
growth has been between 1950 and today? And please indicate how you are 
defining old growth in coming up with these answers.
           Questions for James Caswell From Senator Barrasso
    Question 3. I know you spent a lot of time as a forest supervisor 
in Idaho and I know you understand how many acres have burned in Oregon 
as well as in Idaho that once contained older forests. In your 
estimation, which is the greater threat today to old growth stands, 
fires or timber harvesting? And why?
    In past hearings some witnesses have spoken about protecting old 
growth trees, some have discussed using an age or a diameter limit as 
the criteria for what must be protected. If I recall, the federal 
agency still uses a diameter limit on their lands in eastern Oregon and 
Washington.
    Question 1. Can you tell me how that diameter limit has worked out 
for the Bureau of Land Management? Does it make sense to try and define 
individual trees as old-growth and then protect our forest on an 
individual tree basis?
    Question 2. Would that protect old-growth stands in a way that you 
think is appropriate for old-growth stands or habitat?
    Question 3. If Congress were to impose a no-harvest restriction on 
all trees within old-growth stands, wouldn't the risk of crown fires 
destroying old-growth stands increase?--particularly on dry sites east 
of the Cascade Range?--and even the south facing slopes in the west-
side forests of Oregon?
    Question 4. Are you familiar with the moratorium on harvesting in 
the Giant Sequoia stands in California? If so at what risk are we 
putting those stands when we can't harvest some of the large White-fir 
trees that now provide potential fuel ladders that could put the Giant 
Sequoia as risk if we do have fires in the Giant Sequoia stands?
    Dr. Perry suggested a good mix of management for old growth 
protection would be 30% old-growth reserves: 30% in mature forest 
(recruitment areas for old-growth); and 30% in production forest 
plantations to be managed. The most recent data we have on land 
allocations in the Pacific Northwest Forest Plan is 24.5 million acres. 
Of that approximately 66% of the land is in old-growth and mature 
forest reserves; approximately 4.2 million acres (17%) in Adaptive 
Management Areas and Riparian Reserves where harvesting is 
significantly restricted and about 4 million acres (16%) in the Matrix 
Lands but estimates are that about only 3 million of that is really 
been open to management.
    Question 4. Given Dr. Perry's recommendation what would Congress 
have to do increase the matrix lands up to the 7.35 million acres he is 
calling for?
    Several of the witnesses' testimony on carbon sequestration seemed 
to differ.
    Question 5. What is the Bureau of Land Management's assessment of 
both Dr. Perry's and Ms. Spivak's testimony related to how much carbon 
is stored in wood products once a forest has been harvested, as well as 
on the relative ability of old growth forests to capture and store 
carbon compared to younger forests?

                                    

      

</pre></body></html>
